<html>
<title> - HOMELAND SECURITY: PROTECTING STRATEGIC PORTS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
             HOMELAND SECURITY: PROTECTING STRATEGIC PORTS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 5, 2002

                               __________

                           Serial No. 107-222

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

87-700 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                           Jason Chung, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 5, 2002...................................     1
Statement of:
    Frank, Patricia, commissioner, Hillsborough County, FL; Chris 
      hart, commissioner, Hillsborough County, FL; Steve Lauer, 
      chief, Florida Domestic Security Initiatives, Florida 
      Department of Law Enforcement; and Chief Deputy David Gee, 
      Hillsborough County, FL....................................    58
    Hecker, JayEtta Z., Director, Physical Infrastructure Team, 
      General Accounting Office; Jack Bulger, Acting District 
      Director, accompanied by Denise Crawford, area Port 
      Director, Tampa, U.S. Customs Service; and Ronald Johnson, 
      Port Director, Tampa, Immigration and Naturalization 
      Service; James Baldwin, Director, north Florida Customs 
      Management Center, U.S. Customs Service; Captain Allen 
      Thompson, former captain of the Port Marine Safety Office, 
      Tampa, U.S. Coast Guard, accompanied by Captain James 
      Farley, Captain, Port of Tampa; James F. Jarboe, Special 
      Agent in Charge, Tampa, Federal Bureau of Investigation; 
      James G. Butler, Deputy Under Secretary, Marketing and 
      Regulatory Programs, accompanied by Mary Neal, Assistant 
      Deputy Administrator for Agricultural Quarantine 
      Inspection, Animal and Plant Health Inspection Service; and 
      Carl Davis, Director of Operations, Tampa, U.S. Department 
      of Agriculture; and Gary Dykstra, Southeastern Regional 
      Food and Drug director.....................................   102
    Williamson, George, port director and CEO, Tampa Port 
      Authority; Stephen White, president, Maritime Security 
      Group; Willie Tims, Jr., vice president, IMC Phosphates MP, 
      Inc.; Thomas Hindle, president, CTL Distribution; Arthur 
      Savage, president, A.R. Savage and Sons, Inc.; and Janet 
      Kovack, corporate community affairs specialist, CF 
      Industries.................................................    11
Letters, statements, etc., submitted for the record by:
    Baldwin, James, Director, north Florida Customs Management 
      Center, U.S. Customs Service, prepared statement of........   144
    Bulger, Jack, Acting District Director, Tampa, U.S. Customs 
      Service, prepared statement of.............................   129
    Butler, James G., Deputy Under Secretary, Marketing and 
      Regulatory Programs, prepared statement of.................   169
    Davis, Hon. Jim, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     8
    Dykstra, Gary, Southeastern Regional Food and Drug director, 
      prepared statement of......................................   174
    Frank, Patricia, commissioner, Hillsborough County, FL, 
      prepared statement of......................................    61
    Gee, Chief Deputy David, Hillsborough County, FL, prepared 
      statement of...............................................    81
    Hecker, JayEtta Z., Director, Physical Infrastructure Team, 
      General Accounting Office, prepared statement of...........   105
    Hindle, Thomas, president, CTL Distribution, prepared 
      statement of...............................................    36
    Jarboe, James F., Special Agent in Charge, Tampa, Federal 
      Bureau of Investigation, prepared statement of.............   158
    Kovack, Janet, corporate community affairs specialist, CF 
      Industries, prepared statement of..........................    45
    Lauer, Steve, chief, Florida Domestic Security Initiatives, 
      Florida Department of Law Enforcement, prepared statement 
      of.........................................................    68
    Savage, Arthur, president, A.R. Savage and Sons, Inc., 
      prepared statement of......................................    39
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Thompson, Captain Allen, former captain of the Port Marine 
      Safety Office, Tampa, U.S. Coast Guard, prepared statement 
      of.........................................................   151
    Tims, Willie, Jr., vice president, IMC Phosphates MP, Inc., 
      prepared statement of......................................    29
    White, Stephen, president, Maritime Security Group, prepared 
      statement of...............................................    20
    Williamson, George, port director and CEO, Tampa Port 
      Authority, prepared statement of...........................    14

             HOMELAND SECURITY: PROTECTING STRATEGIC PORTS

                              ----------                              


                         MONDAY, AUGUST 5, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                         Tampa, FL.
    The subcommittee met, pursuant to notice, at 1:05 p.m., 
Tampa Port Authority, 1101 Channelside Drive, Tampa, FL, Hon. 
Christopher Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays and Putnam.
    Also present: Representative Davis of Florida.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; and Jason 
M. Chung, clerk.
    Mr. Shays. A quorum being present, this hearing of the 
Subcommittee on National Security, Veterans Affairs and 
International Relations, entitled, ``Homeland Security: 
Protecting Strategic Ports,'' is called to order.
    I would like to welcome our witnesses and guests and, to 
someone who lives in Connecticut, tell you that it is a 
pleasure to be in Tampa, to have our committee be here at the 
invitation of the vice chairman of the committee Mr. Putnam.
    It is also a pleasure, Mr. Davis, to be in your district 
and to have you participate today.
    The globalization of just-in-time trade brings bustling 
economic vitality to America's ports. Ninety-five percent of 
international goods entering the U.S. flow through these vital 
trade nodes, representing fully 25 percent of our gross 
domestic product.
    But the growing pace and volume of that trade also brings 
growing vulnerabilities. Containers listed as holding high-tech 
machinery can also contain smuggled nuclear material for use in 
a dirty bomb. Sailors who slip away from their ships could be 
delivering orders to activate an al Qaeda cell.
    In the aftermath of the September 11th attacks, tightening 
security at ports and borders stalled the movement of parts and 
equipment essential to economic activity and growth. We learned 
a disrupted port means a badly disrupted economy. It was a 
lesson not lost on would-be terrorists.
    A qualitative not a quantitative approach is required to 
improve port security. Various estimates about the tiny 
fraction of imports actually inspected could be reassuring, not 
frightening, if we could be sure that the right ships and 
warehouses were being inspected, those posing the most risk. 
Knowing that is a matter of intelligence at ports of origin, of 
diligence in the search for anomalies in a sea of routine trade 
data, and a vigilance in engaging high-risk cargoes before they 
reach the dockside. Tension between tighter security and faster 
commerce is inevitable.
    Our witnesses today all understand that tension, and they 
are trying to strike a balance that will result in safer and 
more productive ports. As evidenced by our lengthy witness 
list, it is a complex job involving numerous governmental and 
private entities. We appreciate their willingness to join us 
today, and we look forward to their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.001
    
    [GRAPHIC] [TIFF OMITTED] T7700.002
    
    Mr. Shays. At this time the Chair would recognize Mr. 
Putnam.
    Mr. Putnam. Thank you, Mr. Chairman. And I want to thank 
you for your leadership on this issue and for allowing the 
subcommittee to conduct the field hearing here in Tampa.
    The Port of Tampa is the largest port by tonnage in the 
State of Florida. In fact, Tampa handles almost as much cargo 
as Florida's other 13 deepwater seaports combined. The port is 
Florida's largest seaport and handles nearly half of all 
seaborne commerce that passes through the State. It is the 12th 
largest cargo port in the Nation, and with several homeported 
passenger vessels, it has become a major cruise port.
    Now, Florida finds itself in the position of being a 
sentinel State on a variety of issues. We are a major tourist 
destination. We are the gateway to the Western Hemisphere for 
north-south trade routes. We are uniquely situated to 
unfortunately bear a large brunt of the drug trade, illegal 
narcotics as well as humanitarian issues. So when you talk 
about the role of the Coast Guard or the role of the seaports 
or the role of the Federal agencies in Florida, it is a very 
unique situation that you are talking about.
    In these seaports we have over 600 laws that have to be 
enforced, 500 different trade agreements that have to be 
enforced and interpreted, and in attempting to do that we have 
60 different Federal agencies sometimes working together, 
sometimes not. In the aftermath of September 11th, I believe 
that the Congress and this Nation has spent a great deal of the 
resources and time and energy in effect closing the barn door 
after the horse is out. We have focused the vast majority of 
our attention on airport security at the expense of seaport 
security, and in creating the Department of Homeland Security, 
which the House passed before the district work period, we 
focused--we attempted to bring together all of the agencies 
that we might have a seamless border security department.
    And in order to do that, we have to acknowledge and 
recognize the critical vulnerabilities that lie in our 
seaports. In this port alone we have 50 percent of the 
hazardous cargo that comes in and out of Florida right here. It 
extends way beyond the greater Tampa area.
    As someone who represents a substantial portion of the 
interior portion of the State, with industry such as phosphate 
and citrus that are dependent upon being able to move goods and 
services, it has a tremendous impact on us. It has a tremendous 
impact on the environment. We have the headquarters of Central 
Command and Special Operations Command at MacDill which pose 
unique vulnerabilities in and of themselves. And we have a 
substantial civilian population on Davis Island and Harbour 
Island, literally a stone's throw from tank farms for 
petroleum, for grain, and for ammonium nitrate.
    So this port, Mr. Chairman, gives you a unique sampling of 
the issues that all of our Nation's seaports face, particularly 
those that are commercial. Our subcommittee has done an 
outstanding job, I believe, of focusing on our strategic 
seaports, those that the military depends on for rapid 
deployments of troops and material overseas.
    What this hearing, I believe, can accomplish is allowing us 
to build a body of evidence and a record to take back to our 
colleagues who may not represent seaports and may not represent 
major commercial hubs, to prove to them that homeland security 
needs are not only in our airports, and they are not only on 
our northern and southern borders. Our east coast and our west 
coast are substantial vulnerabilities, and we have proof of 
that with situations such as 4 years ago when we intercepted 
two Scud missiles that had been imported into the Port of Long 
Beach, made it through all of the systems, made it through all 
of our agencies, made it through all of our safeguards, and 
ended up in the hands of a private weapons collector.
    Those types of vulnerabilities have to be plugged, and the 
gaps in our homeland security, particularly in our seaports, 
and particularly along our coastal areas, have to be addressed. 
And we are very fortunate to have a number of industries and 
stakeholders and user groups and the whole patchwork of Federal 
agencies who are here today who can give us some insight into 
how we can best do that at the Federal level.
    But the important issue is that it is a Federal problem. 
Florida has done an outstanding job of preparing a port 
security plan, but they need Federal help. They need additional 
resources, they need additional funds, and we need additional 
priority given to seaport security.
    And so I appreciate the opportunity that you are giving 
this community in the Tampa Bay area and these stakeholders to 
be able to showcase what we are doing right and have an 
opportunity to learn how we can be more smart, use better 
technologies and more efficiencies to continue to be the hub of 
commerce for this hemisphere, and take a great leap forward in 
terms of the security that we provide our citizens and 
stakeholders.
    Thank you, Mr. Chairman, for the leadership on this issue.
    Mr. Shays. I thank the gentleman. I continue to learn from 
you every time you speak, and feel very blessed that you are 
the vice chairman of this committee.
    I would welcome, again, Congressman Jim Davis, and ask 
unanimous consent that he be permitted to sit with the 
subcommittee and participate fully in these hearings. Without 
objection, so ordered.
    And, Mr. Davis, again, thank you for your hospitality. 
Wonderful to be in your district.
    Mr. Davis of Florida. Thank you, Mr. Chairman, for the 
chance to join you. And thanks again for bringing your 
committee here, along with Adam as your vice chairman. Your 
presence, as Adam mentioned, underscores this is not just a 
local and State issue, it is indeed a national issue.
    It has been my privilege to serve with Chris Shays on the 
Budget Committee and to work very closely with him in a long, 
hard-fought, successful battle for campaign finance reform. 
Chris Shays has an earned reputation for speaking his mind and 
tackling difficult national issues. It is our hope today, 
Chris, to arm you with some compelling information about the 
present and future successes of this port as an economic engine 
for a multitude of congressional districts, and the needs that 
Adam highlighted.
    I am going to mention a few other facts as well. This port 
is estimated to have an annual economic impact of $10.6 
billion, affecting 93,000 people's jobs. I think it is fair to 
say the Port of Tampa represents one of the most strategic and 
critical assets of the entire State of Florida. Highlight some 
other examples that Adam Putnam alluded to: Fifty percent of 
the motor fuel, gasoline and jet fuel coming to the State of 
Florida comes in through this port, including the fuel provided 
to the Sarasota, Ft. Myers, and Orlando airports, as well as 
CENTCOM at MacDill Air Force Base. This port encompasses 2,500 
acres.
    There is a clear funding shortfall, Mr. Chairman. As I am 
sure you would expect, we have tried to do everything we can 
here at home through funding, through local devices, and as 
well as the State, but we still have a shortfall of $12 million 
even after having recently earned a very successful grant of 
$3.5 million from the Transportation Security Administration.
    I put in a request for $1 million in the Transportation 
Subcommittee for some funding for this particular port for 
information, technology, but the most critical item, Mr. 
Chairman, for this port and for the entire State of Florida, 
will be the level at which we fund the Transportation Security 
Agency Seaport Security Grant Program. Last year that program 
distributed $92 million in response to requests of over $700 
million from around the country, and I think it is fair to say 
that no State has as much at stake as the State of Florida 
does, and thus fully funding that program this year as part of 
creating the Department of Homeland Security.
    So I look forward to the testimony, and I appreciate the 
fact that you have made a trip here and brought your 
subcommittee, and thank you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    [The prepared statement of Hon. Jim Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.003
    
    [GRAPHIC] [TIFF OMITTED] T7700.004
    
    Mr. Shays. I would ask unanimous consent that all members 
of the subcommittee be permitted to place an opening statement 
in the record, and that the record remain open for 3 days for 
that purpose. And without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    And I would like to thank our second and third panel. 
Usually we have government officials go first, particularly 
Federal. That is the protocol. And the Federal officials have 
willingly agreed that they would listen to the port users 
first, the State and local second, and then be able to comment 
on what they have heard. And I just appreciate their 
willingness to allow that, us to proceed in that way.
    I would also say that we sometimes have three panels, 
clearly, but we don't usually have 17 witnesses. I have been 
very liberal in the past with allowing people to go over 5 
minutes, but this is what we are going to do. Jason is going to 
be having a clock be a 5-minute clock. It will be turned red. 
We are going to leave the red on. We usually flip it over. When 
we get a minute past that, he will just put his finger up for 
me, and I will start to do a gentle tap. So you can kind of go 
6 minutes. But with all due respect, given that we have 17 
witnesses, I think you would understand why we need to move it 
along.
    And I would also thank Mark Stuart, who is our official 
reporter. Mark, you are allowed to put that in the transcript, 
and say that I think we only have one transcriber. He is the 
one person here I am certain is working today. And so we will 
have a quick break between each of our panels to allow his 
fingers to relax.
    Let me welcome our first panel. Our panel consists of Mr. 
George Williamson, who is port director and CEO of the Tampa 
Port Authority; Mr. Stephen White, who is president, Maritime 
Security Group; Mr. Willie Tims, Jr., vice president, IMC 
Phosphates MP, Inc.; Mr. Thomas Hindle, president, CTL 
Distribution; Mr. Arthur Savage, president, A.R. Savage and 
Sons, Inc.; and Ms. Janet Kovack, corporate community affairs 
specialist, CF Industries.
    Now, we swear our witnesses in because we are an 
investigative committee. I think you know that. So we will ask 
you to rise and raise your right hand. I will say that we do it 
with all of our witnesses. There is only one who has escaped 
that, and that was Senator Byrd, and the reason he wasn't sworn 
in is I chickened out.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all of our witnesses 
have responded in the affirmative.
    I am sorry, but we do have some seats up front if some 
would like to sit up front. If we have any students who are 
here, they could sit in the three chairs there. Anyone who is a 
student here is welcome to do that.
    Well, let us begin. I would like you to--Mr. Williamson, to 
proceed, and we will just go right down the list, and then Mr. 
Putnam will start off with questions and then Mr. Davis, and 
then I will have some questions to add. So let us begin.

 STATEMENTS OF GEORGE WILLIAMSON, PORT DIRECTOR AND CEO, TAMPA 
  PORT AUTHORITY; STEPHEN WHITE, PRESIDENT, MARITIME SECURITY 
  GROUP; WILLIE TIMS, JR., VICE PRESIDENT, IMC PHOSPHATES MP, 
   INC.; THOMAS HINDLE, PRESIDENT, CTL DISTRIBUTION; ARTHUR 
   SAVAGE, PRESIDENT, A.R. SAVAGE AND SONS, INC.; AND JANET 
 KOVACK, CORPORATE COMMUNITY AFFAIRS SPECIALIST, CF INDUSTRIES

    Mr. Williamson. Thank you, Mr. Chairman, and thank you, 
Congressman Putnam and Congressman Davis. Always great to see 
you. And thank you for providing us this opportunity to chat 
with you today, for allowing the Port of Tampa to host this 
field hearing here in our new public facility here.
    I will say this, that enhancing port security impacts our 
agenda at the Port of Tampa unlike any other issue that we have 
had to face both logistically and financially. And I would like 
to add to a couple of the statistics that were pointed out, 
because you are absolutely right on the money about the Port of 
Tampa. It is the largest port in the State of Florida, handles 
the most tonnage. It is the 12th largest in the Nation and so 
forth.
    But, if I may for just a second, I would like to speak for 
the entire Tampa Bay port area, because we have two additional 
ports, Port Manatee and the Port of St. Petersburg. Together 
the three ports encompass 150,000 jobs, and that economic 
impact moves up from 10.6 to about $12 billion when we put it 
all together. So this area is really rich in the maritime 
activity.
    As you spoke quite truthfully, the amount of energy 
products that come to this port are enormous. Last year we 
handled 17 million tons of energy products that came through 
this port alone, the Port of Tampa. And our economy depends on 
a continuous flow of these fuel products as local storage 
capacity is limited to about 7 days. And as you know, we are 
the largest port in the world for the shipment of fertilizer 
and fertilizer products.
    Historically the mandate for port authorities has been to 
oversee commercial development and expansion of their 
respective ports with a focus on job creation in and around the 
immediate port area. Interestingly, in 1999, well before the 
events of September 11th, the State of Florida began to explore 
an entirely new role for seaports, and that was overseeing and 
implementing massive new security measures.
    Florida seaports have worked together in a unified manner 
to move forward, perhaps with the most advanced security 
planning of any port security in the United States. There are 
an awful lot of people to thank for this, including the 
Governor's Office of Drug Control and the FDLE. But I would say 
that when--by the time September 11th happened, Florida 
seaports were 18 months ahead of the rest of the Nation in 
preparing for unprecedented security challenges posed by those 
events.
    We have already begun, for example, a badging process that 
involves criminal background checks not only here with the FDLE 
in the State of Florida, but also through the FBI. We want to 
know who is working in this port, who is coming in and out, and 
do all of that for the purpose of access control.
    The crux of what we are facing today, I think, is brought 
out by the title of this discussion, and that is facilitating 
trade and securing seaports. Tampa handles today 12,000 truck 
movements through its port. If you add in the port of Manatee, 
we handle 15,000 trucks a day through dozens of marine 
terminals.
    The Port of Tampa alone encompasses 2,500 acres sprawling 
all over Hillsborough County, which requires 30 miles of new 
fencing to comply with State standards. As you pointed out, 
half of the State's hazardous cargo moved through this port, 
and much of the port is located near major population centers 
in and around downtown Tampa. And we are situated just several 
miles from MacDill Air Force Base. We are one of America's 
fastest growing cruise ports, expecting over 700,000 passengers 
this coming year.
    What happens at the Port of Tampa affects the entire Tampa 
community, but this diverse commercial portfolio so vital to 
our State's economy presents profound security challenges. The 
stability and viability of the seaport's enterprise will be 
jeopardized if security measures are implemented that 
significantly impede the flow of commerce.
    Just to give you an example, if we stopped each one of our 
trucks--this was a study done by the Florida Department of 
Transportation--if we stopped each one of the trucks entering 
port for just 3 minutes to verify who they are and where they 
are coming and check their badge, that type of thing, we will 
have a 21-mile backup within 3 hours. Clearly we have to use 
technology to be able to push these trucks, identify them, and 
move them quicker and quicker and quicker in and out of the 
port without endangering security.
    Mr. Shays. I am a pretty impressionable person. Do you 
literally mean 21 miles?
    Mr. Williamson. I believe that number is correct, sir, from 
the Department of Transportation.
    And Tampa, like other Florida ports, has embarked on 
unprecedented security upgrades; hard costs for infrastructure, 
such as lighting, fencing, surveillance systems, access control 
will move in the order of about $17 million. In addition to 
that, recurring annual soft costs for additional security 
personnel are expected to run $5 million a year.
    Let me put that in perspective for you. On an annual basis, 
generally the port brings to the bottom line about $6 million, 
after paying for all of its costs. So what happens is that the 
other dollars go directly into security, and there are very few 
dollars left over for the infrastructure that we are required 
to do for cranes, warehouses, berths, docks, that kind of 
thing.
    I can't overemphasize the need for outside funding. We are 
using every penny that we have to make sure that we comply with 
all of the State standards. We have received some support, and 
we were certainly interested in having some more.
    I see my time is about up, but I would like to thank you 
for this opportunity to tell you that we appreciate the work 
that you have done, and we certainly hope that you can provide 
us with some ad-
ditional funding in the future years in Congress. Thank you 
very much.
    Mr. Shays. Thank you, Mr. Williamson. Between our two 
Florida members and you, I think you have set us up well.
    [The prepared statement of Mr. Williamson follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.005
    
    [GRAPHIC] [TIFF OMITTED] T7700.006
    
    [GRAPHIC] [TIFF OMITTED] T7700.007
    
    [GRAPHIC] [TIFF OMITTED] T7700.008
    
    Mr. Shays. Mr. White. You live where?
    Mr. White. Thank you very much, Mr. Chairman. I am from the 
great State of Connecticut.
    Mr. Shays. Among this group, Mr. White, you are first among 
equals.
    Mr. White. Thank you, sir.
    So as I mentioned, my name is Stephen White. I am the CEO 
of the Maritime Security Group, again from the great State of 
Connecticut. Thank you for allowing us the opportunity to 
participate in this hearing today.
    Most of my comments today, and my testimony, are based on a 
survey that my group made for the Connecticut Maritime 
Association in the spring of 2002. The survey sought to ask the 
opinion of the maritime industry for their comments on 
legislation proposed at that time.
    The threats and the vulnerabilities to the seaport we view 
as vulnerabilities to the cargo ships. We are cargo-ship-
centric from that point of view, and we view the cargo ship, 
because it is big and ponderous, and is unable to defend 
itself, and it has only probably 20 to 25 crewmen onboard, as 
the center of the insecurity of the seaport.
    So if you consider that the ship is sitting in the center, 
then around that will become the port facility, which is also 
very unlikely to be able to defend itself as probably a storage 
facility. Then around that the third ring would be the seaport, 
which has to be a primary ring of security for the seaport 
environment. The further ring is what is--what the Customs have 
now identified as the area where the cargo is actually loaded, 
and the Customs Department, we applaud them in pushing the ring 
of security out to where the cargo is being loaded.
    So ships are unable to defend themselves, but they can 
carry weapons, and the weapons can be introduced into the ship 
either knowingly or unknowingly by people, could be crew 
members, could be in the cargo, or could be in terms of goods 
and services. So the primary job of the ship is to find out who 
is coming and who is leaving the ship.
    The role of government agencies is something different. A 
number of government agencies, we think, has a role to the 
security itself. And seaports are very complicated, and they 
have a lot of different jurisdictions, a lot of different 
government agencies. For cargo there is Customs and 
Agriculture, there is Seafarers, there is INS, there is the 
Coast Guard, DEA, and there is a range of local responders who 
need to be brought into the picture should an incident occur, 
so they need to be tied in early on.
    Now, if you consider that security is awareness, 
prevention, response and consequence management, then what we 
have is a problem of managing the agencies. We have got to 
organize them in such a way that they will communicate with 
each other, and then we have to train them in their jobs of 
communication and practice what they are doing through drills.
    In our survey we identified that the most important issue 
facing maritime industries was getting reliable information 
from the myriad of government agencies. Second most important 
was the need to avoid dealing with multiple government 
agencies. Third, we asked the industry who should be in charge 
of maritime security. They said, unanimously, the Coast Guard, 
because the Coast Guard is the one that they know.
    So this all took place before the Department of Homeland 
Security was initiated by the President, but now that we see 
that it is come into the forefront, it seems to satisfy these 
needs that have been brought about. So we would like to see the 
Department of Homeland Security have a strong mission in port 
security. We would like to see it include the Coast Guard.
    Our survey also identified that the industry is concerned 
that new rules should balance security with cost. And there--
there is a big worry--I think Mr. Williamson was correct in 
pointing out this is a big worry among our users. Time is 
money, and anything we do to slow down the industry is going to 
negatively impact it.
    What are the challenges facing the government agencies? 
Well, our survey identified that one of the concerns was that 
the United States would go off on its own track after having 
recommended legislation to the international community, with--
the United States would go off on its own track, which it has 
done before. We believe that terrorism is an international 
problem. Maritime security, because the maritime industry is a 
global industry, has to be dealt with with international rules.
    Our survey also identified that the biggest threat to the 
maritime environment was the dry box container. Securing a 
seaport against the threat of weapons in a dry box container is 
a daunting task. Again, we applaud the Customs Department on 
their great initiatives, the CSI and the CTPAT initiative, 
which basically pushed the boundaries out away from the 
seaports of the United States.
    So, in conclusion, I would like to sum up by saying that 
organization and communication among government agencies is a 
key to security. There is a need, a strong need, for an 
international approach. The rest of the countries can follow. 
There is a need for economic common sense to prevail. Thank 
you.
    Mr. Shays. Thank you very much, Mr. White.
    [The prepared statement of Mr. White follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.009
    
    [GRAPHIC] [TIFF OMITTED] T7700.010
    
    [GRAPHIC] [TIFF OMITTED] T7700.011
    
    [GRAPHIC] [TIFF OMITTED] T7700.012
    
    [GRAPHIC] [TIFF OMITTED] T7700.013
    
    [GRAPHIC] [TIFF OMITTED] T7700.014
    
    [GRAPHIC] [TIFF OMITTED] T7700.015
    
    Mr. Shays. Mr. Tims.
    Mr. Tims. Thank you, Mr. Chairman, for the opportunity to 
speak before you, and to Representative Davis and 
Representative Putnam. And I spent time in the great State of 
Connecticut, lived there for several years, so I hope that 
gains me a few points.
    Mr. Shays. It definitely does. Why did you leave?
    Mr. Tims. My wife.
    My name is Willie Tims, and I am a Hillsborough County 
resident, and vice president of environmental health, safety 
and security for IMC Phosphates Co. in Mulberry, FL. Today, 
however, I am speaking on behalf of several phosphate companies 
that have a presence in the Port of Tampa.
    America grows on Florida phosphate. Phosphate is a natural 
product that is essential for home gardeners and farmers across 
the country, and also around the world. Ninety percent of 
phosphate from Florida is used in agricultural products such as 
crop nutrients and animal feed supplements, while the 
remainder, of course, is used in a variety of consumer goods 
from soft drinks and light bulbs to vitamins and other consumer 
goods.
    Florida produces 75 percent of the U.S.' demand for this 
essential product and 25 percent of the world's supply. In 
2001, Florida companies produced more than 13 million tons of 
phosphate and related products, primarily for the agricultural 
industry. The phosphate industry is one of Florida's largest 
and oldest, tracing its roots back to the late 1800's. Today 
the industry employs a little bit more than 6,000 Floridians 
with an annual payroll and benefits totaling more than $400 
million. These employees empower an industry that generated 
more than $975 million in State mining taxes since 1971, 
including $32 million in 2001 alone.
    Florida phosphate industry generated $131.4 million in 
property tax and $14.9 million in sales tax last year. Though 
the industry's most important market is domestic, phosphate 
exports plays a major role in the industry viability and 
Florida's economy. The phosphate industry provides the No. 1 
export from the Port of Tampa. During 2001, the Port of Tampa 
reported 39 countries as phosphate export destinations. China 
was a major export destination with 1.7 million tons of 
phosphate chemicals, followed by Australia, Japan and Brazil.
    According to Enterprise Florida, Incorporated, fertilizer 
was one of the State's leading export commodities with a 2001 
value of more than $1 billion. The International Fertilizer 
Institute Association reported that during 2000, the United 
States accounted for 52 percent or world trade in phosphate 
fertilizers. The 2001 figures are still in preparation; 
however, we still believe that our share is expected to remain 
essentially constant.
    Our presence at the port and our ability to operate our 
terminals in Tampa are essential to our continued business 
success. Four phosphate companies, IMC Phosphate, Cargill Crop 
Nutrition, CF Industries, and Farmland Hydro operate within the 
jurisdiction of the Tampa Port Authority. Those terminals 
encompass more than 1,000 acres of property and employ more 
than 600 people full time, in addition to a number of part-time 
and contract workers. All of these facilities operate under 
risk management practices established under the 1990 Clean Air 
Act.
    Since September 11th, a number of heightened security 
measures have been implemented to strengthen applied controls 
and to enforce existing security measures to proactively 
mitigate potential threats. Some of these measures include 
facilities added approximately 3,000 feet of chain-link 
fencing, augmented by additional passive deterrence measures 
such as barbed wire and concertina wire, the installation of 
barricades and supplemental measures at critical traffic 
points. Additional closed-circuit television cameras were added 
to an existing electronic surveillance system. Concrete 
bollards and gates were added to further secure all rail and 
car access. These areas are tightly monitored by facility 
personnel to prevent breaching of security areas during rail 
car transfers into and out of our facilities.
    Access control requirements mandated by the seaport 
security standards are in place and maintained by port 
authority security. All tenants of the port are required to 
submit to a fingerprint-based State and national criminal 
history economic. After completing the background 
investigation, all authorized employees are provided with 
identification badges limiting access to specific port areas.
    I am going to skip through--looking at the time here--and 
point out that we work very closely with a number of local and 
State law enforcement agencies, from the Hillsborough County 
Sheriff's Office, to the Tampa Bay Police Department, the FBI, 
the U.S. Customs Service, and also U.S. Immigration and 
Naturalization Service.
    Many of these agencies, along with several port tenants and 
the port authority, participate in the Tampa Bay Harbor Safety 
Committee. This committee meets regularly to coordinate matters 
between the interested parties. These meetings are well 
attended and are very useful in communicating security 
information about the port.
    The committee has reviewed presentations from security 
consultants on a variety of topics ranging from antiterrorism 
and force protection to underwater robotic vehicles for use in 
port inspection.
    Mr. Shays. Thank you, Mr. Tims. I realize that 5 or 6 
minutes doesn't do justice to what we do need to say, but it is 
a good start. Thank you very much.
    [The prepared statement of Mr. Tims follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.016
    
    [GRAPHIC] [TIFF OMITTED] T7700.017
    
    [GRAPHIC] [TIFF OMITTED] T7700.018
    
    [GRAPHIC] [TIFF OMITTED] T7700.019
    
    [GRAPHIC] [TIFF OMITTED] T7700.020
    
    Mr. Shays. Mr. Hindle.
    Mr. Hindle. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to be here today. My name is Tom 
Hindle. I am the president of CTL Distribution. We are a wholly 
owned subsidiary of Comcar Industries, who is the fifth largest 
privately owned trucking company in the United States.
    We have interests in Florida at 2 points primarily. One is 
Jacksonville, where we do a minor amount of business to the 
tune of only 108 loads a year. But in the port of Tampa, we do 
an annual load count of 215,000 loads a year, with an annual 
revenue in excess of $20 million. That $20 million is one-third 
of our nationwide revenue that our trucking company generates.
    The commodities we haul to and from the Port of Tampa are 
molten sulphur, sulfuric acid, DAP, water, caustic soda, 
anhydrous ammonia, GTSP, phosphoric acid and coal.
    In the Port of Tampa each day, CTL alone averages 590 loads 
in and out of the port, utilizing 187 different drivers. The 
drivers that we have assigned to the Port of Tampa No. 308, and 
they are used exclusively for shipments from and to the Port of 
Tampa. The interesting part, in trying to get together this 
group of 308 drivers, we employ 17 different nationalities that 
are represented in a cross-section of our drivers.
    Sixty-nine percent of our local industry shipments, which 
averages 860 loads a day, come to or from the Port of Tampa. 
The average of 860 loads a day--we can haul in excess of 1,000 
loads a day, and again 69 percent access the port.
    We have had some challenges to date. The challenges to date 
are with the initial impact of the access control and badging 
system. To date we have had poor utility of our assets, 
tractor-trailers and drivers. We have experienced diminished 
revenue. We have seen a reduction in our available DOT log 
hours. And per the DOT hours of service regulation, time must 
be logged as on-duty not-driving, which hinders our drivers' 
productivity. We therefore have to supplement our drivers with 
increased miscellaneous pay for these delays in the access 
control badging system, which results in reduced driver 
earnings, diminished service to our valued customers, and with 
the new port security measures, the initial cost of driver 
background checks has increased 374 percent.
    We anticipate that once we get past the initial access 
control badging system and all of the problems inherent in 
that, that the overall impact to CTL is yet to be determined. 
We have a small terminal in the port called Detsco. We closed 
that effectively on August 1. Our reason for closing the 
facility, it did in excess of $400,000 a year in revenue, but 
the impending cost of security with 24-hour guards, lighting, 
fencing improvements would exceed $150,000 a year. The return 
on investment was not prudent for us to continue.
    We are also going to proceed to equip 139 of our power 
units, our tractors, with a Qualcom system. We currently use 
company radios in local operations, but because we do embrace 
security, we want to equip all these tractors with positioning 
systems so we can tell at any moment where each and every truck 
is.
    We expected that the ongoing cost of the additional badging 
of 308 drivers a year--and unfortunately in our industry we 
experience 120 percent turnover, so you can see how you can 
multiply those costs.
    Mr. Shays. Explain the 120 percent. I'll ask later.
    Mr. Hindle. To summarize, I would like to say that we 
appreciate all of the initiatives the port has taken. We are 
only optimistic that the unknown efficiencies regarding port 
access will be resolved in the not too distant future so we can 
provide service to our customers and retain a level of 
profitability. Thank you very much.
    Mr. Shays. Thank you very much, Mr. Hindle.
    [The prepared statement of Mr. Hindle follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.021
    
    Mr. Shays. Mr. Savage.
    Mr. Savage. Thank you, Mr. Chairman, committee members. 
Welcome to Tampa. My name is Arthur Savage. I have been asked 
by the Tampa chapter of the Propeller Club of the United States 
to speak to you today.
    As a past president of the Tampa Chapter of the Propeller 
Club, I commend you on your decision to include Tampa in your 
hearings, and the Propeller Club as an attendee. The Tampa 
chapter is one of the oldest and most active in the country, 
representing a cross-section of port industries. Its members 
are from shipyards, terminals, ship chandlers, ship pilots, 
port authorities, tugboat companies, ship agencies, and 
admiralty attorneys to name but a few. The diversity of our 
membership gives us the opportunity to both hear and express 
views of the port community, providing a forum with great depth 
and breadth.
    The purpose of this hearing, ``to examine the impact of 
efforts to secure seaports from terrorist attack on the free 
and uninterrupted flow of trade,'' is both well defined and 
needed. While the securing of our seaports is of utmost 
importance, if not properly done it can be ineffective, 
expensive, and, in fact, a burden, and drive the cost of 
trading with the United States up, making it noncompetitive.
    One of the greatest strengths of our country is trade, of 
which nearly all international trade travels through our 
seaports. We believe, therefore, that part of your purpose that 
focuses on the free and uninterrupted flow of trade should be 
your guiding light when developing your goal of securing our 
seaports.
    I am also the president of A.R. Savage and Sons, a 57-year-
old ship agency and ocean freight forwarder that represents 
ship and cargo interests that trade in and out of the ports of 
Tampa Bay. Our agency deals with a maze of different government 
agencies in order for a vessel to enter the port, be cleared to 
load or discharge, and get them out on their voyage in a safe, 
expeditious manner, and at a cost competitive to our domestic 
and international competitors.
    Some of the difficulties are on a local level as well. 
Tampa Bay has three separate port authorities, three Customs 
districts, with half of the terminals being on port property 
and governed by the port authorities, and the other half being 
private.
    An example of the complexities involved on a foreign-
flagged vessel coming from a foreign port with a foreign crew 
is that we now have to deal with Federal, State and local 
agencies, ranging from the U.S. Coast Guard, to U.S. Customs, 
to the Immigration and Naturalization Service, to Agriculture 
and the local port authorities to name but a few.
    Since September 11th, in addition to all of the other 
operational arrangements necessary to coordinate the arrival of 
a vessel, we now must send pertinent information regarding the 
vessel, her crew and cargo 96 hours prior to arrival to the 
U.S. Coast Guard for them to investigate, with other government 
agencies. After their research, we either get permission for 
the vessel to enter port, or it is denied. Rather than creating 
more bureaucracy for us to wade through, this solution uses 
existing assets, forces them to coordinate their collective 
efforts to assess potential risk to the port prior to allowing 
the vessel in port. I believe this represents a timely, 
effective solution to protect our ports without additional 
expense or cumbersome bureaucracy.
    I believe the ports of Tampa Bay, with its cohesive port 
community and proactive efforts to address security and safety, 
are a model for other ports in the United States to follow. Our 
community has had a marine advisory council in place for 
decades to address navigational and safety issues on Tampa Bay. 
Today, it solicits input, disseminates it, and provides that 
information to the Tampa Bay Harbor Safety Committee through a 
seat on the board, which also includes the Propeller Club and 
various other industry and governmental agencies. Having this 
in place along with its committees has allowed us to address 
issues intelligently, proactively before they are problems. 
This in large part is why the ports of Tampa Bay are so safe 
and efficient to call.
    A glaring example of our proactive efforts was evident 
after September 11th. At the request of the U.S. Coast Guard 
Captain of the Port, this agency was able to simply convene its 
existing port security committee to provide the forum to make 
prompt and effective security assessments and suggestions to 
Federal, State and local authorities in a timely and cost-
effective manner. As a result of this valuable resource being 
in place, steps were taken to protect our ports long before 
other ports could react.
    Trade is why ports exist. U.S. ports are among the most 
expensive in the world. This is largely due to a high 
percentage of the costs which are related to the plethora of 
government regulations imposed on companies, such as 
employment, environmental, taxes, permitting, licensing, 
building, etc. Already we are hearing of additional costs that 
will be related to additional security, when most of the 
physical security measures that we have seen put in place will 
have little or no effect on deterring a determined terrorist. 
They are effective, though, in burdening the customers, 
employees and vendors who derive their livelihoods from the 
port.
    I believe that we have capable and willing agencies in 
place to deal with this threat. Untie their hands, give them 
resources, break down the barriers, eliminate redundancies and 
promote communication. The last thing we need is more 
bureaucracy or agencies to further confuse the already 
complicated system of defending our Nation and Constitution.
    We also hope that the Committee on Government Reform aimed 
at dealing with this threat will listen to the industries 
affected. They are our most valuable asset. Thank you very 
much.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. Savage follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.022
    
    [GRAPHIC] [TIFF OMITTED] T7700.023
    
    [GRAPHIC] [TIFF OMITTED] T7700.024
    
    Mr. Shays. I am reluctant to draw you to the 6-minute 
closure because you are providing a little bit of controversy. 
That always makes the hearing more interesting.
    Mr. Savage. I am open for questions.
    Mr. Shays. Ms. Kovack, you will close us out? Then we will 
start with questions.
    Ms. Kovack. Thank you. Let me say that I was born in 
Stamford, CT, but moved down here as a child. So I really 
didn't have a say, but do I love Tampa as well.
    Mr. Shays. You were born in a very important city. Welcome.
    Ms. Kovack. Again, I want to thank you, Chairman Shays, 
Congressman Putnam, and other members of the National Security 
Subcommittee for allowing me the opportunity to testify today.
    I also will be testifying on behalf of the Propeller Club 
of Tampa concerning the importance of securing our seaports 
efficiently and effectively, while at the same time preserving 
unimpeded transportation, streamlined and standardized 
regulations, and economic incentives for our maritime 
industries to remain globally competitive.
    My name is Janet Kovack, and I am a resident of 
Hillsborough County, FL. I am here today to speak to you as a 
longtime member, current vice president and spokesperson for 
the Propeller Club of Tampa. I am also a community affairs 
representative for CF Industries, Inc., a North American 
farming cooperative with distribution facilities located in the 
Port of Tampa.
    The Propeller Club of the United States was formed in 
November 1927 as a national trade organization whose mission is 
to support the maritime industry. In May 1929, the Propeller 
Club of Tampa was chartered as the fifth individual member club 
in the Nation, or port No. 5, and remains today one of the most 
active clubs in the U.S. with a membership of approximately 350 
individuals representing 195 public and private sector 
interests associated with the maritime industry or region.
    Our mission is to develop a better understanding of the 
maritime industry for all ports in the Tampa Bay area, which 
comprises the three counties of Hillsborough, Pinellas and 
Manatee, and incorporates the respective ports of Tampa, St. 
Petersburg and Manatee.
    The organization's maritime support and education occurs 
through professional dialog and development among the various 
businesses, professions and agencies connecting the maritime 
industry within our ports. We have achieved this goal and 
fostered public understanding of both the value and importance 
of the ports community through monthly meetings, special 
events, newspapers, letters, position papers, media 
involvement, governmental relations, as well as through the 
participation on related boards and initiatives associated with 
maritime activities, such as our seat on the Tampa Bay Harbor 
Safety Committee, and our two seats on the executive committee 
for the Southeast Regional Propeller Club Board of Directors.
    On the issues of seaport security and trade before us 
today, the Propeller Club of Tampa is uniquely suited to 
providing a broad, balanced perspective due to the diversity of 
our maritime interests. We recently polled our membership in 
order to receive feedback from the maritime community on these 
important issues. I will attempt to summarize their input, 
which was received in the form of comments, questions, 
concerns, and potential solutions to the daunting tasks of 
effectively protecting our seaports while efficiently serving 
both local and national interests in supporting rather than 
impeding valuable maritime commerce.
    First, on the subject of economics, every port interest in 
this country today is undoubtedly looking toward Congress for 
support funding to accomplish the mandate of port security. Our 
members would like to ensure that these security measures are 
necessary, meaningful, effective and focused on real threats, 
while at the same time ensuring that these measures are 
efficient, cost-effective, and not redundant.
    Because most of the maritime or maritime-related companies 
already function on tight margins in a highly competitive and 
global economy, they are insistent on cost identification and 
accountability. And most importantly, they want to ensure the 
continued unimpeded transportation of goods and services 
necessary to maintain both a viable economy and a healthy 
maritime commerce.
    Second, Propeller Club members are concerned about the 
redundancy and layers of bureaucracy associated with 
governmental operations and activities. Our members would like 
to see a consolidation of State, local and Federal requirements 
and regulations. Some of their suggested solutions include the 
standardization of all port security requirements, with 
particular emphasis on the implementation of universal badging, 
parking permits, background checks, dock access, including 
adequate time to perform tasks related to vessel maintenance, 
security infrastructure such as fencing, and security 
personnel.
    Also, many of the members believe that there could be 
possible benefits to the utilization of more sophisticated 
technology such as smart cards versus the current picture 
badging, and the use of underwater cameras to monitor possible 
suspicious activity during vessel unloading rather than SCUBA 
divers.
    Further, port businesses are concerned about how the cost 
of security measures will ultimately be borne. We believe 
Federal funding must be an important component to meeting the 
cost challenges posed by facilitating trade while securing our 
seaports. To aid the subcommittee's review and evaluation of 
such port security issues, we would appreciate the opportunity 
to provide a written summary of the comments received from our 
survey, and we would be pleased to seek further input from the 
maritime community to assist in researching beneficial 
solutions to these complex issues.
    In closing, the Propeller Club of Tampa is proud of our 
service in the surrounding maritime community, especially our 
participation with the Tampa Bay Harbor Safety Committee and 
the U.S. Coast Guard to implement our ongoing strategic plan. 
We will continue to work in concert with the Tampa Bay Port 
Authority, the U.S. Coast Guard, other Propeller Clubs 
throughout the United States, and the Navy League to achieve 
mutually beneficial security goals for the entire Tampa Bay 
area port community.
    The ports of Tampa Bay offer a laudable model for other 
port communities for what public-private cooperation and 
partnership can achieve, and we stand ready to assist Congress 
in its efforts to secure thriving seaports and maritime 
business.
    On behalf of the Propeller Club of Tampa, I would like to 
thank you for your consideration of our comments. The Propeller 
Club and the Tampa Bay port community stand ready to partner 
with you in this very important endeavor. Thank you.
    Mr. Shays. Thank you.
    [The prepared statement of Ms. Kovach follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.025
    
    [GRAPHIC] [TIFF OMITTED] T7700.026
    
    Mr. Shays. I am going to have the Members have 
approximately 10 minutes, you know, between 5 and 10, because I 
think 5 minutes, we can't followup questions as well. So we 
will start with you, Mr. Putnam, and again, I thank all of the 
witnesses.
    Mr. Putnam. Thank you, Mr. Chairman.
    I would like to begin with Mr. White. Mr. White, we have 
heard testimony most recently from Ms. Kovack, whose 
constituents have advocated the consolidation of State, local 
and Federal officials, and an emphasis on greater technology, 
in particular smart cards and things such as underwater 
cameras.
    In your testimony you say that additional burdens would 
include requirements to man stern-facing radar, monitoring of 
surveillance cameras and requirements for additional patrols. 
For many cargo ships, ``the concept of security while in port 
presently only includes the notion of keeping an eye out while 
other work is done.'' And you go on to say that in the end we 
feel that with the exception of controlled ship access, ship's 
security should be apportioned to the seaport and not left in 
any great measures to the devices of the ship itself.
    What responsibility do you believe the ship should have?
    Mr. White. I think that the ship ought to have the primary 
security for making sure what is on and what is not on the 
ship, and that ought to end it right there.
    I don't think the ship--you don't have want to have the 
ship with guns on it. You don't want to have the ship burdened 
with additional responsibilities. The ship's job should be to 
make sure who is on and who is not on the ship.
    Mr. Putnam. Mr. Savage, as someone in the shipping 
business, would you like to elaborate on that?
    Mr. Savage. I would concur with that. The matter of the 
operation of a ship and, when it is in port, tending to the 
cargo operations, need to be the focus of a ship. When you are 
handling dangerous cargoes, that focus needs to be singular. 
Likewise, I don't think that the ship has the opportunity to 
govern who comes on the docks and comes alongside those ships. 
It needs to know that it is coming to a secure pier.
    Mr. Putnam. Mr. Tims or Ms. Kovack, how much has the 
phosphate industry spent since September 11th in additional 
security requirements?
    Mr. Tims. Representative Putnam, in terms of having the 
exact number in terms of moneys spent, I don't have that 
directly before me. But, as I indicated during my testimony, 
each of us have certainly added additional measures in the form 
of additional monitoring equipment, as far as cameras. We 
improved perimeter security. We erected additional barricades. 
We are not talking in terms of just thousands or tens of 
thousands. It is more in the 50- to $100,000 range, if not 
higher.
    Mr. Putnam. Ms. Kovack.
    Mr. Kovack. Thank you, Congressman Putnam.
    I can't speak for the other phosphate companies, but I know 
that we have spent quite a bit of money in the Port of Tampa 
helping to refence our facility that was already fenced for 
requirements, added monitors and cameras, and that our terminal 
manager is in the audience and could answer that question. But 
just alone, our costs have been over what Mr. Tims expressed.
    Mr. Putnam. Well, just in your testimony you added 3,000 
feet of chain-link fence, Mr. Tims, additional closed-circuit 
television, concrete gates, additional employee training, all 
things that are beyond the scope of mining and producing high-
quality fertilizer, obviously additional burdens that you have 
taken on. So I will ask Mr. White or Mr. Savage if it would 
appear that in this changed world everyone is taking on, 
unfortunately, additional costs, additional responsibilities, 
sympathizing with the fact that we need to make sure that they 
are coordinated and are smart, don't you think that there is a 
role for shippers to play in additional security beyond just 
maintaining the ship?
    Mr. Tims. Let me add this. The numbers that I used 
represented a cumulative number for CF Industries, IMC, along 
with Cargill. That was just not only IMC. So it was a 
cumulative number for the phosphate industry.
    Mr. Putnam. I understand.
    Mr. White.
    Mr. White. I understand your point. Our survey shows that 
the people in the ship industry believe that they should share 
in the cost. The point is that the ship is large, the crew is 
small, so that I think the most realistic position for the ship 
security is that the ship be responsible for who is on and who 
is not on the ship. It should be the job of the port facility 
and the port--the seaport itself to find out who is having 
access to the pier, to guard against any other kind of 
terrorism from the outside.
    It is impossible for the ship to secure itself with 
anything more than who is on and who is not on the ship.
    Mr. Putnam. Mr. Williams, what percent of the ships that 
come through the port are flagged U.S. vessels?
    Mr. Williamson. I couldn't tell you that exactly, but I 
would say at least 50 percent of them.
    Mr. Putnam. So half are not U.S.-flagged vessels?
    Mr. Williamson. Correct.
    Mr. Putnam. What percentage of the crews that come through 
are non-U.S. citizens?
    Mr. Williamson. Generally only those on non-U.S.-flagged 
ships.
    Mr. Putnam. So basically half again.
    Mr. Savage, you raised some interesting points that I think 
it is important that we flesh out in this panel so that we can 
be better prepared for the next panels dealing with State, 
local and Federal officials.
    There appears to be agreement in the shipping industry and 
in the port community that we do a pretty lousy job of 
communicating within the agencies and coordinating. You 
mentioned that there is redundancies. Do you have any specific 
recommendations for ways that we can improve our port security 
across these 60 different agencies, and do you believe that the 
creation of the Homeland Security Department is a step in the 
right direction or a step in the wrong direction?
    Mr. Savage. That is a loaded question. But I don't know the 
details of what is happening in the Homeland Security 
Committee. I do know that we have some very, very good Federal, 
State and local agencies that we work with here, and they are 
all working together in a very cohesive manner. There isn't a 
lot of barriers. There is good communication, and, as a result, 
a day after September 11th, this port was ready to defend 
itself. All of the agencies had come together through an 
already existing Tampa Bay Harbor Safety Committee Subcommittee 
called the Security Committee that was already put together, 
and it allowed us the venue to address these things. And I 
would submit that you should use that as a model as to how the 
rest of the Federal Government should work. It was in place. It 
had already taken proactive measures to address security 
things, even though Tampa has not had a history of any security 
problems.
    We went ahead and put that in place, and it was there. It 
was ready. When the Captain of the Port needed to pull this 
community together, it took one phone call in asking everybody 
to rally together. They were there, they responded, and we have 
not had an incident.
    Mr. Putnam. It wasn't intended to be a loaded question. I 
got the impression from your testimony that when you said 
rather than creating more bureaucracy, we should be a little 
bit smarter about it, but you also say that Tampa is a model. 
So I want to make sure that we are fleshing this out so that we 
can----
    Mr. Savage. I contend that we have done a good job about 
it. I think that we have very, very capable agencies in place, 
and that is where I mentioned, untie their hands. The U.S. 
Customs Service and Immigration in this office is dramatically 
undermanned, yet they still do a good job. They do--they are 
really good at catching the bad guys, not letting them off the 
ships if they come in.
    Again, all of those groups are reviewing the issues related 
to a ship prior to allowing it to come into port, and I think 
that is a key.
    Let's remember, we would not have had a terrorist incident 
if we would not have let those people in the country in the 
first place. I think prevention, as we are doing today in our 
port, is going to take care of the majority of the problem. And 
if these groups can work together, then I don't think the 
interior has much to worry about.
    Mr. Putnam. How frequently does the port conduct emergency 
drills? Mr. Williamson.
    Mr. Williamson. I can probably let the Coast Guard answer. 
We do a number of drills. The Coast Guard, the Emergency 
Management Service does drills. We have our ammonia drills that 
go on a quarterly basis. So there is a number of them, but they 
take place quite frequently.
    Mr. Putnam. Do you believe that it should be a trade 
priority to standardize port protocols, inspections, locks and 
seals for cargo containers? Should that be built into our trade 
negotiations in the future?
    Mr. Williamson. I think that is going to be a difficult 
thing to do. You are talking about international trade here. If 
you can get there through the IMO or something of that nature--
it would be a wonderful thing if you could accomplish that--I 
think it will be difficult because of the dispersement of 
containers and the activities of it around the world. But I 
think any form of standardization that we can domestically in 
this country is a good thing.
    The issues that we have here with badging, we have 14 
deepwater ports. They all have to have a separate badge. We 
have worked together in Tampa Bay, but for the trucking 
companies, for example, just getting a badge, if they go to six 
or eight ports with their trucks, they have to have a badge for 
each one of them. Those are the types of things that we are 
talking about redundancy, and we need to get better and smarter 
and better technology to allow them to have better movement.
    Mr. Putnam. Thank you, Mr. Chairman.
    Mr. Shays. We can have a second round if we need it.
    Mr. Davis.
    Mr. Davis of Florida. Thank you, Mr. Chairman.
    Mr. Williamson, because our port is so unique in being a 
bulk cargo port as opposed to containerized cargoes, which most 
of the ports, I am sure, the chairman has seen, are there any 
unique aspects of the security issues to us that we haven't 
already discussed?
    Mr. Williamson. I don't think that there is anything 
especially unique about us. I think that the dispersion of all 
of the activities over 2,500 acres is important. The nice 
thing, I suppose--I suppose, about a lot of bulk traffic is it 
is--while it may seem easier to conceal things inside 60,000 
tons of phosphate, at the same time it is hard to do that when 
you are loading it at 5,000 tons an hour. I think the 
difficulties that we have here are that we have competing 
industries that are not on port property that are not 
necessarily, at this point in time anyway, required to have the 
same types of security that the port tenants are required to 
have.
    Having said that, most of them are responsible corporate 
citizens and are following in the part of what the port is 
requiring, but there are competitive issues there. One group 
pays a lot of money for security; the other one doesn't. So 
these are some of the things that we need to work out in the 
long term.
    Mr. Davis of Florida. Would any of the private sector folks 
like to comment on this point, whether you have had any issues 
in terms of competition by virtue of costs you have embedded in 
your infrastructure that perhaps your others didn't?
    Mr. Tims. One of the biggest concerns that we have had is 
that recently there was an opportunity to apply for funding for 
security measures. Now, the Port of Tampa was very fortunate to 
receive funding, and we were certainly supportive of that, but, 
as far as I know, none of the private companies that applied 
for any of this grant-type funding received any money. And we 
have incurred quite a bit of cost just upgrading our security.
    I would certainly urge that as we take a look at homeland 
security, that measures be taken to provide some sort of a 
funding for private companies for the additional costs that we 
have had to incur for increasing our security.
    Mr. Davis of Florida. One of the points that Janet Kovack 
made which I thought was very important is we need to be 
focused on credible security risks and not perceived risk. Are 
all of you confident that you have been able to develop a 
competent assessment of risk in ascertaining what the security 
issues are and how to prioritize them as far as need, or is 
there additional information the Federal Government or somebody 
else or--or technical assistance ought to be providing to you 
in the future?
    Mr. Williamson. Speaking on behalf of the port, I think 
that is somewhat of a moving target, depending on how the 
actual threats may ultimately develop. I think at this point we 
have had several risk assessments done by several agencies, the 
Coast Guard, with the Hillsborough County Sheriff's Office and 
others, and we have a fairly good confidence of what is out 
there and what we need to protect.
    The infrastructure has been focused on the hazardous 
materials, the cruise ships, but we have to stay ever vigilant. 
As things change, we may need additional assessments.
    Mr. Davis of Florida. One of things that strikes me about 
the testimony is I believe virtually every member of the panel 
in the private sector agreed that the process that you have set 
up with the St. Pete and Manatee port authorities, Tampa Bay 
Harbor Safety Committee, is a good process and is producing 
good outcomes. That is powerful and not always heard, that you 
all are working so closely together. And I have also heard each 
of you testify you are convinced as to the need that Mr. 
Williamson has claimed for additional funds and the fact that 
the Federal Government should assist.
    What about with respect to the Coast Guard? They are very, 
very busy these days. We are going to hear from Captain 
Thompson, who unfortunately, I think, may be moving down to 
Miami. I don't know if I got that wrong. I am sure you are 
working closely with them as well. I know they believe they 
need additional funds. I will certainly say that. Any comments 
you all would make in terms of their workload, whether we need 
to be providing them additional support to help them work with 
you to help you do your job?
    Mr. White. I would like to say that I think the Coast Guard 
is a wonderful organization. They have been considered a less 
than first class agency for a number of years, and they deserve 
a lot of funding and a lot of credit, and they should lead the 
charge in the seaports.
    If they, in fact, are to take on the larger role, then some 
of the other roles that they already have a great deal of 
trouble policing will need to be beefed up as well. So, yes, I 
think they need a tremendous amount of funding.
    Mr. Savage. If I may, Congressman Davis, I concur with that 
100 percent. We deal with the Coast Guard on a daily basis. In 
addition to their other roles of drug interdiction, air-sea 
rescue and marine safety, this new security is asking a 
tremendous amount upon them without much additional resources.
    We have three Coast Guard offices in the Tampa Bay area, 
and they have very small crews, and anything that can be done 
to help them do their job in terms of resources and cooperation 
from other agencies I think would help.
    Mr. Williamson. I would echo those sentiments, Congressman 
Davis. The Coast Guard has provided some terrific leadership 
with Captain Thompson, Commander Ferguson. They have been there 
from the beginning. They have been on top of the situation. 
They have kept the whole community informed and together, and 
they certainly and clearly need additional funds for more 
platforms on the water and for more crew and people to handle 
all of the responsibilities they have been charged with.
    Mr. Davis of Florida. My last question is the same with 
respect to both the Customs Service and the Border Patrol. I 
know from personal experiences in my office, the Border Patrol 
was heavily undermanned before September 11th. I am sure that 
they have had additional responsibilities imposed upon them 
that we would all strongly support. Any observations that you 
would like to share about how those two agencies are doing 
handling the workload and what we as Federal officials should 
be cognizant of?
    Mr. Williamson. I would just start off by saying that they 
also could use additional funding. Customs in particular does a 
terrific job with the few resources that they have. We move 52 
million tons through this port, plus or minus, on an annual 
basis. That is an awful lot of freight. The difficulty of 
sifting through all of that is too much for what they have got 
to do in addition to some of the other security measures that 
are involved in. Even down at the cruise terminals, I think 
that they can use all of the help that they can get.
    Mr. White. As I mentioned before, our survey identified the 
dry box containers as the biggest single hole in the seaport 
security area, and the Customs Department is the one that is 
going to try to figure out how to find out what is in these 
boxes. This is a tremendous effort. They need a lot of 
additional resources. I think a lot of it is going to have to 
be done smarter, computer-based. Some of the initiatives that 
Customs has already started are excellent initiatives, but they 
need support, they need people, they need funding.
    Mr. Davis of Florida. Mr. Chairman, just to close with two 
comments. The first is that the comment about the overlapping 
State, local and Federal rules, I would be very interested in 
hearing where the problems lie there and how we can address 
them. And I urge you to put that through this committee process 
you have mentioned as well.
    Mr. Chairman, that concludes my questions. Thank you.
    Mr. Shays. I thank the gentleman.
    Let me just set up this question by saying to you that our 
committee held 19 hearings before September 11th on terrorist 
activities, on the whole issue of homeland security. If we were 
to put basically a card for every government department or 
agency, we would have 99 that somehow are involved in homeland 
security.
    And also say to you that I certainly believe, and I think 
many of our committee members believe, it is not a question of 
if, but when, where and of what magnitude we will face an 
attack by terrorists, at least an attempt, using chemical, 
biological, radioactive material or nuclear weapons, heaven 
forbid. So that we think we are in a race with terrorists to 
shut them down before they use the weapon or attempt to use a 
weapon of mass destruction.
    I would like to first understand, and I throw it open to 
any of you to answer the question of compare bulk-type delivery 
of goods that we see in this--these ports here versus a 
container. I have a hard time visualizing the kinds of threats 
when we have bulk material. So be a terrorist for a second and 
describe to me what represents an opportunity.
    Mr. White. I would like to take a shot at that. The problem 
with cargo ships is that they are tremendous, and they have 
small crews, as I pointed out. So anywhere in one of those 
large ships--some of the spaces in these large ships don't get 
visited very often by crew members. So anywhere in a ship is a 
place to hide a weapon. So anybody who gets on the ship at the 
last port or the port before the last port and puts a weapon in 
with a remote-controlled triggering device has a bomb that is 
directed into the seaport.
    Mr. Shays. Well, the worst-case scenario would be a nuclear 
weapon in the hull of a ship. So there is no difference between 
a bulk ship or a container ship in that regard.
    Mr. White. In that regard they are all tremendous, and they 
have a tremendous number of spaces and places to hide.
    Mr. Shays. In terms of explosive material, if the bulk 
material is explosive, then clearly a detonating device there 
could be pretty catastrophic?
    Mr. White. That is correct. The additional complications 
with the container ship is that they have got these containers 
that just come neatly on board, whereas on a dry bulk ship, 
somebody would have to actually sneak something through. But 
the container, you bring the container on board, since we don't 
know what is in the containers, it is easy.
    Mr. Shays. Right. I am hearing you on the container. I 
guess what I wanted to develop is what are the ships that carry 
bulk material that could be highly explosive? You are not 
telling the general--you may be telling the general public, the 
committee something we don't know, but you are not telling the 
terrorists.
    Mr. White. For example, some of the ships have explosive 
cargoes, LNG ships, could be chemical carriers, petroleum 
carriers. There is a lot of explosive cargoes that travel on 
the waters. But a ship that is transporting phosphates could 
have a bomb, a dirty bomb, a nuclear weapon, any kind of a 
bomb, which I understand can be made quite small these days.
    Mr. Shays. Not just explosive material, but potentially 
contaminated material? I am looking here. Help me out, folks. 
Give me examples of what could be explosive material or 
potentially material that, if it was in a plume, would be a 
chemical that could be very harmful to the general public. Mr. 
Williamson.
    Mr. Williamson. I think the obvious example here in our 
community is anhydrous ammonia. We have several tanks of 
anhydrous ammonia. If they were attacked, those plumes could do 
some real damage to the Tampa community.
    Mr. Shays. What is real damage?
    Mr. Williamson. I think the last study I saw was several 
hundred thousand people could be taken out with that in a short 
period of time, in a matter of minutes.
    Mr. Shays. So, you know, just trying to set up and try to 
make sure that we are--you know, don't have our heads in the 
sand in terms--because there hasn't been something caused 
necessarily by a terrorist since they have chosen other 
targets. The thing that drives us pretty crazy in public policy 
and government is that we begin to try to think like a 
terrorist, and you can give yourself nightmares. But that is 
obviously a vulnerability that we have to anticipate, and, 
therefore, the likelihood may be small, but if, in fact, it 
happens, the consequence could be large. So we then have to 
work out a plan to deal with that.
    Mr. Savage, give me a sense of--you know, untie their hands 
is something I am going to ask you about, because that doesn't 
mean anything to me, because I don't know where their hands are 
tied. So I am going to have you walk through where people's 
hands are tied.
    But help me understand what you consider balance. But first 
I am going to ask you, tell me what is the worst thing that you 
think could happen in the Port of Tampa or the other two ports 
in this area.
    Mr. Savage. The scenario that Mr. Williamson just explained 
to my understanding is the worst-case scenario. The probability 
of that worst-case scenario happening is pretty improbable.
    Even if you did blow an ammonia ship in half, that ammonia 
is held in four to five different holds. Would they all be 
ruptured? Would the wind be in the correct direction to get to 
the populace to create an inhalation hazard that would knock 
out downtown Tampa during the middle of a workday? It is all 
pretty improbable.
    Mr. Shays. The danger I have heard is the next day you have 
people very fearful. But this is my general philosophy. You 
tell the American people the truth, and then they have you do 
the right thing. And because of the terrorist threat, that is 
why we have wiretapping laws that are changed, that is why we 
have invaded somewhat the attorney/client privilege, that is 
why we have talked about tribunals, that is why we have made 
arrests.
    When we made these arrests, we put potential terrorists on 
defense rather than offense, but they are in a position now as 
we let people go to reorganize the cells, can come out of 
hiding and so on. The cells do exist. So tell me what we are 
doing right now, Mr. Savage, because I happen to believe that 
are you right, but I don't understand what it means. What does 
it mean? What are we doing right now that is not effective, 
because it is just dumb to require anything that isn't 
effective.
    Mr. Savage. These security badges. My 8-year-old son could 
copy one of these and walk into the port tomorrow. Miles and 
miles of 8-foot fences. Do you think that is going to deter a 
determined terrorist? Absolutely no effect. I think in 
identifying the threat, it is not the American worker that is 
going in and out of the port, it is these guests that are 
coming in and out of the country.
    Mr. Shays. You said something that I just have a real big 
problem with. Do you make an assumption that terrorists 
wouldn't choose to be employed for a year or 2 before they 
might potentially do something harmful?
    Mr. Savage. Certainly could. Certainly could. That is why I 
endorse this effort. I do not agree that this is necessarily 
the best solution, because it is so easily copied. Likewise, 
you know, an 8-foot fence, I would rather see the $3 million 
that the port spent on things like that go into a new crane or 
a new warehouse. If it is behind the checkpoint, what purpose--
--
    Mr. Shays. Tell me how the new crane or the new warehouse 
is going to protect the people of Tampa.
    Mr. Savage. Excuse me. I am always trying to promote 
commerce, but, in addition, we have Coast Guard boarding these 
high-risk vessels prior to entering the port. As I mentioned, 
the 96-hour prenotice that we have to give before the ships are 
allowed in, I think that is key. Don't let the threat in the 
port if it is a perceived threat. And we are doing that with 
existing resources. It isn't costing any additional money to 
the industry. But at the end of the day, we have--we have to 
make sure that these agencies do have the resources to do that 
additional work, because, again, they are doing a tremendous 
amount of additional work with no additional people, no 
additional funding or anything like that.
    Mr. Shays. What does ``untie their hands'' mean?
    Mr. Savage. I go to resources again. I think that our 
agencies--you know, there is a lot of overlap. If we could 
eliminate some of those redundancies and give them the 
resources to go out there and do the investigations to monitor 
what is going on in the port, they can be more effective.
    Mr. Shays. OK. You mentioned that--I'm sorry to--ask you 
these questions because you just mentioned them. I want to 
pursue them a second. Three ports, three Federal Customs 
districts.
    Mr. Savage. Yes, sir.
    Mr. Shays. Maybe I will get to asking others how--would it 
be a wise thing for these three ports to become one district, 
or is that--is that an economic question, or just an 
impractical question on the whole host? Is this like New York 
and New Jersey, they have a port authority? Is this--is this a 
political issue? Is there any reason to want to be one? Maybe 
others could jump in.
    Mr. Savage. I would defer to George here in a second, but I 
think my point here is that there is a bunch of different 
agencies that we have to deal with here. In Tampa we have 
brought them all together under the Tampa Bay Harbor Safety 
Committee. And in using the example of post-September 11th----
    Mr. Shays. Is St. Petersburg----
    Mr. Savage. St. Pete has a seat. Manatee has a seat. Tampa 
has a seat. Navigational interests, a number of the 
environmental interests, safety groups and everything. So 
rather than trying to deal with each one of those separately, 
they all have a seat and have a say. And as to bringing them 
together, that is something----
    Mr. Shays. One of the things that I will be asking the next 
panel, I want to know potentially how much different government 
agents could go on a ship looking for a particular interest 
that they have, and then potentially what is the value of how 
the Homeland Security Department may enable people to do cross 
kinds of concerns here to have some of those kinds--my light is 
on. I know that we do have three panels, but I do want to make 
sure that we pursue any questions. I know there--do you want to 
answer a question, too?
    Mr. Williamson. No. I was going to followup on that one and 
say that the idea of putting Customs together is a Federal 
issue. We are not really here discussing putting all of the 
ports together necessarily, as the ports of Tampa Bay complex, 
but you can combine Federal agencies if you wish without any 
impacts to the community. A number of ports have done that.
    Mr. Shays. Right. Do you want to followup?
    Let me just check here. I feel in some cases that we are 
being caught by the fact that we have so many panels, because I 
would like to ask--I don't know if it is you, Mr. White, who 
talked about the four rings.
    Mr. White. Yes.
    Mr. Shays. Just give some importance to the concept of 
your--it is the ship, the dock, the seaport, the port of 
origin. Which represents the most important ring?
    Mr. White. Well, the concept of the rings is to try to say 
that you--you don't want to--as a--if you are trying to plan 
the whole notion of security, you don't want to make the ship 
absolutely secure and then make the port facility absolutely 
secure and then make the seaport secure, because you are 
building in a redundancy. So that the basic unit of security 
ought to be the seaport. That is where the emphasis ought to be 
put, rather than the port facility and rather than the ship. 
The real place to go is push it out beyond the seaport, which 
is where the cargo loads. That is where we want to head, 
Because once we can do that, you have nipped it in the bud.
    Mr. Shays. The same concept in an airport, where if we 
could check people before they actually walked in the airport, 
even the crews, we wouldn't have to keep checking along the 
way.
    Mr. White. Well, the other thing is that if you can 
eliminate as many things as you can, you know certain people, 
let them go through. You--if you qualify, prequalify, a lot of 
containers that are coming through the port because you are 
assured that the systems are going to catch a problem, then 
your defenses can apply to what is left, so you can concentrate 
on what you haven't already prechecked. So you narrow the range 
of vulnerability.
    Mr. Shays. Mr. Hindle, quickly. You mentioned 120 percent 
turnover in truckers, drivers. And would 80 of those drivers be 
consistent and the last 20 just constantly turn over, or how 
many of that 100--if you had 100 drivers, how many of those 100 
drivers are actually with you year in and year out?
    Mr. Hindle. Less than 20 percent, and the other 80 percent 
cycle. And so to keep 308 drivers involved in port, we have to 
hire 370 every year.
    Mr. Shays. OK. Well, one last question to you, Mr. White. 
Were you the--were you the one who said maritime security has 
to abide by international rules?
    Mr. White. Yes, that is correct.
    Mr. Shays. And your concept is that there needs to be 
uniformity from port to port to port and certain expectations 
form port to port to port?
    Mr. White. Yes, within the United States and also in the 
world community, because of the fact that you have got the same 
ships going all of the way around the world, because you need 
to have the same expectations of the ship coming into the port. 
If there is going to be a problem when there is a ship 
involved, the ship needs to know--the ship needs to know now 
how to interface with the port, what is expected of the ship, 
what is going on in the port. He needs to have a set protocol. 
So I think the whole notion of set protocols for all seaports 
is very important.
    Mr. Shays. I am going to ask each of you this final 
question, but I am looking for a quicker answer. I want to know 
what is the most important thing we can do in a port to improve 
security. I want to know what is the most difficult thing, and 
that--the most difficult challenge that we face. And those 
could be two different answers, to live in the spirit, frankly, 
that Mr. Savage raised about let's make sure it works.
    Mr. Williamson. I think really the most important thing to 
do is to make sure that we have the funding to do what we want 
to do. A lot of this has to do with just the eyes and ears once 
you have built the infrastructure.
    Mr. Shays. Most challenging thing facing our ports?
    Mr. Williamson. I think the most challenging thing is to 
make sure that we stay vigilant on this issue, because it won't 
go away.
    Mr. Shays. Thank you.
    Mr. White.
    Mr. White. I would say the most important thing we can do 
is bring the multiple government agencies down into one 
manageable unit. And I think the Department of Homeland 
Security are----
    Mr. Shays. What is the biggest challenge?
    Mr. White. Dry box container, to figure out what is inside 
it.
    Mr. Shays. Fair enough.
    Mr. Tims.
    Mr. Tims. I think the most important thing is centralizing 
activities associated around homeland security and making sure 
that in terms with private industry, particularly those like 
the phosphate industry, can receive some sort of agency 
funding.
    I think probably the most difficult thing to do is to make 
sure that with all of the wonderful governmental and law 
enforcement agencies that we have, that we try and streamline 
things to make it easier for them to move quickly. I think we 
have a good system here that has served us well.
    Mr. Shays. Let me move on. Mr. Hindle.
    Mr. Hindle. The most important thing from a trucker's 
viewpoint is to make sure that all of those 308 drivers 
satisfactorily pass the fingerprint examination so we don't 
have the wrong drivers getting into the port to start with.
    Mr. Shays. Make sure that happens on a timely basis.
    Mr. Hindle. Yes. The most challenging thing is once we do 
have the system up and running properly is to get the trucks in 
and out of port on a timely basis, like Gore mentioned earlier.
    Mr. Shays. Mr. Savage.
    Mr. Savage. I would agree with the centralized government 
concept, but I think it needs to go a step further and develop 
those deterrents with industry. Nobody knows the cargoes, the 
terminals, and the personnel issues better than industry. And I 
think that it should be a concerted effort to develop those 
things together, but also to make sure, once the solution is 
given, that you all provide the funding to cover it.
    Mr. Shays. Two most important things. What is the most 
difficult thing?
    Mr. Savage. I would concur with Mr. White. I think that 
containers do present a very big problem, and we have to know 
what is coming in on those things before they get into the 
interior.
    Mr. Shays. Thank you.
    Ms. Kovack, I didn't have questions for you, but I 
appreciate your statement. What would be the most difficult and 
the most challenging?
    Mr. Kovack. I think one of the most challenging is to 
identify what is reasonable, especially for water access 
security and for dock security, as far as who is responsible 
for security guards on the dock.
    Mr. Shays. And the most important thing?
    Mr. Kovack. Most important thing. I would agree with George 
Williamson, that funding is what is going to put all of those 
mandates in place.
    Mr. Shays. I am prepared to release you.
    Do you have a question?
    Mr. Putnam. Just very quickly, probably for Mr. Savage, 
because you have given us the most practical advice from the 
standpoint of a user.
    Does it concern you that we have a small airport whose 
approach and takeoff is several dozen feet above a petroleum 
tank farm?
    Mr. Savage. No.
    Mr. Putnam. No concern?
    Mr. Savage. We have dealt with that. We have Air Force 
loaded tankers going over the port every day. The amount of 
explosives that a small plane could deliver would not be a 
threat to the majority of our hazardous facilities.
    Mr. Putnam. OK.
    Mr. Savage. I don't know that for sure.
    Mr. Shays. Thank you all. You all have been great. Thank 
you very much.
    We will go to the next panel. We are going to roll. We are 
taking the second panel right now.
    Mr. Putnam [presiding]. The subcommittee is ready to 
welcome our second panel. The second panel is represented by 
Commissioner Patricia Frank; Commissioner Chris Hart; Mr. Steve 
Lauer, chief of the Florida Domestic Security Initiatives for 
the Florida Department of Law Enforcement; and Chief Deputy 
David Gee with Hillsborough County as well.
    We welcome you to the subcommittee. As with the first 
panel, we will need you to please rise and raise your right 
hand.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that the witnesses 
responded in the affirmative.
    As with the first panel, we will do our best to maintain 
the 5-minute rule, with the 1 minute runoff. And we will begin 
with you, Ms. Frank. Welcome.

   STATEMENTS OF PATRICIA FRANK, COMMISSIONER, HILLSBOROUGH 
COUNTY, FL; CHRIS HART, COMMISSIONER, HILLSBOROUGH COUNTY, FL; 
  STEVE LAUER, CHIEF, FLORIDA DOMESTIC SECURITY INITIATIVES, 
 FLORIDA DEPARTMENT OF LAW ENFORCEMENT; AND CHIEF DEPUTY DAVID 
                  GEE, HILLSBOROUGH COUNTY, FL

    Ms. Frank. Thank you very much, Chairman Shays, Vice 
Chairman Putnam, and I know my Congressman Jim Davis was here 
earlier. We do appreciate your being in our county, and it is 
an honor to have been invited to speak to you.
    When Hillsborough County reached the 1 million population 
mark in the year 2001, there was cause to celebrate. It marked 
our leap in a statistical class shared by only 34 other 
counties in the United States and ranked us as the fourth most 
populous county in Florida. We hailed the milestone in annual 
reports and speeches, boasting about our thriving economy, our 
healthy tax base, desirable community, and attractive 
destinations. Then came September 11th.
    Several months ago, in anticipation that Federal 
antiterrorism funding will work its way to local governments, 
I, as chairman of the Emergency Policy Group and chairman of 
the Board of County Commissioners, convened an interagency 
meeting to assess the needs, the security needs and priorities 
of local law enforcement, rescue agencies, hospitals, the 
aviation authority, and, of course, the port authority.
    I have given a copy of that report to Chairman Shays, and 
if the other members of the committee would like it, we would 
be happy to furnish it.
    With startling clarity, we have come to realize that many 
of the very assets we trumpeted, including a centrally located 
metropolitan area served by three interstates, 75 miles of 
shoreline, the largest seaport in the State, and MacDill Air 
Force Base, are also our greatest vulnerabilities.
    Through the testimony of previous speakers, you now have a 
clear idea of the size and importance of the Port of Tampa. The 
numbers are impressive. The port is a major economic engine in 
west central Florida, impacting 93,000 jobs and accounting for 
an economic impact of $10.6 billion.
    As you have heard, Tampa handled more than 47 million net 
tons last year, as much tonnage as all of the other 13 
deepwater ports in Florida combined. The port is also becoming 
a major player in the cruise market, handling more than 500,000 
passengers in 2001. Clearly any action that would partially or 
fully disrupt normal operations at the Port of Tampa would be 
disastrous, but to stop at these statistics would paint only a 
partial picture.
    The Port of Tampa is not a microcosm, but is part of a much 
larger community that could be dramatically affected by the 
seconds that it takes for terrorists to attack. Consider the 
big picture, if you will. The Port of Tamps rings the eastern 
boundary of downtown Tampa. Within downtown's 750 acres are 6.5 
million square feet of office space in buildings as tall as 43 
stories, 51,000 workers, the convention center, and 2,400 hotel 
rooms. The main administrative headquarters for Hillsborough 
County and the city of Tampa governments are located downtown, 
as well as the courts of the 13th Judicial District, the U.S. 
District Court for the Middle District of Florida and other 
Federal offices.
    Rounding out the landscape are the four-theater performing 
arts center, the 21,000-seat Ice Palace, the port's 
headquarters, the cruise terminals, a brand new shopping 
district, and, adjacent to this building, the Florida Aquarium, 
which hosted 600,000 visitors last year.
    Separated from the port by a mere channel's distance are 
the residential communities of Harbour Island and Davis Island. 
On Davis Island is located the sprawling Tampa General 
Hospital, a Level 1 trauma center. Nearby are the densely 
populated neighborhoods of South Tampa. Within approximately a 
1-mile radius of the port are approximately 4,100 businesses 
employing some 112,500 people.
    Now consider this: By volume, more than 50 percent of the 
hazardous materials that enter or leave the State of Florida 
are handled through the Port of Tampa. The port is one of the 
largest exporters of phosphate in the world, and the top 
foreign import last year was ammonia, used in processing that 
phosphate.
    A 1995 study by the local emergency planning committee 
modeled what could happen in the event of a catastrophic 
release from the 75-million-gallon CF Industries' anhydrous 
ammonia storage tank located in the center of Hooker's Point. 
Their projection: At least 20,000 people would be impacted in 
the immediate adjacent areas of Palmetto Beach, Harbour Island, 
Davis Island and other communities. Within the study's 10-mile 
vulnerability zone, some 200,000 people could be impacted. Even 
with a state-of-the-art warning system, many of these people 
would have little or no notice of the disaster. The human toll 
could be incomprehensible.
    Ironically, because of its proximity to the port, Tampa 
General Hospital, one of the hospitals most equipped to handle 
the casualties, would be locked down in such an event. 
Depending on the wind and other weather conditions, an ammonia 
cloud could dissipate in just a few hours.
    But what about an event that could render buildings, 
businesses, and other operations near the port unusable for 
days, even weeks? Based on studies and historical data, we can 
project the impact on those 4,100 businesses within the 1-mile 
radius of the port would be up to $68 million in lost payroll 
in just 1 week's time, and that doesn't begin to touch lost 
productivity. It is not unreasonable to expect that some 
businesses could not survive the disruption. Some employers, 
including county government, have alternate relocation plans. 
Even so, implementing those plans could be difficult.
    I think you have received a copy of my comments. I know my 
time is over, but what I am trying to say to you is that we 
have a potentially very disastrous situation here without 
Federal funding to assist us in equipping this community for 
anything that could happen. We could be extremely vulnerable, 
and it would be a very unhappy scene. Thank you.
    Mr. Putnam. Thank you, Commissioner Frank. We appreciate 
your needs assessment for Hillsborough County. And without 
objection, we will enter it into the record at this point. 
Thank you.
    [The prepared statement of Ms. Frank follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.027
    
    [GRAPHIC] [TIFF OMITTED] T7700.028
    
    [GRAPHIC] [TIFF OMITTED] T7700.029
    
    [GRAPHIC] [TIFF OMITTED] T7700.030
    
    Mr. Putnam. Commissioner Hart, you are recognized. Welcome 
to the subcommittee.
    Mr. Hart. Good afternoon, Representative Putnam, and Mr. 
Chairman and Representative Davis. Thank you for being here 
today and offering me the opportunity to testify before your 
committee.
    I am elected at large to represent the people in 
Hillsborough County and residents of our three cities of Tampa, 
Plant City, and Temple Terrace. I wanted to thank you for being 
here today, because since the events of September 11th, I know 
that I have testified before a number of congressional 
committees regarding both transportation and homeland security 
not only affecting my community, but also America's deeply held 
concerns, in my role of the leadership of the National 
Association of Counties. However, today I am most appreciative 
that you have taken the time to host this meeting at the Port 
of Tampa specifically on port security, clearly because the 
port has a major impact on our community's economy and the 
Tampa Bay region as well.
    Since the horrific events of September 11th, I have served 
on a Homeland Security Task Force in Washington, DC. In this 
capacity I work closely with Governor Tom Ridge, Transportation 
Secretary Norm Mineta, other Cabinet members and Members of 
Congress in addressing both emergency actions, legislation and 
funding for local and national-level security concerns dealing 
with terrorism, transportation, and the public safety.
    Mr. Chairman, I would like to focus my remarks on one 
primary area, the role that county government plays in 
management of security and actions taken to enhance seaport 
security.
    Hillsborough County has developed an integrated strategy. 
In fact, our Chair, Commissioner Pat Frank, has provided that 
to you, so we will be a little bit redundant in this regard. 
But we have developed an integrated strategy in collaboration 
with our three cities, the school board, the State's public 
health department, all public and private hospitals, the 
regional water supply authority, sea, air and ground 
transportation organizations, and most assuredly including all 
first responders, and MacDill Air Force Base to include and 
address the extensive security needs of our area.
    We estimate the hard cost impact conservatively here in 
port at $17 million. The Port of Tampa is one of the most 
critical elements. I have attached a copy of Hillsborough 
County's needs assessment for your review. I would suggest that 
it can be a useful guide or model for other communities in 
America.
    Now, one final recommendation for your consideration. The 
U.S. Department of Transportation has an Aviation Security 
Advisory Subcommittee consisting of business and governmental 
leaders appointed by the Secretary of Transportation. It is my 
considered judgment that Congress should strongly consider 
creating a transportation security advisory committee that 
would include maritime and port security as a key component, as 
well as addressing the need for an intermodal approach to 
security. The members of this public-private committee could be 
appointed by either the Secretary of Transportation or by the 
President of the United States. Its specific charge would be to 
make transportation security recommendations to the President 
and to Congress.
    Mr. Chairman, this concludes my testimony. Thank you and 
your committee for this opportunity to testify before you 
today. I look forward to your questions.
    Mr. Putnam. Thank you very much, Commissioner.
    Mr. Lauer.
    Mr. Lauer. Thank you, Mr. Chairman. Representative Shays, 
Mr. Davis, it is a pleasure to be here today on behalf of 
Governor Bush, and also on behalf of Commissioner Tim Moore of 
the Florida Department of Law Enforcement. It is a great 
privilege to have you here and to thank you personally for the 
efforts you have taken in supporting Florida in our approach to 
securing our seaports.
    My actual involvement in this began back about 1999 when I 
retired from the Marines Corps and came to the State of 
Florida. I was privileged to work as the deputy to the--in the 
Office of Drug Control, and was one of the individuals who was 
responsible to move this Seaport Security Act that Florida 
passed through the legislature. Subsequently, I moved to the 
Department of Law Enforcement, where I actually conducted with 
a team of individuals the assessment, the initial assessment 
under that law for each of our public seaports.
    On November 27th of last year, I was appointed to my 
current position as the Chief of Domestic Security Initiatives 
for Florida. And so my background kind of leads me to want to 
discuss with you a lot about the Port of Tampa, which is very 
critical to the State of Florida.
    Let me speak for a moment about the State of Florida. Of 
course the Florida Department of Law Enforcement is not in the 
business of seaports and commerce, but the impact of Florida's 
seaports is enormous: $47.6 billion in trade in 2000, 64.5 
percent of Florida's entire international trade, $3 billion in 
direct expenditures in cruises, from the cruise industry, 11.8 
million passengers, 15 cruise lines; the three largest cruise 
seaports in the world, 2.5 million shipping containers, 265,000 
jobs statewide.
    Florida's seaports deserve to be protected. The Seaport 
Security Act which came into effect on July 1, 2001, was the 
first effort to do that, in fact the first act to mandate 
minimum security standards in the ports, and they are minimum 
security standards.
    We conducted the assessments of each of the ports according 
to that law in the fall of 2001, immediately following the 
attacks on September 11th. The initial impetus to protect our 
seaports was against drug smuggling and against cargo theft. 50 
percent, in 2000, of all of the cocaine coming into the United 
States came through Florida seaports. That is an enormous 
figure and requires protection.
    That connection to narcotics, as I will mention in a 
moment, continues in this respect. Under domestic security, 
Governor Bush demanded and we immediately undertook the 
creation of a domestic security strategy that encompassed a 
holistic view of the entire State of Florida. Seaports are an 
integral part of that. Governor Bush created seven regional 
domestic security task forces. There is one here in Tampa, 
which Commissioner Moore as the Crisis Manager will execute 
that responsibility.
    Under domestic security we view two primary areas of threat 
or vulnerability in our seaports. The first are those things 
that are on the seaport, that are vulnerable. We consider the 
cruise terminals and the cruise vessels to be first and our 
hazardous materials storage to be second in that effort. We 
believe that the measures that have been taken to date, in 
particular the protection of those particular high value 
assets, have been significant and correct.
    Our partnership with the Coast Guard in the protection of 
the cruise vessels is particularly important because you see 
there a true partnership between the Coast Guard responsibility 
on the seaside and our responsibility in the State on the land 
side. That coordination and cooperation has created we believe 
the safest cruise industry in the world.
    The second area of vulnerability is that of pass-through, 
the things that pass through our seaports. This area we believe 
is a primary concern for ours because of the ability of people 
who want to do harm to the United States to use existing 
smuggling networks, smuggling organizations to move things 
through Florida, and these are things that we know have--in 
Colombia as an example that have connections to terrorists, to 
terrorism, the ability of them to use or others to use these 
existing networks that exist today across the State of Florida 
and have been in existence roughly 30 years. That is a 
vulnerability and a key that we would like to see assistance 
from the Federal Government.
    We are particularly concerned with our ability to work with 
you, our Federal partners, concerned in this sense. We are 
doing a great job at the local level, at the Seaport Security 
Committee you have heard discussed here today. We are doing 
great work, but gaps exist. We strongly support the creation 
and development of a Department of Homeland Security as a means 
to better coordinate all of those efforts on the seaport.
    You will hear again after this panel multiple Federal 
agencies that are responsible. I would like to leave you with 
this thought. Seaport security in the State of Florida is local 
security. The background against which all of our Federal 
partners work on our seaports is against local security 
measures taken by a seaport for local guards, for cameras, for 
gates, for access control, for badges, for background checks of 
local police officials, uniformed officers, all paid for by the 
revenues from that seaport or by the citizens of that 
community, and the creation of that department and its 
integration in the sharing of information across these 
requirements is critical to our success.
    I want to thank you for all that you have done, the support 
that Congress has given to us, particularly the award of the 
$19.2 million for our seaport in recognition of the significant 
efforts that Florida has taken, and look forward to working 
with you in partnership. Thank you.
    [The prepared statement of Mr. Lauer follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.031
    
    [GRAPHIC] [TIFF OMITTED] T7700.032
    
    [GRAPHIC] [TIFF OMITTED] T7700.033
    
    [GRAPHIC] [TIFF OMITTED] T7700.034
    
    [GRAPHIC] [TIFF OMITTED] T7700.035
    
    [GRAPHIC] [TIFF OMITTED] T7700.036
    
    [GRAPHIC] [TIFF OMITTED] T7700.037
    
    [GRAPHIC] [TIFF OMITTED] T7700.038
    
    [GRAPHIC] [TIFF OMITTED] T7700.039
    
    [GRAPHIC] [TIFF OMITTED] T7700.040
    
    [GRAPHIC] [TIFF OMITTED] T7700.041
    
    Mr. Putnam. Thank you very much, Mr. Lauer. Looking forward 
to your answers to several of our questions, and we certainly 
appreciate the work that have you done on this. Obviously you 
are a pioneer in seaport security with regard to the drug and 
narcotics level, but certainly has other benefits as well.
    You are recognized. Welcome to the subcommittee.
    Mr. Gee. Good afternoon, Chairman Shays and subcommittee 
members. Thank you for the opportunity to speak to you today 
about protecting the Port of Tampa from terrorist attacks. For 
the purposes of this open hearing, I have restricted my 
testimony, both written and verbal, to general concerns about 
port security. Specific threat assessment information, which 
includes data unique to the Port of Tampa, has been compiled by 
our staff and can be provided to you at a later time should you 
request it.
    The Hillsborough County Sheriff's Office employs over 2,800 
people and provides service for more than 666,000 residents of 
unincorporated Hillsborough County. The agency is responsible 
for a jurisdiction of over 900 square miles. It is ranked the 
eighth largest suburban county law enforcement agency force 
staff in the Nation.
    Since the terrorist tacks of September 11, 2001, the agency 
has redirected substantial resources to provide improved 
security to the Port of Tampa and also Tampa International 
Airport.
    In July 2002, through contract with the Port of Tampa, a 
16-deputy Security Unit was deployed to the port. This unit of 
specially trained sheriff's deputies provided 24-hour 
enforcement services to areas of the port under the control of 
the Tampa Port Authority.
    In addition to the 16 deputies assigned as a land-based 
port Security Unit, this agency has redeployed eight deputies 
into waterborne patrol assignment. These eight deputies, which 
represent more than 60 percent of our Marine Unit, provide 24-
hour patrolled waters surrounding Tampa Bay in the Port of 
Tampa, and assist the U.S. Coast Guard with enforcement of 
restrictions placed on dock and vessel access. Although greatly 
improving patrol and security of county waterways, redeployment 
of personnel into domestic security assignments negatively 
impacts the number of deputies available to respond to calls 
for service.
    To further support these deployments to the Port of Tampa, 
this agency has allocated up to 13 additional deputies at a 
time to full-time homeland security assignments. These deputies 
conduct security assignments, attend intelligence and security 
briefings, present domestic security programs to the community, 
and provide increased antiterrorism investigative services and 
support to Federal and local and State agencies.
    In addition to personnel redeployment, we have redirected 
other resources to provide improved port security. After 
September 11th, the Sheriff's Aviation Unit began routine 
flyovers of port properties. Additionally, the Sheriff's Office 
purchased an additional helicopter which when delivered will be 
equipped with a gyrocamera remote surveillance system to 
provide real-time surveillance for port and other locations.
    We are in the process of obtaining specialized emergency 
response equipment and a new automated fingerprint 
identification system through State and Federal grants. This 
system will allow Federal and local agencies to rapidly 
ascertain the identity of persons arrested at the port and 
throughout Hillsborough County.
    In order to continue assisting the U.S. Coast Guard with 
24-hour patrols, we are working to purchase two new dedicated 
port security vessels. In addition to the law enforcement 
personnel, interagency cooperation is essential to the war on 
terrorism. Through these collaborations with others, our law 
enforcement agencies work together to establish effective 
terrorism prevention and response strategies.
    I would like to end my remarks today by addressing the 
challenges that Hillsborough County faces in planning for and 
implementing Port of Tampa security enhancement measures. 
Securing the port's large and diverse perimeter from 
unauthorized penetration is one of Hillsborough County's 
greatest domestic security challenges. As we all know, no 
terrorist operation is successful without outside assistance.
    The Port of Tampa was designed long before anyone 
envisioned the need for security requirements that we are 
discussing today. Prior to the events of September, all of the 
port's main access roads were completely unmonitored and open 
to the public.
    As detailed in my agency's written testimony, the port has 
substantial and varied points of entry via land, water and sea 
and air. Securing the port's many avenues of access and 
monitoring and controlling its flow of operations is an 
extremely formidable undertaking. Although there have been 
significant improvements to port security, there are three 
areas that substantial resources must continue to be 
redirected: Local law enforcement personnel, communications and 
information systems technology, and multiagency planning and 
training. It is essential that my agency be able to hire 
additional deputies if we are going to be able to devote 
adequate manpower to terrorist prevention and response 
initiatives while at the same time providing basic public 
safety services to Hillsborough County's residents.
    Beyond personnel, the events of September 11th make clear 
that communications, sharing information, and coordination of 
response activities are essential to effective crisis 
management. Within Hillsborough County, Federal funding is 
needed to establish reliable, effective information sharing 
systems, and to facilitate ongoing multiagency planning and 
training exercises.
    Only through adequate staffing, effective information 
sharing, and expanded training can Hillsborough County's 
emergency management and response agencies prevent or minimize 
the large scale loss of life and property which can conceivably 
result from a terrorist attack on the Port of Tampa.
    Chairman Shays and members of the committee, it has been my 
pleasure to speak to you today. I thank you on behalf of 
Sheriff Henderson, who is out of town, and look forward to 
working with you in any matters of national security.
    [The prepared statement of Mr. Gee follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.042
    
    [GRAPHIC] [TIFF OMITTED] T7700.043
    
    [GRAPHIC] [TIFF OMITTED] T7700.044
    
    [GRAPHIC] [TIFF OMITTED] T7700.045
    
    [GRAPHIC] [TIFF OMITTED] T7700.046
    
    [GRAPHIC] [TIFF OMITTED] T7700.047
    
    [GRAPHIC] [TIFF OMITTED] T7700.048
    
    [GRAPHIC] [TIFF OMITTED] T7700.049
    
    [GRAPHIC] [TIFF OMITTED] T7700.050
    
    [GRAPHIC] [TIFF OMITTED] T7700.051
    
    Mr. Putnam. Thank you very much, Chief Deputy Gee. We 
appreciate your presence here today. And we will have a 10-
minute round of questions, beginning with Chairman Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    If I could expose my ignorance, but then be able to put 
something in perspective. My understanding, in Hillsborough 
County you have seven commissioners, is that right?
    Ms. Frank. That is correct.
    Mr. Shays. You are both executive and legislative, as well?
    Ms. Frank. We are executive and legislative, but on the 
other hand, we have a County Administrator who carries out the 
operations. He is the administrator of the operation.
    Mr. Shays. You are the chairperson.
    Ms. Frank. Yes. I have been for 3 years.
    Mr. Shays. Mr. Hart, how long have you been a commissioner?
    Mr. Hart. This is my 8th year.
    Mr. Shays. Mr. Lauer, to understand, you are as domestic--
Chief of Domestic Security, does that mean that you basically 
have homeland security responsibilities in the State of 
Florida?
    Mr. Lauer. That is correct.
    Mr. Shays. It is focused just--not just as a small just, 
but it is focused primarily on homeland security?
    Mr. Lauer. Yes, sir, it is.
    Mr. Shays. And Deputy Chief, you are the chief operating 
officer of the Sheriff's Department as well as responsible for 
homeland security?
    Mr. Gee. Essentially that is correct. I am the chief 
operating officer. We have an elected sheriff who is out of 
town today. He is the regional chairman for the State of 
Florida for the homeland security effort in the State of 
Florida.
    Mr. Shays. I am sorry, I should have gotten this, but does 
Hillsborough County include all three ports or just Tampa?
    Ms. Frank. No, just Tampa.
    Mr. Shays. So do you interface? Do you interface, Mr. Hart, 
with the other commissioners? Are we talking about one other 
county or two counties, the other two ports?
    Mr. Hart. It is Pinellas County and Manatee County.
    Mr. Shays. So three counties?
    Mr. Hart. Yes, sir.
    Mr. Shays. Are you all working collectively, all three 
counties, to look at this issue or are you basically looking at 
your own particular ports?
    Mr. Hart. We started looking collectively within our 
community, and have opened it up, as both separately through 
the Port Authority and their working relationships in security, 
but through our process of saying if there are other counties, 
adjacent cities that would like to collaborate with us--for 
example, Pinellas County would like to work with us on 
communications for interoperability. We also have medical 
agreements with hospitals. Pasco County Sheriff is a 
reinforcement for mutual aid. He would like to work with us. We 
are currently working on other areas as well.
    Mr. Shays. Ms. Franks, would you add anything to that?
    Ms. Frank. No. But I would say that of course we want to 
cooperate with other entities. But there is very definitely a 
division.
    Mr. Shays. Fair enough. In the State of Connecticut we have 
no county governments ironically, so we have no even regional 
approaches quite often when it would be helpful.
    Chief, in reading your bio it--I am getting to a point 
here, you will understand what I am getting to. But it says the 
Chief is deputized as a U.S. Marshal, and is a member of the 
FBI's Joint Terrorism Task Force. He is commissioned as a U.S. 
Customs Officer at DEA and is the agency's liaison to Customs 
Service.
    So are you all of those things?
    Mr. Gee. Yes.
    Mr. Shays. Now, explain to me the impact of being a 
deputized U.S. Marshal and as a member of the FBI Joint 
Terrorism Task Force and commissioned as a U.S. Customs Officer 
at DEA and liaison to Customs. I want to understand, is that 
important and why and is that typical?
    Mr. Gee. Well, some of those initiatives, the Customs 
Service initially was part of the drug initiative in this area, 
part of the Blue Light Task Force where the Customs Service, 
going back a number of years, commissioned local law 
enforcement officers and gave them authority under Federal 
statutes to enforce certain customs laws.
    Obviously a lot of times there are more of us out there at 
night in our Marine Unit than there would be maybe Customs 
officers. And we had the ability to board vessels under certain 
circumstances and these things and to enforce drug laws. And of 
course now things are a little different.
    Mr. Shays. Do you need U.S. Marshal status in order to 
board a ship, or once it is in your local----
    Mr. Gee. No. The U.S. Marshal status has to do with the 
Joint Terrorism Task Force, with the Federal Bureau of 
Investigation. That is related to homeland security and to our 
terrorism initiative. That enables us to participate with the 
Federal Government in these investigations. I am the liaison 
between our agency and the FBI.
    Mr. Shays. Some Federal employees do not have the ability 
to make arrests, some departments, agencies do not have the 
ability to carry firearms. This is not because you lack certain 
powers in your county responsibilities, correct; you have all 
of the power to make arrests and so on?
    Mr. Gee. Right. What essentially it does is it gives us the 
ability to share information that normally you wouldn't give to 
local law enforcement.
    Mr. Shays. You are more apt to get Federal information. One 
of the initiatives that Mr. Putnam and the rest of the 
committee has done is in one of our hearings we basically 
learned that the FBI was not sharing data with the INS or the 
State Department when they were considering allowing visas. 
Pretty shocking.
    Then the other issue that our committee became very 
involved in is being able to allow a commissioner, allow a 
State official, allow a county or local official to be plugged 
into intelligence information that might be helpful in dealing 
with terrorist issues, and kind of gets me to this point here.
    Customs is going to board a ship and look for stuff, 
things. INS is going to board and look for people. The Ag--
Department of Agriculture is going to come aboard to look at 
animals as well as crops. The FDA is going to potentially--I 
make an assumption--is going to come on board, the Coast Guard, 
the DEA.
    One of the things that we are hoping happens--well, excuse 
me, more than hoping, we are determined to see that it 
happens--is that the Customs and the INS have the ability to, I 
was going to say cross fertilize, but that wouldn't be the 
right word, to have the ability to--but have the ability to do 
each other's jobs. And I just want to make sure that the local 
and State folk are plugged into this issue.
    And maybe, Mr. Lauer, maybe you can talk to me about the 
challenges that exist and the incentives you would like to see 
or legislation or whatever to make sure there is integration 
and so on. Maybe it is not a problem.
    Mr. Lauer. It is a problem. It is a problem across all 
seaports. It is a problem of knowing who is doing what and when 
they are doing it. We have attempted to resolve that problem 
through the formation, and in the law to require that each port 
have a seaport security committee. Through the Department of 
Law Enforcement we have created a subcommittee to that which 
brings the enforcement agencies together, on a monthly basis 
roughly, in which they bring, whether it is DEA or FBI or INS 
who has an enforcement responsibility, so that they are able to 
talk across their boundaries. That works to a point.
    I think the--what we have on our seaports is, as you have 
witnessed here, is a very strong cooperation at the local 
level. I think the difficulty that we all have in dealing with 
our Federal counterparts is the number of their 
responsibilities that go back to Washington. The lack of local 
coordinators across for each of these local agencies is a 
difficulty in enforcement.
    And if there were to be--in answer to that, I would say 
that we would encourage--if and when the Department of Homeland 
Security is formed, that they encourage this creation of 
regional or local leadership of the local Federal agencies that 
are down here, for all of them, simply an inspector and Customs 
manifest to report back to Washington, an investigator has a 
chain back to Washington. The lack of that local integration I 
think is something we would like to see coordinated better.
    Mr. Shays. That is the message that we have heard in other 
hearings that we have had.
    Mr. Chairman, I would just like to put on the record, 
because I know there has to be some interest and concern on 
this issue, I am absolutely convinced, just based on the work 
that we have done, that the Coast Guard will play a much more 
influential role under a Department of Homeland Security, not 
forget its other responsibilities. But if you were--if the 
Coast Guard were a business and you were looking to make a 
smart investment, you would invest in the Coast Guard, because 
their mission clearly will be more better recognized and the 
resources that will go to them I think will be quite 
significant.
    Thank you, Mr. Chairman.
    Mr. Putnam. Thank you, sir. The gentleman from Davis 
Island, Mr. Davis.
    Mr. Davis of Florida. When the State passed a very good law 
mandating these assessment plans which you helped develop, how 
did the State envision that the various port authorities would 
fund the improvements that were called for?
    Mr. Lauer. There was no mandates to fund them. We looked 
initially to the fact that--two ways: One, to the TOPS fund, 
transportation outreach, which is the first funding that was 
provided; second, through Federal funding. In 2001, the 
legislature budgeted and Governor Bush signed into law the TOPS 
fund for $7 million to begin the appropriation of funding 
toward these improvements.
    The ports, seaports identified about $45 million worth of 
improvements required to meet the minimum standards. We went 
into that session in 2001 with a general agreement that the 
State would seek $34 million of that funding. So roughly 75 
percent of it would be funded by the State over the course of 2 
or 3 years. The remaining 25 percent would be left to the ports 
to fund.
    The $7 million was funded, as I said, and this year there 
is an amount of funding, about $10 million, that comes to them 
for economic development from Seaport Transportation and 
Economic Development funds. Those FSTED funds granted 
flexibility to the seaports for the next 2 years to fund these 
either for economic improvements or for security improvements 
on the seaport, in essence trying to mirror what the Federal 
Government has done with FAA funding to airports. It allows 
them now for 2 years to fund a combination of either economic 
or security improvements on the seaports.
    My role was initially to try to find that $34 million worth 
of funding for the seaports. So far we have funded less than 
the $34 million, $19 and $7 so far.
    Mr. Davis of Florida. So the State only put in $7?
    Mr. Lauer. The State put in $7 in 2001. The Federal 
Government just funded the $19 million.
    Mr. Davis of Florida. So the State essentially, and I know 
you can't speak for the Governor and the legislature, but the 
State basically forced the ports to choose between funding 
their economic development and funding security, at least in 
this year's appropriation?
    Mr. Lauer. I don't know if I would say they forced them to 
do so. They gave them the option. They gave them flexibility. 
The intent of that flexibility was so that could move forward 
in providing some of the funding that was necessary.
    Mr. Davis of Florida. Would you speculate that perhaps the 
State might be more aggressive in funding, for example, if--as 
you probably know very well, one of the best uses of Federal 
dollars is to leverage State and local dollars. And we don't 
know what this is going to look like, but it might require some 
State and maybe local matching money. What are the chances the 
State will more aggressively fund security, particular one-time 
nonrecurring revenue needs of the ports in the future?
    Mr. Lauer. I think the State has demonstrated that they 
would, and they will try to find that kind of funding. If we go 
to a State match, I would encourage that from the Federal 
Government, that we put that match in kind, as well as in 
dollars, give them some option to do that, because all of the 
seaports, and I think this was unique in Florida, across all of 
the seaports in Florida, none of them waited for someone to 
tell--to give them money to do this.
    All of them moved forward and did some of this on their own 
in a good faith effort, and I think particularly as a result of 
the requirements of domestic security and protecting their 
seaports and their communities all of them went forth in good 
faith and did some things. The Florida Ports Council has 
reported that all of our seaports have put some $30 million 
into these kinds of measures since September 11th. I do not 
have those figures for you, so I can't break that out. But the 
issue was, is that, yes, the State government and Governor Bush 
and the legislature has shown they intend to assist the 
seaports in doing this, and have focused, particularly in my 
efforts, primarily on trying to find those funds from the 
Federal Government that we can.
    Mr. Davis of Florida. Did you get a chance to hear the 
testimony earlier from Mr. Savage about the ID badges? Is that 
a problem that you are aware of? What is the State doing? Is 
there anything the Federal Government can be doing to come up 
with a more foolproof identification system?
    Mr. Lauer. Yes. Two things. One, the issue of the ID badges 
has always been integral to security and access to the seaport. 
I think that one of the key things we have to keep in mind is 
that the ID badges are one part of what we term a very holistic 
view of seaport security.
    It is one measure that is taken among many others to ensure 
that this individual has a right to be on the port, has the 
right to access, get access to restricted access area, to do 
business on the seaport.
    The three ports that you have here have a unique 
arrangement, and they have a common set of ID cards. So the 
same card will work in each of the three ports that exist here. 
One of the difficulties for the entire State going to that 
level is the differences in the way the seaports allow or don't 
allow waivers to the felony background restrictions that the 
law puts in place. The law put in place a series of checks of 
certain felony backgrounds that restrict you from working on 
the seaport within 5 years of your release from incarceration 
or supervision of whatever that felony might have been.
    The law also allows the seaports to create a waiver 
process. Some seaports have said there is not going to be any 
waiver process after January 1, 2002. Others have said there 
will be. And one of the main difficulties in a common card, and 
the Florida Ports Council has taken leave of the seaports today 
to try to resolve this issue, is that a port which does not 
allow a waiver may not want to allow access to an individual 
who has that felony background that has been waived by another 
port.
    I don't know that the Federal Government has a role in 
that, except perhaps in the area that we talked about trucks 
and the idea that the trucking industry would like to see a 
common set of badges across all of the ports. We support that 
initiative and would like to see a common set of badges.
    The difficulty is the background checks and other things 
that are mandated by Florida law come into effect as well in 
those background, felony background restrictions. I think that 
if we are, and I think we are all working toward this, I have 
spoken to the trucking industry on several occasions, to 
indicate that we want to see that occur and we will work with 
the seaports to try and make that playing ground level.
    Mr. Davis of Florida. Deputy Chief Gee, in your written 
testimony you referred to the possibility that the Sheriff's 
Office would provide what sounded like a community-based 
policing to the port. Would that be through the COPS program?
    Mr. Gee. Well, that is our vision. We have actually asked 
for 10 positions through what was previously the universal hire 
COPS program. But it is--we are planning on using them a little 
different. We are actually going to try to tailor their duties 
to homeland security. We are certainly hoping--that is probably 
the biggest issue for us is capital and those type of things 
are things that we can get grants for from time to time. You 
can buy a helicopter, you can come up with the money. But for 
local law enforcement to take 15 or 16 people and redirect them 
to different areas is very difficult. We are being reimbursed 
for the port right now, the Port Authority. But, long term--we 
have minimal amount of people down there truthfully. So we are 
hoping that a program like that redirected toward homeland 
security would help us form a homeland Security Unit, 
essentially.
    Mr. Davis of Florida. Now, I know that your office is one 
of the leaders in the country in using the COPS program very 
successfully. Is the COPS program written in a way that would 
currently allow you to use these men and women for homeland 
security?
    Mr. Gee. We have spoken to them and we have sent it to 
them. We have tried to tailor it where it does fit. I think it 
is possibly questionable. We think that we have a chance where 
it could pass the way it is. But certainly it was not the 
original--it is not in the original spirit of what it was when 
it started up, you know, a number of years ago. There are some 
differences. We are hoping that we will get some variance on 
that.
    Mr. Davis of Florida. Last question for the two 
commissioners, Commissioner Frank, Commissioner Hart. I know 
both of you all have at least served on the Port Authority and 
are very familiar with it. Is there anything further the county 
or the Port Authority can do to fund these expenses is my first 
question.
    The second is, if you are forced to choose between 
spending, say, your own economic dollars for security, what is 
going to be the ultimate impact of that?
    Ms. Frank. Well, let me say that the Port Authority has a 
taxing authority that is permitted, and that budget goes to the 
County Commission as well as the Sheriff's budget goes to the 
County Commission.
    I know that Chairman Shays said that he does--is not 
familiar with county government. But it--the county is the 
umbrella organization through which these budgets flow.
    We have restricted the money that is raised by property 
taxes that the port levies to capital projects which enhance 
the ability of the port to economically grow.
    Only these last 2 years, last year and then it will be 
another year, have we made the exception, and sitting on the 
Port Authority, I of course supported this. And we have spent, 
the port has raised about $5 to $6 million out of property 
taxes for security purposes.
    We anticipate that probably we will have to raise another 
$8 million in property taxes to support security. So we are 
doing a fair share of the financing of the security of the 
port. But, you know, everyone is stressed these days. It 
becomes difficult, because the county has needs also that deal 
with security. We run the Emergency Preparedness Organization, 
which is quite effective and hasn't really been discussed much 
here today. But that is a composite body of representatives in 
the three cities, the Commissioners and the Sheriff's Office. 
Ordinarily we would be preparing for hurricanes. But we also 
have a part to play in the security issues.
    Mr. Hart. That was an excellent question, and I think that 
Chairman Frank answered it as specifically as anyone could 
representing Hillsborough County. There is another aspect as it 
relates to some of the policy questions that Chairman Shays was 
asking, and that Mr. Lauer answered.
    It depends on whether you are talking about a push system 
or a pull system, whether you are talking about it in terms of 
offense or defense. First and foremost, I think we all know 
that acts of terrorism are local events, period, that if local 
government can't handle it then we ask the State and/or Federal 
Government to come in. Nobody is standing there waiting to 
assist us anywhere in America.
    FEMA is as close as Atlanta. You are talking about a staff 
person. You are talking about somebody that is good at writing 
checks as they watch the home float down the river. But you are 
not talking about somebody that is going out on the offense. So 
we have got to take a look at our national policy from the 
standpoint of both the offensive side, but I think, as Mr. 
Lauer said, when they create the office of--Department of 
Homeland Security, what part of that recognizes what happens in 
local government, where regions do work together as we have 
crafted in the State of Florida, and how can we be more 
responsible to be sure of the public safety.
    There are no easy answers. I think as a first cut we have 
all done the best we can. Right now, as you know, there is some 
$700 million hanging in 2002 dollars, sitting in Washington 
unallocated.
    Part of what we did to put our needs assessment together 
was to say, OK, we have put a plan together. Governor Ridge, 
will you help us? But meanwhile you have got issues which I 
think are as weighty when you are talking about what the threat 
is of bioterrorism. Because when you talk about a port, my 
experience from combat is you never see or hear the bullet that 
kills you. So what comes in on a ship, by a person, by grain, 
by livestock, our agricultural connections or people 
connections and our health could be what is actually 
transported instead of us perhaps looking for some terrorist 
that fits a physical description.
    So you have asked a good and tough question. We are simply 
answering that within our ability at every opportunity right 
now.
    Mr. Davis of Florida. Thank you, and thank you for your 
work.
    Mr. Putnam. Thank you, Congressman Davis.
    You're basically ahead of your time with the Governor's 
Office of Drug Control preparing the statewide security 
assessment of Florida. That was under your direction, correct?
    Mr. Lauer. Yes, sir.
    Mr. Putnam. The key finding and observations with regard to 
the Port of Tampa were that it was, among other things, wide 
open with no access control, no picture IDs, no background 
checks, no police presence, inadequate fencing. Nonintrusive 
INS technology with U.S. Customs was virtually nonexistent. 
Public roads ran through the port. Little evidence of security 
initiatives integrated into the port master plan, and the 
shrimp docks are isolated and highly vulnerable to smuggling 
activity.
    That was in September 2000. Obviously the world has changed 
since then. So beginning with you, Commissioner Frank, where 
would we be today based on these findings? How have we handled 
many of these deficiencies?
    Ms. Frank. Well, many of those have been taken care of. The 
fences have been raised, the security identification passes, 
all of those have been accommodated. But they were really 
designed more for the pre-September 11th precautions. And this 
is a different situation.
    Unfortunately, I think we have spent some money that we 
shouldn't have spent if we had to look at the way we should do 
it now. I think some of these things, and I agree with some of 
the comments that were made by the users of the port that they 
may not be as productive.
    I recently had a talk with one of the generals out at 
MacDill Air Force Base several days ago. He was indicating to 
me the very sophisticated perimeter surveillance that they have 
instituted out at MacDill. I would like to know what that is. I 
hope that the committee will look at that because he was quite 
impressed with it. And probably far more effective than just 
raising a couple of feet of fencing.
    So I think there are new techniques out there that are 
being addressed for specifically the terrorism security 
situation that we should look at. We have many, many things to 
do.
    Mr. Putnam. Commissioner Hart.
    Mr. Hart. Representative Putnam, I don't think there is 
much I can add to that. I think that the dilemma is at the 
local, State and Federal level we have got historic stovepipes. 
We have got to figure out how to better communicate, how 
interoperability procedures would be routine and not something 
of just a special act so that in fact during our charge for 
day-to-day living we are improving our ability to have a 
society here that better serves and not just focuses on this.
    And yet we don't want to scare the public, but we have got 
to be vigilant on this issue and somehow keep it before us, and 
a public that is very easy to now turn to the fall football 
schedule as their highest priority.
    Mr. Putnam. Mr. Lauer and Chief Deputy Gee, do you believe 
that you are appropriately kept in the loop and informed with 
regard to intelligence sharing and threat and risk analysis 
from the appropriate intelligence agencies in Washington? Has 
that improved?
    Mr. Gee. From my agency standpoint, yes. I know there were 
problems across the country. I can tell you locally with this 
office, and we primarily deal with the FBI on that aspect, we 
did not have those issues here. And since then they have taken 
steps to issue these clearances to those people to keep them in 
the loop. Certainly it is always a need-to-know basis, but we 
have not experienced what maybe other agencies across the 
country have.
    Mr. Putnam. Mr. Lauer.
    Mr. Lauer. I think that I would concur with that at a local 
level across the State. Everywhere that there is one of our 
regional domestic security task forces, its Federal partners 
are members. The FBI is a member of our task force and we are a 
member of their task forces. I think the key issue for access 
has been security clearances and the difficulty in getting 
security clearances to all of those individuals that may need 
them. I think if we can clear the backlog of security 
clearances, I think we could greatly improve where we are 
today. But in no way should we leave with you the impression 
that at the level where the rubber meets the road down here at 
the local level, that all of these agencies are cooperating 
well and we are getting information that is meaningful.
    Mr. Putnam. Has the State of Florida, under your office, 
conducted an internal study, an internal risk analysis of 
Florida's 14 ports, in terms of ranking them by vulnerability 
or risk?
    Mr. Lauer. It is possible of the 12 active ports. Two of 
the 14 are not active public seaports today. I did not rank 
them 1 through 12, And I deliberately chose not to do so. Part 
of that is for competitive purposes. We changed--in fact, you 
will see in the 2000 we changed our assessment of the ports 
into high risk and low risk, medium risk to Tier 1 and Tier 2, 
to take out the stigma that your port is greatly at risk versus 
another port. We wanted to make the distinction that our Tier 1 
ports are our largest economic engines in the State and 
therefore needed to be protected accordingly.
    Our Tier 2 ports were those which had less economic 
activity, but had no less need to be protected. And so the 
issue of a ranking, 1 through 12, seemed to us to be 
counterproductive in the sense that all of our ports needed to 
be equally protected or have access to equal protection.
    I will say that in the order of things that were needed on 
the seaports that our first priority has been those things that 
address access control. And so, for example, when the current 
list of priorities went forward for Federal funding, for the 
$93 million that was just released, from the State of Florida's 
perspective the access control at gates here at the Port of 
Tampa and the gate system at Port Everglades were the top two 
considered for the State to be a requirement.
    What ultimately happened in that process was Tampa received 
$2 million on their $8 million request, and Port Everglades did 
not receive any based on other factors that occurred at the 
Federal level.
    But I think that what we have done is try to assess what 
each port needs in particular, and to try address, in priority, 
those ports in term of our largest economic engines and then 
move them down from Tier 1 and then our Tier 2 smaller ports.
    Mr. Putnam. So there is some prioritization of need?
    Mr. Lauer. Absolutely.
    Mr. Putnam. The industry panel pointed out that they 
desperately needed some standardization, some standard protocol 
and even internationally. But what I believe I heard from this 
panel, perhaps from you, Mr. Lauer, was that we can't even get 
Florida's active seaports to standardize background checks, 
treatment of felons, access control, etc.; is that correct?
    Mr. Lauer. No, I think we have a standard. The problem is 
getting the standards met. There is a standard for all of those 
things. There is a standard for getting a badge on a seaport. 
All of those standards are in effect. There is a standard for a 
fence. I think the key is that in the particular issue of 
whether or not all 12 ports can have the same badge, all of our 
ports are absolutely independent agencies, there is no central 
agency that controls the seaports.
    Mr. Putnam. There is no standard?
    Mr. Lauer. There is a State standard.
    Mr. Putnam. But there is no standardization, they are not 
all up to standard?
    Mr. Lauer. That is correct.
    Mr. Putnam. So while the industry, very rightfully I think, 
would like to see us have an international protocol, the 
highlight of how difficult that is is that Florida can't even 
do it, correct?
    Mr. Lauer. Well----
    Mr. Putnam. How difficult----
    Mr. Lauer. The difficulty is making--getting the standards 
in effect. But I think the key is that Florida has created the 
standards that the ports are being assessed against. I think 
that is really a key feature that we don't want to have missed, 
is that we have a set of standards and the ports are being 
assessed against those every year to bring them up to that 
standard of effectiveness.
    Mr. Putnam. Commissioner Hart, you mentioned something I 
think is very important, the need for an intermodal approach. 
You know, all of our ports are obviously connected to major 
interstates, they have rail lines, generally have--are in close 
proximity to airports. Is there a functioning body currently 
that brings together the expertise from air, rail, land, and 
sea to help you and your fellow commissioners create an 
emergency response plan?
    Mr. Hart. I specifically focused on transportation. At the 
Federal level, though, working with Governor Ridge, he has 
accepted recommendations we have made by the National 
Association of Counties to form that type of group so that all 
of those organizations and interests are talking to each other 
and coming up with a national approach for the very reasons we 
were discussing earlier.
    We don't believe you can have one approach, but therein is 
the issue. Every State has got--just like we have a 
Constitution, every State has a Constitution that is different. 
In Connecticut they don't have counties. Until today, I didn't 
know so many people had ever been to Connecticut.
    Mr. Shays. Would the gentleman yield?
    Mr. Putnam. Yes.
    Mr. Shays. I have been thinking about this. When Florida 
wants the best and the brightest, they call on Connecticut.
    Mr. Hart. Mr. Chairman, I think we also found that very few 
people are born here.
    But on a serious note, what we have said is we ought to 
have, you know, guidelines and approach, and there in each 
State, and there in--because each community has got to respond, 
and it has a different capability, it will respond to its 
threat or perceived threat based on its ability and capability.
    But we can't narrow ourselves to just thinking about a 
port, because it is going to connect to roads and rail, and 
trucks, and then other places you are going to see other 
different robust passenger service. Who is checking Amtrak 
going under Grand Central Station? We are doing a great job of 
looking at air, but these are all connected because people and 
goods and services are connected by transportation systems, and 
that is why we must have an intermodal approach to what we do 
for--at least some consistency or threat of continuity that we 
can get buy-in from all of the parties.
    Mr. Putnam. Thank you, Commissioner. Congressman Davis, any 
further thoughts for this panel?
    Mr. Chairman.
    Mr. Shays. No question, but just to thank our State folk 
and our county folk and our law enforcement people. I know that 
you all have a very difficult task, and 5 years ago homeland 
security was something that happened in Great Britain and not 
the United States.
    So it is interesting how we adapt, and I think the State of 
Florida is very fortunate to have all four of you.
    Mr. Putnam. With that, we will excuse the second panel and 
take a 5-minute----
    Mr. Shays. One last comment. The chairperson usually get an 
opportunity.
    Ms. Frank. Mr. Chairman, I do not want to stretch your 
time, but I think there is one point that I would want to make 
that I find extremely important, and it is piggybacked on what 
Colonel Gee said. Communications is the answer, and I think we 
have great gaps in communications. We don't have systems that 
are able to talk with one other. That is why you can't 
coordinate a lot of things. Much of it is the communications 
system itself, and if there were any need in terms of improving 
that, it would be very helpful, because you have one police 
department that may not be able to get messages from another 
police department. That has happened here.
    Now it is not that way right now, but we do have gaps, as 
you will see from our booklet.
    Mr. Shays. Thank you.
    Mr. Putnam. Thank you very much, Commissioner. We will 
excuse the second panel, take a 5-minute break, and the 
committee will stand in recess until 3:40.
    [Recess.]
    Mr. Putnam. The subcommittee will reconvene. We have a 
large third panel. We want to give everyone plenty of 
opportunity to be heard. I would ask that anyone who is 
accompanying someone who is testifying to please sit in the 
front row, and if you are in the front row if you could please 
make room for accompanying witnesses, and when we swear in the 
panel I would ask all of those who are accompanying a witness 
stand and be sworn as well if you intend to give testimony or 
assist in answering a question.
    Very well. As with the first two panels, we will swear in 
this third panel. So if the witnesses and those accompanying 
the witnesses will please rise.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record the witnesses and those 
accompanying the witnesses responded in the affirmative.
    It is a pleasure to welcome to the subcommittee a very 
distinguished panel. Ms. JayEtta Hecker, Director of the 
Physical Infrastructure Team from the General Accounting 
Office; Mr. Jack Bulger, Acting District Director of 
Immigration and Naturalization Service, who is accompanied by 
Mr. Ronald Johnson, Port Director for Tampa INS; Mr. James 
Baldwin, director of North Florida Customs, accompanied by Ms. 
Denise Crawford, area port director for Tampa, welcome. Captain 
Allen Thompson, former Captain of the Port Marine Safety 
Office, U.S. Coast Guard; Mr. James Jarboe, Special Agent in 
Charge, Federal Bureau of Investigation, Tampa office; Dr. 
James G. Butler, Deputy Under Secretary of the Marketing and 
Regulatory Programs for APHIS, USDA, who is accompanied by Ms. 
Mary Neal, Assistant Deputy Administrator Ag Quarantine INS, 
APHIS; and Mr. Carl Davis, Director of Operations for USDA in 
Tampa; Mr. Gary Dykstra, Southeastern Regional Food and Drug 
Director for Food and Drug, who is accompanied by Mr. Leon Law, 
supervisor for the Tampa Resident Post, FDA.
    With that we would recognize Ms. Hecker for 5 minutes. You 
have a 1-minute rollover, and hopefully we can keep our opening 
statements tight so we have time for questions.

      STATEMENTS OF JAYETTA Z. HECKER, DIRECTOR, PHYSICAL 
 INFRASTRUCTURE TEAM, GENERAL ACCOUNTING OFFICE; JACK BULGER, 
ACTING DISTRICT DIRECTOR, ACCOMPANIED BY DENISE CRAWFORD, AREA 
PORT DIRECTOR, TAMPA, U.S. CUSTOMS SERVICE; AND RONALD JOHNSON, 
 PORT DIRECTOR, TAMPA, IMMIGRATION AND NATURALIZATION SERVICE; 
   JAMES BALDWIN, DIRECTOR, NORTH FLORIDA CUSTOMS MANAGEMENT 
  CENTER, U.S. CUSTOMS SERVICE; CAPTAIN ALAN THOMPSON, FORMER 
  CAPTAIN OF THE PORT MARINE SAFETY OFFICE, TAMPA, U.S. COAST 
 GUARD, ACCOMPANIED BY CAPTAIN JAMES FARLEY, CAPTAIN, PORT OF 
TAMPA; JAMES F. JARBOE, SPECIAL AGENT IN CHARGE, TAMPA, FEDERAL 
    BUREAU OF INVESTIGATION; JAMES G. BUTLER, DEPUTY UNDER 
 SECRETARY, MARKETING AND REGULATORY PROGRAMS, ACCOMPANIED BY 
  MARY NEAL, ASSISTANT DEPUTY ADMINISTRATOR FOR AGRICULTURAL 
   QUARANTINE INSPECTION, ANIMAL AND PLANT HEALTH INSPECTION 
 SERVICE; AND CARL DAVIS, DIRECTOR OF OPERATIONS, TAMPA, U.S. 
   DEPARTMENT OF AGRICULTURE; AND GARY DYKSTRA, SOUTHEASTERN 
                REGIONAL FOOD AND DRUG DIRECTOR

    Ms. Hecker. Thank you very much, Mr. Chairman. Very pleased 
to be here today. And I will provide a report, really, on the 
outstanding work that GAO has been doing on port security. We 
have been doing this on our own initiative. So this is really 
the first time that we are reporting that.
    The work that we have done involves looking at eight major 
ports, including three here in Florida, because of the 
leadership activity on the part of Florida. We also have talked 
to and looked at records and programs of all of the major 
Federal agencies and looked at State and local government 
activities in those eight ports. So we really have a broad base 
of knowledge to really comment on the three issues that we are 
focusing on today.
    One is the vulnerabilities of ports. This is nationally. 
Second, what kind of initiatives have been taken at the 
Federal, State and local level? And, finally, what are some of 
the key challenges that remain?
    Now, what I will do is just give you the answer to those. 
You kind of have the answer in the summary of my statement, but 
I will highlight that quickly and then try to weave together 
some of the comments we have heard today and how that connects 
to some of the challenges that we outlined in our statement.
    Basically the answer to the issue of vulnerability is that 
ports are very vulnerable, they are inherently vulnerable. Some 
are more vulnerable than others. I think we have heard that 
Tampa is among the more vulnerable. The very nature of it, the 
expansive nature, how open it is, how hard it is to secure, the 
volume of goods and people going through the port. There are 
fundamental challenges not only for things coming through the 
port, but of course the port as a target itself. There are a 
lot of attractive targets at this port and, unfortunately, many 
others.
    So the vulnerabilities are pretty consistent across the 
board. All of the ports that we visited had significant 
vulnerabilities. We went to two of the ports that had received 
the Defense Threat Assessment review of their status, and all 
of those had serious problems, and, unfortunately, they weren't 
being actively corrected. So the vulnerabilities are there.
    The second issue then we had was what is being done about 
it? Clearly post-September 11th there has been an enormous up-
tick in activity at all of the Federal agencies, at all of the 
local agencies. You have heard it all today. There is clearly 
an awareness that this is a very significant threat and that 
people need to work together, resources are needed, substantial 
change in the attitude that everything is just to facilitate 
free-flow, that there has to be some balance now with the 
security issues.
    So the initiatives are many. We number them throughout. Go 
through the range of initiatives. Florida, as you heard today, 
really is one of the lead States. It is really, as we 
understand it, the only State that is really ahead of the game 
in having State standards, trying to implement them, trying to 
enforce them. So the Federal Government has a lot to learn from 
Florida.
    There are also very different local initiatives. Again, you 
have heard some of that today. So the issue of initiatives is 
people got the message. This is a very serious situation. And 
there are very few people who are not aware of it and not 
taking some steps.
    The concern, though, is that these initiatives don't amount 
to anywhere near addressing the magnitude of the problem or 
really moving us toward secure ports. They are in the right 
direction. They are the right kind of initiatives. But the 
challenges that we see remaining are substantial to really 
implement and make effective those kind of improvements to the 
security of the port.
    The challenges that we outlined, and it is interesting, you 
have heard them all today, they are not really a surprise. The 
issue of standards. How to define them, how to apply them, how 
to enforce them. Very complicated issues there. And this is 
everything from the access rules and the height of the fence 
and where the fence has to be, waterside protection, as well as 
landside, airside. We heard a question--that was your 
question--about the planes going over. So what are the 
standards? How well will they be enforced? How consistently?
    The second challenge is resources. Almost universally we 
heard concerns about where the resources is going to come. I 
think Representative Davis asked a lot of important questions 
about the State role, the local role, the private role. That 
really is an important issue of how the costs get shared, not 
just what are they. And, frankly, we don't know. We have no 
idea what the total cost will be. But the issue of the cost 
sharing and the appropriate cost sharing is an interesting one.
    And the final concern is getting all of these partners 
working together. I think you have heard the challenges to make 
that work here. There are local partnerships. There are of 
course all of the Federal partnerships which are anything but 
resolved by the creation of the Department of Homeland 
Security. They still have to figure out how to work together in 
the department, and they still have more parties outside the 
department than in. So the Federal house is not in order 
instantaneously by establishment of the Department of Homeland 
Security.
    And then we also heard another whole dimension of 
cooperation and partnerships internationally, really building 
effective agreements with trading partners and commercial firms 
to really find and explore an efficient way to bring about the 
kind of security that we need in our Nation's ports.
    [The prepared statement of Ms. Hecker follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.052
    
    [GRAPHIC] [TIFF OMITTED] T7700.053
    
    [GRAPHIC] [TIFF OMITTED] T7700.054
    
    [GRAPHIC] [TIFF OMITTED] T7700.055
    
    [GRAPHIC] [TIFF OMITTED] T7700.056
    
    [GRAPHIC] [TIFF OMITTED] T7700.057
    
    [GRAPHIC] [TIFF OMITTED] T7700.058
    
    [GRAPHIC] [TIFF OMITTED] T7700.059
    
    [GRAPHIC] [TIFF OMITTED] T7700.060
    
    [GRAPHIC] [TIFF OMITTED] T7700.061
    
    [GRAPHIC] [TIFF OMITTED] T7700.062
    
    [GRAPHIC] [TIFF OMITTED] T7700.063
    
    [GRAPHIC] [TIFF OMITTED] T7700.064
    
    [GRAPHIC] [TIFF OMITTED] T7700.065
    
    [GRAPHIC] [TIFF OMITTED] T7700.066
    
    [GRAPHIC] [TIFF OMITTED] T7700.067
    
    [GRAPHIC] [TIFF OMITTED] T7700.068
    
    [GRAPHIC] [TIFF OMITTED] T7700.069
    
    [GRAPHIC] [TIFF OMITTED] T7700.070
    
    [GRAPHIC] [TIFF OMITTED] T7700.071
    
    [GRAPHIC] [TIFF OMITTED] T7700.072
    
    [GRAPHIC] [TIFF OMITTED] T7700.073
    
    [GRAPHIC] [TIFF OMITTED] T7700.074
    
    Mr. Putnam. Thank you very much.
    Mr. Bulger, you are recognized. Welcome to the 
subcommittee.
    Mr. Bulger. Mr. Chairman, thank you for inviting me here 
today to address you on behalf of the U.S. Immigration and 
Naturalization Service. I am pleased to appear before you today 
along with so many of our Federal agencies, as well as various 
State and local agencies, Tampa Port Authority, local industry 
representatives and other stakeholders to discuss seaport 
security.
    The Florida District of INS has developed and maintained 
several aggressive enforcement operations aimed at preventing 
the smuggling of aliens, terrorists, criminals and contraband 
into the United States at our ports of entry. One of the most 
significant actions to date has been the establishment of the 
first terminal inspection operations for cruise ships at our 
Florida seaport locations, including here at the Port of Tampa.
    Developed with cooperation between the industry and INS, 
these new facilities are designed to resemble international 
airport style inspection areas. This new approach has allowed 
us to facilitate travel, while we also increase our enforcement 
efforts as arriving cruise ship passengers are now more 
quickly, but also more thoroughly inspected by INS personnel.
    INS has also taken measures to enhance security regarding 
the inspection of crew members on cruise ships. We have 
strengthened our policies to limit more strictly any waivers of 
documentary requirements to better track deserters and 
absconding crewmen, and to require security guards to ensure 
that any nonadmissible crew do not disembark. These policies 
and our cruise ship facility enhancements create a more secure 
seaport while at the same time facilitating travel.
    In addition, we are very pleased with the partnership we 
have developed with the State of Florida under the auspices of 
the domestic security task forces that we have heard spoken 
about earlier today. This is an opportunity, unique in INS, and 
the first in the country, in which State and local law 
enforcement officers will be designated as Immigration and 
Naturalization Service officers.
    There are now 35 local and State law enforcement personnel 
who are undergoing a 6-week training program at the FDLE in 
Orlando. Now, the training is being conducted by INS personnel 
from the Federal Law Enforcement Training Center. At the 
conclusion of that training next week, these 35 officers will 
be designated as U.S. Immigration and Naturalization Service 
officers. They will work under the supervision of INS 
personnel, and we feel that the effective force multiplier that 
they will provide will allow for greater coordination and 
cooperation as these domestic security task force operations 
attempt to make our ports more secure.
    This is an opportunity for us that we see--we are seeing a 
great deal of interest around the country as other States 
discuss the possibility of emulating this very important 
initiative.
    And with that, Mr. Chairman, I will conclude my remarks in 
the interest of brevity.
    [The prepared statement of Mr. Bulger follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.075
    
    [GRAPHIC] [TIFF OMITTED] T7700.076
    
    [GRAPHIC] [TIFF OMITTED] T7700.077
    
    [GRAPHIC] [TIFF OMITTED] T7700.078
    
    [GRAPHIC] [TIFF OMITTED] T7700.079
    
    [GRAPHIC] [TIFF OMITTED] T7700.080
    
    [GRAPHIC] [TIFF OMITTED] T7700.081
    
    [GRAPHIC] [TIFF OMITTED] T7700.082
    
    [GRAPHIC] [TIFF OMITTED] T7700.083
    
    [GRAPHIC] [TIFF OMITTED] T7700.084
    
    [GRAPHIC] [TIFF OMITTED] T7700.085
    
    [GRAPHIC] [TIFF OMITTED] T7700.086
    
    [GRAPHIC] [TIFF OMITTED] T7700.087
    
    Mr. Putnam. Thank you very much.
    Mr. Baldwin, welcome to the subcommittee.
    Mr. Baldwin. Thank you vice-chairman Putnam, Representative 
Davis. Thank you for this opportunity to testify here today. A 
formal statement is a matter of the record, so I will summarize 
what I have here today.
    Since September 11th, Commissioner Bonner's top priority 
for the Customs Service has been responding to the continuing 
threat at our seaports, our airports and our land borders. Our 
highest priority is doing everything that we reasonably and 
responsibly can to keep terrorist and terrorist weapons from 
entering the United States.
    Coupled with this priority are our efforts to ensure that 
legitimate trade and commerce carries on with as minimal amount 
of impact as possible. Today I would like to describe some of 
the steps Customs has taken to secure our Nation's seaports 
while balancing the flow of legitimate commerce.
    Since the attack, Customs has operated a Level 1 alert 
across the country, including at the seaports. Level 1 requires 
a sustained, intensive antiterrorist-related inspection of 
travelers and goods at every port of entry. Because of this 
continuing threat, we remain at Level 1 this day, and will 
continue to do so in the foreseeable future.
    To help ensure that Customs develops a coordinated, 
integrated counterterrorism strategy, Commissioner Bonner 
established a new Office of Antiterrorism in the Customs 
Service. In addition, the Office of Border Security has been 
established to provided real-time tactical information on 
targeting techniques for travelers and cargo. This office 
serves as a single point of contact for events that take place 
in the field.
    Our efforts to security American seaports from the threat 
of terrorism must go beyond fortifying our own ports. From 
every perspective, all nations must realize how global trade 
will be impacted should a catastrophic event occur.
    As mentioned earlier by this committee, the vast majority 
of world trade, about 90 percent, moves in containers, much of 
it being carried by ocean-going vessels. Nearly half of all 
incoming trade to the United States, about 46 percent, arrives 
by ship, and most of that in containers.
    In an effort to ensure that legitimate trade is not 
compromised, Customs has established the Customs Trade 
Partnership Against Terrorism, which we call CTPAT. This 
program builds on our past success in security models with 
Customs and the trade industry that were designed to prevent 
legitimate cargo shipments from being used to smuggle illegal 
drugs.
    Members of the trade community are now working to tighten 
up security throughout their supply chains to prevent the 
exploitation by terrorists. Since September 11th staffing here 
in Tampa has increased and increased throughout the Nation. We 
have augmented Tampa with approximately six inspectors whose 
positions have been given under the auspices of seaport 
security alone.
    The ability to target effectively is paramount to our 
ability to be able to intercede, interdict weapons of mass 
destruction. Timely, accurate and complete information is vital 
to homeland security, and it should be mandated to be provided 
in advance of all cargo importations and in-bond shipments. 
There is current legislation now, such as S. 1214, which takes 
a major step to where we ultimately need to be.
    Customs believes that it must do everything possible to 
push our line of defense outwards. Thus, we employ what we call 
defense-in-depth strategy; essentially our perimeters of 
security are at the point of origin. Pushing our security 
outwards will allow Customs to be more proactive to potential 
threats, to stop them before they reach us, and to expedite the 
flow of low-risk commerce across our borders.
    A critical element of Customs' overall defense-in-depth 
strategy is the Container Security Initiative, which we call 
CSI. The CSI places U.S. Customs personnel in the world's major 
shipping ports to identify, prescreen those containers that 
post the highest risk of containing terrorists and terrorist 
weapons before they are shipped to the United States.
    The core elements of CSI are, first, establishing 
international security criteria for identifying containers that 
pose high risk for terrorist or terrorist weapons; second, 
maximizing the detection technology that we use to prescreen 
containers, and the third, developing and deploying smart 
boxes. Those are boxes of secure containers which have 
electronic seals which will indicate to Customs and the 
carriers or the importers that the container has been tampered 
with.
    CSI is well underway. Through agreements with the 
governments of Canada, we have started the process of screening 
500,000 containers that are destined to the United States each 
year from Montreal, Vancouver and Halifax.
    We also have agreements in place now with the Netherlands, 
France, Belgium, and Singapore. Customs is actively working to 
pursue with other nations, at least the 20 top ports in the 
world in terms of volume of cargo and tonnage. Targeting is one 
form of our technology used by Customs, but we also have a 
number of technologies that we use here in Tampa. For example, 
we have the vehicle and cargo X-ray inspection system which is 
called VACIS, which allows us to x-ray a container to determine 
if there is any anomalies in those containers prior to opening 
the containers. The VACIS not only allows us to expeditiously 
examine the container, but also provides a greater level of 
security for the inspectors involved in the examination.
    There is also two mobile x-ray vans here in the area Port 
of Tampa for use in the seaport environment in the tri-port 
area. In addition, all of our uniformed personnel in this area 
have been assigned radiation detection pagers that they wear.
    As you can see, current technology available is of utmost 
importance to the Customs Service. We look forward to the 
Automated Commercial Environment, which we call ACE.
    Terrorists have already exploited one key component of our 
transportation system. It is not unthinkable that they will 
seek to target others. I will conclude my remarks with that.
    [The prepared statement of Mr. Baldwin follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.088
    
    [GRAPHIC] [TIFF OMITTED] T7700.089
    
    [GRAPHIC] [TIFF OMITTED] T7700.090
    
    [GRAPHIC] [TIFF OMITTED] T7700.091
    
    [GRAPHIC] [TIFF OMITTED] T7700.092
    
    Mr. Putnam. Thank you very much, Mr. Baldwin.
    Captain Thompson, welcome.
    Captain Thompson. Good afternoon, Mr. Chairman, Mr. Putnam, 
Mr. Davis and distinguished members of the committee. It is a 
pleasure to appear before you today to discuss Coast Guard 
homeland security and securing seaports.
    I am Captain Allen Thompson, Chief, Marine Safety Division, 
7th Coast Guard District, and past Captain of the Port, and 
Commanding Officer, Marine Safety Office, Tampa. With me today 
is Captain James Farley. He is the current Captain of the Port 
in Tampa and responsible for Coast Guard Marine Safety Division 
on the West Coast of Florida.
    On behalf of the Commandant, Admiral Thomas Collins, I 
thank you for this opportunity to speak to you today. Let me 
begin by echoing and reinforcing the Commandant's support for 
inclusion of the Coast Guard in President Bush's proposed 
Department of Homeland Security. My experience on the front 
lines of our homeland security efforts have convinced me that 
we must take this important step to improve coordination 
between the various agencies that secure our borders and 
transportation systems.
    Closer quarters with the our colleagues at Customs, INS, 
Animal and Plant Health Services and Transportation Security 
Administration will help the Coast Guard improve its 
performance as the lead Federal agency for our maritime 
homeland security. In the Tampa Bay region, and on the West 
Coast of Florida, three major Coast Guard commands, Marine 
Safety Office Tampa, Group St. Petersburg, and Air Station 
Clearwater are responsible for maritime law enforcement and 
other Coast Guard missions.
    The Captain of the Port responsibilities include 
maintaining the safety and security of nearly 380 miles of 
coastline contained in three of Florida's 14 deepwater ports, 
Tampa, Manatee, and St. Petersburg, and many more port-related 
facilities. In this region, our Nation's 10th largest port and 
Florida's largest deepwater port, 50 percent of all of the 
hazardous material and half of Florida's fuel enter through 
Tampa Bay. More than 4,000 commercial ships call on this port 
and this region every year, and over 650,000 passengers embark 
from the Port of Tampa.
    Following the attacks of September 11th, we took several 
steps to enhance the safety of marine transportation systems 
and security at our ports. First and foremost, we started 
controlling the movement of all traffic in our ports and 
waterways. We focused on high-risk vessels, including tankers 
carrying gas, oil and chemicals. We also focused on vessels of 
high interest, with a concentration of passengers. These are 
high capacity passenger vessels, cruise ships and ferries.
    Furthermore, we identified and developed security schemes 
for significant physical security infrastructure such as 
bridges, power plants, MacDill Air Force Base and the nuclear 
power plant in Crystal River. To more effectively utilize 
available resources and carry out the port security mandates, 
the Coast Guard commands established a Unified Marine Safety 
and Security Task Force, Western Florida.
    This structure gave us the opportunity for seamless 
coordination and execution for all of our port security 
operations and traditional missions. These efforts provided 
long-term stability, sustainability and enabled the Coast Guard 
and other agencies to perform the traditional missions.
    As we look forward and since the attacks, we have 
strengthened the relationship with Federal, State and local law 
enforcement agencies. We engage all regional intelligence 
networks and are actively involved in the U.S. Attorney's Joint 
Antiterrorist Task Force as well as the three Florida 
Department of Law Enforcement Regional Domestic Security Task 
Forces on the West Coast of Florida.
    I would be remiss if I did not note that the government 
agencies' efforts to improve maritime security in the region 
received outstanding support and cooperation from the maritime 
community and was enhanced by the superb forum provided by the 
Tampa Bay Harbor Safety Committee. I firmly believe that a 
viable Harbor Safety Committee or similar type organization 
will be paramount in facilitating trade and securing our 
seaports in the future.
    We do face significant challenges in the future. All ports 
in this region are projecting significant growth and are 
involved in numerous projects of expansion. With this increased 
growth comes increased vulnerability.
    Our port security efforts have relied heavily on the use of 
over 100 select reservists recalled to support maritime 
homeland security. Over the past month, we have been forced to 
reduce those numbers and allow them to return to their families 
and their jobs. Nearly 2,300 Coast Guard Auxiliary in the 
region have also answered the call and a surge of activity has 
provided even greater support than the normal support we have 
come to rely on daily.
    We could not have provided or maintained this high level of 
support without the support of our reserve and auxiliary 
forces. This brings into sharp focus our current need for more 
full-time active duty personnel.
    Also, we have experienced a tremendous surge in the use of 
our small boats, cutters and aircraft. Current port security 
operations, combined with our traditional missions, have pushed 
the resources nearly to the breaking point. Additional funding 
to maintain and repair these existing resources is greatly 
needed as funding is to acquire new equipment.
    The Coast Guard is committed to continuing the protection 
of our Nation against terrorist threats as well as maintaining 
our maritime law enforcement mission.
    Thank you for the opportunity to testify before you and for 
your continued support of the Coast Guard, and I will be 
available and pleased to answer any questions.
    [The prepared statement of Mr. Thompson follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.093
    
    [GRAPHIC] [TIFF OMITTED] T7700.094
    
    [GRAPHIC] [TIFF OMITTED] T7700.095
    
    [GRAPHIC] [TIFF OMITTED] T7700.096
    
    [GRAPHIC] [TIFF OMITTED] T7700.097
    
    Mr. Putnam. Thank you very much, Captain. And for the 
chairman's benefit, I note in your resume that you are a 
graduate of the Coast Guard Academy in New London, CT.
    Captain Thompson. I will say that I had an excellent 
opportunity of living in Connecticut on two occasions, in my 
time at the Academy and also when I went back to be a member of 
the staff of the Academy. And being a Southern lad, I find that 
Connecticut brings some great things to fruition. But I do like 
Florida.
    Mr. Putnam. Thank you very much.
    Special Agent Jarboe.
    Mr. Jarboe. Thank you, Mr. Chairman, Chairman Shays, 
Representative Davis. I would like to briefly go over the 
written statement that I previously submitted to the committee.
    As we have all seen and we all know, there are numerous 
threats that are out there on the horizon for us. The domestic 
and foreign intelligence services are working jointly to track 
those threats, report the threats and make sure that 
information is disseminated appropriately.
    Intelligence bulletins have been disseminated when 
warranted, giving our law enforcement comrades specific 
information, at least as specific as we had it, about what 
threats might be out there, what they should watch out for.
    I think we are all aware in this current world that the 
weapons of mass destruction represents a real threat to ports 
and all of our society.
    We have approximately 16 million visitors to the Tampa 
area, with approximately 40 million visitors to the Orlando 
area. Large number of visitors allows for folks to blend in 
that might want to do something of harm to us.
    As we have all been told from numerous panel members 
before, the Port of Tampa holds approximately 50 percent of all 
of Florida's hazardous materials. It is an extremely large 
port, it is adjacent to populated areas and is accessible by 
land, sea and air.
    The anhydrous ammonia plants that are near the port and in 
the port have an excellent safety record, but that does not say 
that they are not vulnerable to attacks by terrorists. High 
volume traffic in the port can provide a cover of movement for 
illicit goods. We have bulk and containerized cargo freighters, 
fishing vessels, recreational boats, tugs, cruise ships, all of 
which can be exploited by would-be terrorists.
    To address these concerns and vulnerabilities, law 
enforcement community, State, local, Federal, together with the 
private sector, the Fire, Rescue, HAZMAT, Florida Emergency 
Management, have all combined prior to September 11th and 
certainly more intensely after September 11th to work together 
to address these issues.
    The FBI's Joint Terrorism Task Force, which is here in 
Tampa, also has a branch in Orlando and in Brevard County, 
where Port Canaveral is, has an outreach program comprised of 
contingency plan development, training seminars, table top and 
field exercises and threat assessments. Over the last 4 years, 
there have been over 60 weapons of mass destruction terrorism 
presentations presented, with 17 table top and full field 
exercises.
    In June 1999, Florida Emergency Management hosted a 
statewide WMD terrorism summit under a grant from FEMA. This 
was used to connect Federal, State, and local counterparts from 
both the crisis and consequence management areas. It is 
important to note that both crisis and consequence management 
folks have to work hand in glove when we have a crisis to make 
sure of a smooth functioning and quick resolution.
    In March 2000, there were 17 agency, countywide field 
training exercises regarding terrorism, takeover of an 
anhydrous ammonia facility here in the Port of Tampa. The 
results of that and lessons learned were distributed to all 
agencies to better bolster their abilities. There was an 
exercise planned in November 2001 for the Tampa area; however, 
that was the canceled due to the events of September 11th.
    The FBI regularly participates in numerous task forces, 
working groups to ensure that information and knowledge is 
shared. The FBI heads the Terrorism Subcommittee of the Port 
Security Working Group, which is headed by the U.S. Coast Guard 
as the overall leader.
    I think the key to future success and prevention of 
terrorists attacks in the Port of Tampa and anywhere in this 
country lies in three areas. One, we must obtain correct and 
good intelligence. We must analyze that intelligence and, most 
critically, we must share that intelligence, both horizontally 
within the Federal Government and vertically down to the State 
and local governments, to make sure that everyone knows what is 
and what is not a threat.
    With that, Mr. Chairman, I conclude my remarks and would be 
happy to answer any questions.
    [The prepared statement of Mr. Jarboe follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.098
    
    [GRAPHIC] [TIFF OMITTED] T7700.099
    
    [GRAPHIC] [TIFF OMITTED] T7700.100
    
    [GRAPHIC] [TIFF OMITTED] T7700.101
    
    [GRAPHIC] [TIFF OMITTED] T7700.102
    
    [GRAPHIC] [TIFF OMITTED] T7700.103
    
    [GRAPHIC] [TIFF OMITTED] T7700.104
    
    [GRAPHIC] [TIFF OMITTED] T7700.105
    
    [GRAPHIC] [TIFF OMITTED] T7700.106
    
    Mr. Putnam. Thank you very much.
    Dr. Butler, welcome.
    Mr. Butler. Thank you, Mr. Chairman, members of the 
subcommittee, for the opportunity to be here today to discuss 
the Department of Agriculture's role in seaport security and 
trade facilitation.
    As you know, the USDA's Animal Plant Health Inspection 
Service safeguards agricultural and natural resources of the 
U.S. from foreign animal/plant pests and diseases. As part of 
this mission, APHIS stations plant protection quarantine 
officers at U.S. ports of entry. PPQ officers have the 
authority to inspect all agricultural products.
    At animal import centers, APHIS veterinarians check animals 
in quarantine to make sure that they are not infected with any 
foreign pests or diseases before allowing them to enter the 
country.
    At seaports as well as airport terminals and border 
inspection stations, PPQ officers inspect internal conveyances 
and baggage of passengers for plant and animal practices that 
could harbor pest or disease organisms. PPQ officers inspect 
ship and air cargo, truck freight, packaged mail and foreign 
mail from foreign countries. APHIS enforces strict import 
regulations designed to prevent introduction of potentially 
devastating pests and diseases into this country.
    All agricultural products brought into the U.S. must be 
declared without exception. Travelers are given the opportunity 
to declare their items both orally and in writing. When PPQ 
officers discover any agricultural product that is not 
declared, they can assess penalties. All confiscated products 
are examined by our officers and destroyed.
    The events of September 11th forever changed the context in 
which we do our work. In the past the focus of most of our 
efforts have been to prevent and deter unintentional 
introduction of pests and diseases into our country. But the 
very real potential of intentional threats of agriculture 
production, our food supply, have required us to do much more. 
We have been working closely with our Federal agencies, State 
agriculture departments, academia, and the agricultural sector 
on many fronts to secure and strengthen planning and 
preparedness.
    Since the outbreak of foot and mouth disease in the United 
Kingdom and the events of September 11th, USDA has 
significantly augmented efforts to prevent both the accidental 
and potential introduction of foreign agricultural pests and 
diseases. APHIS has hired and is continuing to hire additional 
inspection veterinary personnel at U.S. ports of entries. 
Additional detector dog teams, consisting of beagles and their 
handlers, also play an important role in this activity. One of 
these detector dog teams is here in Tampa checking passengers 
and airline and maritime cargo.
    Our PPQ officers at the borders have remained on heightened 
alert. Through the present fiscal year 2003 budget proposal and 
supplemental appropriations by the Congress, we continue our 
border protection efforts well beyond today. Our border 
protection personnel will be at their highest alerts ever, and 
investments in areas of research, laboratory upgrades and 
security will enhance our ability to prepare and respond to 
potential threats on American agriculture.
    Beyond our internal efforts, we have expedited our work 
with U.S. Customs Service to implement and automate INS 
targeting systems. We have collaborated with research 
universities, State agriculture departments, stepped up 
development of rapid detection systems, expanded our network of 
diagnostic laboratories, strengthened pest and disease 
surveillance, better secure and strengthen our laboratories and 
improve our emergency preparedness.
    Nevertheless, we continuously improve to strengthen our 
protection of U.S. agriculture and our food supply. On July 
26th, the House of Representatives passed H.R. 5005, which 
would create the new Department of Homeland Security. That 
includes APHIS inspectors and a unified border inspection 
force. This move, which we fully support, affirms the critical 
role of inspections of agricultural cargo and advances in 
international passengers. With one unified border inspection 
force, we hope to see a multiplier effect on our ability to 
exclude threats to the United States, whether that threat is 
FMD or weapons of mass destruction.
    I would note that agriculture import regulations would 
continue to be set by our APHIS inspectors based on sound 
science as they always have been. Thank you for this 
opportunity.
    [The prepared statement of Mr. Butler follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.107
    
    [GRAPHIC] [TIFF OMITTED] T7700.108
    
    [GRAPHIC] [TIFF OMITTED] T7700.109
    
    Mr. Putnam. Thank you, Dr. Butler.
    Mr. Dykstra, welcome to the subcommittee.
    Mr. Dykstra. Thank you, Mr. Chairman, Representative Putnam 
and Representative Davis. Delighted to be here this afternoon 
to represent FDA.
    Just for the record, though, I wanted to inform you that I 
have never lived in Connecticut. I do have a brother that lives 
in Manchester, CT, if that gets me any points.
    Mr. Shays. It does.
    Mr. Dykstra. I am Gary Dykstra. I am FDA's Regional 
Director here in the Southeastern United States. I welcome the 
opportunity to inform the subcommittee of FDA's efforts to help 
ensure that FDA-regulated products coming through the Port of 
Tampa are safe and not used as potential vehicles for terrorist 
acts while minimizing the impact on the free flow of trade 
through this port.
    Let me briefly describe FDA's general procedures for 
handling imports in the Port of Tampa. Every FDA office that 
has responsibilities for reviewing import entries or conducting 
investigations related to imported articles works through the 
local Customs office, which has the primary responsibility for 
border security.
    FDA is very pleased with the level of cooperation that we 
have been able to achieve with Customs here in Tampa. Our FDA 
Tampa Resident Post enjoys a good working relationship with the 
U.S. Customs Service representatives here in Tampa. Since 
September 11th and subsequent events there is even closer 
communications with Customs, especially to target suspect 
terrorist activities, particularly using imported products.
    There is a greater sensitivity and review of potential 
terror vehicles or contaminated products by FDA. Following 
September 11th, FDA's port security concerns have also been 
focused on the deliberate contamination of FDA products, either 
at the port, en route to, or at the importer's premises.
    FDA is responsible for all foods, drugs, cosmetics, medical 
devices and radiological products with the exception of meat 
and poultry, which is the responsibility of USDA.
    Medical devices and radiological products and 
pharmaceuticals predominately enter through Tampa, while foods 
predominately enter through other Florida ports. The entries 
coming through Tampa tend to be more technologically complex 
and generally require more time to review than do foods.
    As you know, FDA's import computer system, known as OASIS, 
screens most of the FDA-regulated products within minutes so 
products can move into domestic commerce with little delay.
    OASIS is an automated system for processing and making 
admissibility determinations to ensure the safety, efficacy and 
quality of foreign origin products for which FDA has regulatory 
responsibility. Systems security controls protect the 
confidentiality of the proprietary trade information involved 
in these government industry electronic transactions. OASIS is 
complimentary to FDA's regulatory system of approvals and 
domestic and foreign inspections, which all protect American 
consumers in relation to imported goods.
    Also, FDA evaluates 100 percent of the import filers 
annually to ensure that they are all properly reporting the 
Customs codes for the products they are importing and the 
integrity of the reporting system.
    The Port of Tampa receives approximately 25 to 30 FDA-
related entries per day. Most of these are medical devices or 
drugs. These types of entries are more complicated than food 
entries, and they require more review and data checking.
    To further enhance the efficiency of FDA import operations 
in the Port of Tampa and in our Florida district, beginning 
this October the Florida district will reorganize its 
investigations branch. Currently the Tampa-based consumer 
safety officers working in imports routinely travel to Orlando 
and Port Canaveral. After the reorganization, they will cover 
only Tampa. This will result in these consumer safety officers 
having additional time to examine more incoming products and 
collect more samples.
    As I indicated, FDA is in a supporting role to Customs and 
other Federal agencies in ensuring seaport security. Our focus 
is on FDA-regulated products that enter through those ports. 
While our public health mission has not changed since September 
11th, it has certainly been redirected and heightened with 
respect to imported products.
    The fiscal year 2002 counterterrorism budget supplemental 
authorized 655 new hires for FDA's field offices. When all of 
those new hires are on board, FDA anticipates that 
approximately 420 will be either stationed at border locations 
or will be working specifically on imports. Regardless of their 
specific physical locations, FDA anticipates that all new hires 
will be trained in both import and domestic operations.
    There are many other provisions of the new legislation 
passed by Congress under the new Bioterrorism Act of 2002 which 
FDA will be enforcing right now.
    Of these many other provisions of the legislation that will 
help ensure the safety of imported products, many provisions 
require regulations, and FDA is conducting a transparent 
implementation process for this new legislation. Meetings with 
stakeholders already have taken place, and dockets for public 
comment already have been established.
    FDA's mission is to protect the public health and ensure 
the safety and effectiveness of FDA-regulated products entering 
this country. We will continue to work with Customs and the 
other agencies in striving to ensure that FDA-regulated 
products move through the import system in an expeditious 
manner.
    I would be pleased to answer any questions you may have 
with regard to FDA's operations here in Tampa.
    [The prepared statement of Mr. Dykstra follows:]
    [GRAPHIC] [TIFF OMITTED] T7700.110
    
    [GRAPHIC] [TIFF OMITTED] T7700.111
    
    [GRAPHIC] [TIFF OMITTED] T7700.112
    
    [GRAPHIC] [TIFF OMITTED] T7700.113
    
    [GRAPHIC] [TIFF OMITTED] T7700.114
    
    [GRAPHIC] [TIFF OMITTED] T7700.115
    
    [GRAPHIC] [TIFF OMITTED] T7700.116
    
    [GRAPHIC] [TIFF OMITTED] T7700.117
    
    Mr. Putnam. Thank you very much, Mr. Dykstra. I want to 
thank everyone on the panel for being so wonderful about 
adhering to our 5-minute limit. It is not always an easy thing 
to do. We will begin with questions from our host Congressman, 
Mr. Davis.
    Mr. Davis of Florida. Thank you, Mr. Chairman. Mr. Baldwin, 
you mentioned that you had recently added six new inspectors, 
if I heard you correctly. How is your workload right now? How 
well are you doing in keeping up, given the tools you have to 
work with?
    Mr. Baldwin. Right now here in the Port of Tampa, these six 
positions were specifically designated for seaport security. We 
have about 80 inspectors or 80 Customs personnel in the tri-
port area. We are trying to work smarter. We are utilizing the 
nonintrusive technology that we have. We are also trying to 
examine things as the Customs Service at the points of origin. 
So we are just trying to work smarter.
    Mr. Davis of Florida. By that you mean new forms of 
technology?
    Mr. Baldwin. We had some outside in terms of the VACIS 
machine. I think the lightning may have shut that down. Because 
of lightning, we have x-ray vans that are in place, working 
toward possibly getting those smart boxes with the container 
and the seal. But the whole key to all of this for us is having 
the quality and the quantity of manifest information available 
so that we can do our targeting without impeding the flow of 
legitimate commerce.
    Mr. Davis of Florida. By that you are referring to 
cooperation from incoming vessels, as far as giving them--
giving you their manifests sufficiently in advance so that you 
can review the contents?
    Mr. Baldwin. Correct.
    Mr. Davis of Florida. How is that going?
    Mr. Baldwin. So far we are doing good. We are probably in 
the high 80's or so in terms of automated manifest system. But 
all of our manifests are screened by Customs inspectors and are 
put through our targeting systems.
    Mr. Davis of Florida. Captain Thompson, same question to 
you in terms of workload, level of service, in terms of 
balancing security, and also limited interference in terms of 
the flow or timing of commerce.
    Captain Thompson. In response to the question, it has 
really been a challenge because we have been operating at surge 
capacity since September 11th. This has only been possible 
because of our auxiliary support, our reserve support and 
outstanding support from the various counties and local law 
enforcement agencies, Hillsborough County, Manatee County as 
well.
    Looking out at the budget years, we are looking to receive 
in this greater Tampa Bay area for the three major Coast Guard 
commands eight new billets this fiscal year and 10 next fiscal 
year. But it will still be a challenge because homeland 
security is a significant issue when you look at the 
characteristics of the Ports of Tampa, Manatee and St. 
Petersburg.
    Mr. Davis of Florida. Can you give us a sense of proportion 
as to what you believe to be the extent of your needs in 
relation to the 8 or 10 you just mentioned?
    Captain Thompson. I think when we look at billets and 
assignments, I think we need to look at the characteristics 
from the port assessment. Once we finish the port assessment 
that the Coast Guard has undertaken, where we do the first 55 
strategic and military ports, and of those, and Tampa will be 
in that first 12, I think that we will have a very, a more 
realistic approach as to what will be the force package that we 
need to bring for port security in our region.
    Mr. Davis of Florida. I have a comment and perhaps some of 
you all may want to comment as well. Tomorrow the President is 
going to sign the fast track bill, or trade promotion bill, 
which I strongly supported and I believe we all supported. One 
of the reasons I was such a strong supporter is because it is 
going to break down barriers and open markets into Central and 
South America for imports and to some extent exports. It is 
also going to make the job of each of you more challenging in 
terms of the quantity of workload and the types of issues you 
are going to have to deal with.
    Have you given any thought yet as to how that is going to 
affect your job? These trade agreements are not going to be 
negotiated any time soon, but things are going to start moving. 
What should we at least be thinking about with you as to how we 
adequately prepare to use that as an opportunity and not 
another set of problems?
    Mr. Baldwin. I guess I go back, not to sound like a broken 
record, but I kind of go back to our defense-in-depth strategy 
and the fact that we need automated information to be able to 
target, considering whatever the volume of it may be. Adding 
more resources is always welcome and we are appreciative of the 
resources that we have already received from Congress this year 
and for next year.
    But working smarter at it, using our intelligence, using 
our nonintrusive technology is really the key for us in doing 
some of those exams at the point of origin and working with the 
trade, as we mentioned in the CTPAT. This is getting them to 
strengthen their supply chain. We have had a number of them who 
have signed up and coming on board. If we can strengthen those 
links, we think collectively that will help us.
    Mr. Davis of Florida. You would add to that, as you 
mentioned earlier, to make sure that we use these trade 
agreements to assure that people that are importing into our 
country are following standards and using systems that aren't 
compatible with yours?
    Mr. Baldwin. Correct.
    Mr. Dykstra. FDA would echo that as well. We feel that the 
information that is crucial, getting early information from 
these countries, from the exporters in these countries, again 
that the new bioterrorism legislation will allow us to get a 
lot of that kind of information so that we can both protect the 
public health and also move the freight.
    Mr. Davis of Florida. Mr. Butler.
    Mr. Butler. The Department of Agriculture certainly sees 
this as a keen opportunity. As our Secretary reminds us 
frequently, 96 percent of the world's consumers live outside of 
our borders. That is why it is important that APHIS has 
maintained personnel worldwide to be sure that our sanitary and 
phytosanitary conditions are met as we import products and we 
deal with challenges, diseases such as foot and mouth disease, 
all around the world. So we have our personnel all over the 
world, preclearance opportunities for these countries wanting 
to export to us, and for opportunities for us to export our 
products in other parts of the world.
    Ms. Hecker. I might just add, obviously I am not an agency 
that has direct response the way that these agencies do. But 
the challenge of the relationship between the negotiations in 
the WTO and the kinds of negotiations and agreements that are 
needed in the World Customs Organization and the International 
Maritime Organization are interesting parallels to the 
overlapping jurisdictions we have at our national level, that 
we have international diversity of negotiating bodies. And 
while there is an effort underway of both Customs and the Coast 
Guard to work collaboratively with the Customs Organization and 
the IMO, whether at the end of the day some challenges impede 
that progress in pushing out the border will ultimately be an 
international negotiating challenge.
    So it is another dimension of that international arena and 
how hard it really will be for the ideal to push those borders 
out and have those kinds of agreements, because lots of 
countries are going to feel very differently about that. We 
hear there is already some pushback for Customs placing agents 
over in European countries. They are not so pleased about it. 
So there is challenges there.
    Mr. Davis of Florida. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Putnam. Thank you, Mr. Davis. Chairman Shays.
    Mr. Shays. Thank you. How do you react when you hear that 
another country isn't so pleased with having us inspect at the 
port of exit? Maybe I can ask Customs that.
    Mr. Baldwin. I wasn't aware of that. I know that we are in 
negotiations with a number of countries. As I mentioned, the 
Netherlands, Singapore, Canada have all signed up to date, 
France. I wasn't aware of any----
    Mr. Shays. But if a country was reluctant, what would your 
reaction be?
    Mr. Baldwin. I kind of leave it to the negotiators. I don't 
have a fast answer for you.
    Mr. Shays. Any other reaction from anyone on this panel? 
What should our position be?
    Ms. Hecker. In the long run the position is to try to do 
this multilaterally. Doing this bilaterally is not going to 
work. So to understand the different views of different 
countries, I mean just like in trade agreements, bilateral 
agreements buy you a little. But it is the multilateral 
agreements that really get the free flow of trade.
    Mr. Shays. Is it unreasonable for a country to want to make 
sure, particularly those that are in a container, to want to 
have some sense of what is going in that container before it 
really arrives in our port? Does that strike any of you as 
unreasonable?
    Just note for the record shaking heads. No one has spoken.
    I want to be clear, because I am not. Who is most capable 
here? I don't mean most capable, but who could help me 
understood potentially how many Federal agencies have a legal 
right to board a ship?
    Captain Thompson. Everyone at this table. From the 
standpoint of Coast Guard, Customs, INS, and probably FBI, DEA. 
And so I would probably say minimum 15 to 20. Agriculture.
    Mr. Shays. So why couldn't we make sure that we--if for 
instance, I will just take the two. Let me just take three. INS 
basically is looking for potentially illegal aliens. What else 
would INS be looking for?
    Mr. Bulger. That is essentially it.
    Mr. Shays. Customs is looking for illegal products, 
contraband, so on. What else?
    Mr. Baldwin. Illegal aliens.
    Mr. Shays. But INS wouldn't be looking for potential drugs 
or so on?
    Mr. Bulger. Well, our primary responsibility is the people. 
If in the course of inspecting them we encounter some 
contraband, we certainly refer it then to Customs or 
Agriculture if it is an agricultural product.
    Mr. Shays. Does INS have the ability to make arrests on the 
spot and to seize whatever is there that is illegal?
    Mr. Bulger. Only in those locations where our inspectors 
are cross designated as Customs officers. Those locations are 
primarily on the land border.
    Mr. Shays. Walk me through that. Why wouldn't that be the 
case? That seems pretty stupid, frankly. But, you know what, I 
say that with some conviction and then I find there is logic to 
it.
    Mr. Bulger. Historically, the boardings, and we are talking 
about ship inspections here, the boardings have been done in a 
team environment where there are both INS and Customs officers 
as part of that boarding team.
    Mr. Shays. So in that case you just notify the Customs 
person and they would come by. But in the case where you might 
be on the ship, do you go on the ships uniformly together or do 
you sometimes go separately?
    Mr. Bulger. No, it is a boarding team generally that goes.
    Mr. Shays. Tell me who is part of the team.
    Mr. Bulger. INS, Customs, often Agriculture is part of that 
team, and in some instances the Coast Guard.
    Mr. Shays. What is the Coast Guard's responsibility?
    Captain Thompson. Coast Guard's responsibility falls in 
several areas: Ships, people as well as cargo, looking at a 
navigation standpoint. We go on board to make sure that they 
meet the various international standards for licensing of the 
crew, making sure that they are in accordance with the various 
international standards. We look at the integrity of the ship 
from the standpoint of its operating systems, firefighting 
systems, life saving systems. We move forward, including the 
integrity of the vessel.
    Finally, we also look at cargo from the standpoint of 
storage patterns of cargo, illegal drugs, illegal aliens. So we 
look at a very broad range of activities on board the vessel.
    Mr. Shays. Are INS, Customs, Agriculture, Coast Guard 
cross-trained so that they can do the work of the others?
    Mr. Baldwin. Not to my knowledge totally as a whole force. 
But there are areas where we work vice versa with Agriculture 
and with Immigration.
    Mr. Shays. When you board a ship, how often do you--is 
there a key number of folks per each government agency?
    Mr. Baldwin. No.
    Mr. Shays. How do you decide what ships to board?
    Mr. Baldwin. For Customs purposes it is based on targeting, 
where the ship is coming from, where it has loaded cargo----
    Mr. Shays. So some ships you may not board?
    Mr. Baldwin. Right.
    Mr. Shays. If they figured out your profile, isn't it 
possible that they would be able to use your profile against 
you?
    Mr. Baldwin. Well, we also do compliance boardings where we 
randomly board vessels.
    Mr. Shays. So you have a profile, which makes sense. If you 
can't board every one you need that profile. Is that profile 
generally known?
    Mr. Baldwin. No, because it is--it can change based on 
targets. Some of the vessels that we board are for narcotics, 
not the same vessels we board for terrorism risk.
    Mr. Shays. Does DEA board? Are they part of the team?
    Mr. Baldwin. Negative.
    Mr. Shays. Who is responsible for looking for narcotics?
    Mr. Baldwin. Customs is.
    Mr. Shays. I tend to think that I might be guilty of making 
an assumption that there is a lot of turf when it comes to the 
different agencies. In other words, we have this 
responsibility, you don't threaten this. To what extent is 
there turf and when is the worst example of it?
    Captain Thompson. I will jump in on that one.
    Mr. Shays. Let me just say, candidness is required. I mean, 
because this is--what is at stake here is something so serious 
that we can't--we can be polite with each other, but we need to 
have an honest dialog or you waste our time down here, frankly.
    Captain Thompson. When you look at turf, I think because of 
limited resources, you are not allowed to really look at turf 
very long. I mean, if I can save a boarding by sharing or using 
some information that Customs or someone else can provide me, 
then I can take that resource and place it somewhere else. I 
mean, one of the things that has taken place in this particular 
area that we have looked at are the various boarding documents, 
the various information that we collect as agencies, and what 
is the common thread of that information that can be shared 
among those agencies that will minimize the amount of time, 1 
hour, an hour and a half, to have a Coast Guard inspector on 
board. Trying to reduce redundancies throughout the agencies is 
really a reasonable approach, and I think, at least in the 
greater Tampa Bay area, that approach has paid some dividends.
    Mr. Shays. Anybody else?
    Mr. Bulger. Yes, Congressman. I spent the first 20 years of 
my career on the Northern border. And I will admit that on 
occasions, particularly in the dead of winter, you know, there 
were some turf battles that went on because there wasn't much 
to do in some circumstances.
    When I came to Florida 6 years ago, I realized that there 
the turf was growing so fast, and there was so much of it, that 
we, all of law enforcement all together had a hard time keeping 
it mowed.
    Mr. Shays. Anybody else?
    Mr. Jarboe. In 23 years of doing this business, it is 
quite, from my perspective, it is not so much an agency turf 
issue, it is a personality issue. I have dealt with agencies 
where the personalities were such that would not allow for a 
close, cohesive working relationship. I have dealt with those 
same agencies with different personalities, and it has been a 
very good, beneficial working relationship.
    So I don't think it is the agencies per se that is the 
problem. I think it is some of the personalities within the 
agencies that cause the problem.
    Mr. Shays. But right now no one has the ability to be first 
among equals and say let's flock it off, we will do the 
following, correct?
    Mr. Jarboe. Each agency head is responsible.
    Mr. Shays. They are autonomous. So technically if they 
don't want to cooperate, that is it, there is no cooperation.
    Mr. Jarboe. If they absolutely refuse to cooperate, that is 
a major problem.
    Mr. Shays. Your testimony is that is infrequent, but when 
it happens it is more based on personality rather than the 
culture of the organization?
    Mr. Jarboe. That is correct. Yes, sir.
    Mr. Shays. Go ahead.
    Mr. Bulger. I would say that it would be the U.S. Attorney 
who would assume that role in the event that there were some 
disputes between agencies about whose turf was who, that 
ultimately these things are directed toward criminal 
prosecution, and that is----
    Mr. Shays. Well, I think that is true in a case where you 
have something to prosecute. But if you don't have someone 
looking or finding something to prosecute, then I don't see how 
the Attorney would come into play. Do you want to argue that 
point or not?
    Mr. Bulger. Well, I don't know if I want to argue it. But 
what I would say is that the role that the U.S. Attorney plays 
in coordinating among the agencies, the special agents in 
charge, and ensuring that we don't have overlapping 
investigations, that we cooperate, and in many instances 
operate in a task force environment, I think fosters, you know, 
that sense of cooperation. And I think the U.S. Attorney, in my 
experience here, has played a key role in establishing that 
atmosphere.
    Mr. Shays. May I proceed a little bit longer, Mr. Chairman?
    Mr. Putnam. You may.
    Mr. Shays. If in my office three people are in charge, my 
theory is no one is in charge. So ultimately I have one person 
in charge. And I say if there is a screw-up, it is your fault 
ultimately. So--and my logic wants to apply that to five 
different people from five different agencies boarding. I want 
to know ultimately who is in charge of that boarding party. Who 
would be?
    Mr. Baldwin. Right now, I guess, Mr. Chairman, it would be 
determined by the issue. If it was illegal aliens, we would, as 
he mentioned before, and vice versa, if Customs went on board 
and found illegal aliens, we would notify INS.
    If we went on board that vessel and we noticed that there 
was some safety issues during our boarding process, we would 
contact the Coast Guard. If we noticed that there was some 
plants or quarantine type issues that might be on this vessel, 
we would notify the Agriculture Department.
    So depending on which issue, and I may not have answered 
your question.
    Mr. Shays. You did. Do all of you have arrest powers? 
Anybody here not have arrest powers, your people? All your 
people have arrest powers? Correct? Of those accompanying our 
witnesses up front, who would like to take the podium and just 
make a comment to any of the questions I have asked? Anybody?
    Let me just conclude. GAO, how do you react to what you 
have just heard?
    Ms. Hecker. It has been our experience in just this review 
that there is ambiguity existing right now about who is in 
charge of port security. We have most people, including the 
Coast Guard, saying they are defining the standards, they may 
write regulations, they are conducting the port security 
assessments, they are the leader there.
    But you have got TSA which was established, the 
Transportation Security Administration was established, and 
they were given a very broad role to manage all transportation 
security. Their comments when we shared our draft statement was 
we are the ones who are writing the regulations, they are not 
Coast Guard regulations.
    The issue of the standards, the move toward national 
standards on the security of containers, there is a joint task 
force, it is cochaired, not your model, by Transportation and 
Customs. How well they are working together, you know, one is 
working with the IMO, the other is working with the World 
Customs Organization. It is ambiguous.
    And I am not sure, I think in my remarks, I think you 
weren't here, that it is resolved by the creation of the 
Department of Homeland Security that we have someone who is 
ultimately in charge. I think issues remain even with that 
reorganization.
    Mr. Shays. Thank you, Mr. Chairman. Thank you for your 
leeway.
    Mr. Putnam. If we do have time after the questions for 
this, we would like to take public comment or questions 
depending on the level of interest. So we want to let people 
who are still with us know that, so that you can be thinking 
about whatever questions you may want to present.
    Mr. Shays. Could I ask in that regard, how many people 
would seek to make a question or make a point, or ask a 
question in the audience? Could they raise their hand? How many 
would like that? We have one, two. So there may be one or two 
more. So that we would--that works.
    Mr. Putnam. Was there anyone accompanying the witnesses--
there was a little bit of fidgeting. Does anybody want to add 
anything to the chairman's questions?
    Mr. Shays. I certainly would not be--you wouldn't be 
disagreeing with your superior. But may I also say it is a 
pleasure to have young people in this hearing, and I just--I 
welcome our two young friends to my left who is close to this 
dais here and appreciate both of you being here. Thank you, Mr. 
Chairman.
    Mr. Putnam. Thank you, Mr. Shays.
    Let me begin with APHIS. According to a USDA Inspector 
General report from 2000 regarding vulnerabilities and 
weaknesses which increased the risk of prohibited ag products 
in the United States, the report found that inspectors did not 
inspect cargo ships timely upon arrival and inspected the 
baggage of only 25 percent of internal passengers arriving by 
air, and only 1 percent of passengers arriving on cruise ships. 
Inspectors also did not assess fines as a deterrent against 
airline and cruise ship passengers found to have prohibited 
items found in their possession, select samples of perishable 
cargo for inspection, but instead allow the brokers to select 
the samples.
    Now, keeping in mind that in Florida, according to a 
University of Florida study, over the last 20 years there has 
been one inspection per month that has been established in this 
State, we have spent since 1995 half a billion dollars fighting 
citrus canker, are we any better at detecting plant pest and 
diseases than we were?
    Mr. Butler. I hope so, Mr. Chairman. We are making an 
improvement. Obviously the Congress is providing us additional 
resources for that. We are looking at all types of technology, 
including some of our most dependent technology; that is, 
detector dogs. We know that we have an opportunity for 
improvement.
    Mr. Putnam. Are we catching more than 1 percent of the 
passengers coming off those beautiful cruise ships out here?
    Mr. Butler. I do believe we are.
    Mr. Putnam. Do you know what percentage we are getting?
    Mr. Butler. I do not.
    Mr. Putnam. How many dog teams are here now?
    Mr. Butler. One.
    Mr. Putnam. How many at the airport?
    Mr. Butler. One for Tampa.
    Mr. Putnam. One in the whole city of Tampa?
    Mr. Butler. Yes, sir.
    Mr. Putnam. Does he work some days here and some days 
there?
    Mr. Butler. Yes, sir.
    Mr. Putnam. So how many in the State, which has one of the 
highest volumes of international travel?
    Mr. Butler. I would refer to the folks here locally to 
answer that question.
    Mr. Putnam. Anyone know how many beagle brigades that we 
have in the State?
    Mr. Davis. My name is Carl Davis. I am the Director of 
Operations here at USDA.
    Mr. Putnam. Did we swear you in earlier?
    Mr. Davis. No, I am sorry. I thought maybe--no, you did 
not.
    Mr. Putnam. Why don't we get you when we do public comment? 
We will come back to APHIS. Customs.
    I want to followup on what Chairman Shays said. You have 
select criteria for determining which ships to board with the 
interagency team?
    Mr. Baldwin. Correct.
    Mr. Putnam. How frequently does this interagency team board 
ships?
    Mr. Baldwin. This is for Customs boarding of ships. I mean, 
whether or not Agriculture or Immigration chooses to select a 
ship, we may not choose the same ships.
    Mr. Putnam. Now, you told Chairman Shays that on occasion 
you all have an interagency team made up of INS, Customs, and 
Agriculture and sometimes Coast Guard that boards vessels. How 
frequently do you do that?
    Mr. Baldwin. I do not have an answer for you.
    Mr. Putnam. Does someone with you have the answer to that?
    Ms. Crawford. Denise Crawford, the Area Port Director for 
Tampa. More times than not. Certainly we can provide specific 
detailed information for you how often we do this together. But 
typically we do have, when we say it is a boarding team, it is 
not the same four people show up. The assignment of 
Immigration's responsibilities, of Custom's responsibilities, 
the ships that we are going to board for our purposes we will 
be there. Agriculture, Immigration would go through their same 
process. And generally, we are all there together when we do 
have a ship boarding that is of interest.
    Mr. Putnam. How often is there a ship boarding of interest?
    Ms. Crawford. I would say several times a week certainly, 
sometimes more. Again, I can provide you information on our 
ship arrivals, the boarding officers from the various agencies 
at a later date.
    Mr. Putnam. Do you know when the last time an interagency 
team, Coast Guard, INS, Customs boarded a ship to inspect it?
    Ms. Crawford. I can't tell you right now. This morning we 
had the Jubilee in. That was a cruise ship. Immigration is 
there, Customs. So we have a normal pattern to a lot of the----
    Mr. Putnam. Not that often, though, if we don't know when, 
though, right?
    Ms. Crawford. You asked for the last time. I certainly can 
tell you several times a week. I can provide you specific 
information if that is what you would like.
    Mr. Shays. Inspecting the cruise ship is not a team all of 
the time, correct?
    Ms. Crawford. No.
    Mr. Shays. Is that being responsive to his question?
    Ms. Crawford. I was trying to give an example of the last 
ships that I know that was in today, it was a passenger ship.
    Mr. Shays. But the question he asked is when did the whole 
team come together and board a ship? If you don't know, does 
anyone here know?
    Captain Thompson. One that came to mind, I have been in the 
Port of Tampa since the 12th of July. We have other vessels 
that arrive. Depending on the issues that come forward, then 
either the Coast Guard, Customs, INS or an Agriculture team 
will go out. That is coordinated between our various units and 
operations officers. So at least I would say from the Coast 
Guard perspective, we probably do that a couple, maybe three or 
four times a month, where we will board with another agency on 
a particular problem.
    Mr. Shays. This is testimony that you are giving under oath 
here, and we have indication that may not happen often, and 
that it is not all that coordinated. So I would like to know if 
that information is accurate or not. So I was kind of, you 
know, feeling pretty calm until I heard the answer to the 
question.
    Captain Thompson. I will provide more detailed information 
on that. But I will say generally during my tenure as Captain 
of the Port that during the month or during a quarter, there 
will be several boardings with either a member of Customs or 
INS regarding a particular vessel that may be arriving in the 
port.
    Mr. Shays. Three or four times a month. How many ships come 
in here?
    Captain Thompson. 4,500 visits a year, 350 vessels per 
month, thereabouts.
    Mr. Shays. So basically 1 percent.
    Captain Thompson. Roughly.
    Mr. Putnam. Reclaiming my time, is it several--is it 3 or 4 
times a month or is it several times a week?
    Captain Thompson. A lot depends--I don't have that specific 
information with me. Depending on the issue from the standpoint 
of whether it is a navigation problem or drug problem, etc. But 
I do know that there are times when we are coordinating between 
the units where a team from one, maybe not all four or five 
will go out, but one or two of the agencies will be together to 
go out for a particular team.
    I think it has happened more than we realize from the 
standpoint of that assignment.
    Mr. Putnam. Let's take it one agency at a time. How 
frequently does INS board a ship?
    Mr. Bulger. Every foreign arrival and every coastwise 
vessel that has aliens detained onboard.
    Mr. Putnam. Say that again.
    Mr. Bulger. Every arrival from foreign----
    Mr. Putnam. Any foreign flag ship, which is 50 percent.
    Mr. Bulger. Every vessel coming from overseas is inspected 
in person by INS officers. In addition to that, we board every 
vessel that is sailing coastwise that happens to have aliens 
detained on board.
    Mr. Putnam. OK. When you inspect every vessel that is 
sailing from a foreign port, that can be an American or a 
foreign flag vessel if they left a foreign port.
    Mr. Bulger. If they left a foreign port and arrived in 
Tampa.
    Mr. Putnam. How frequently does Customs board a ship to 
inspect it?
    Mr. Baldwin. I do not have an answer, but I can provide an 
answer.
    Mr. Putnam. What percentage of the cargo is inspected at 
the Port of Tampa by the Customs Service?
    Mr. Baldwin. I do not have an answer. But I can get an 
answer and provide it to the committee. I did not come with 
those statistics.
    Mr. Putnam. Do you have--well, do you have a ballpark?
    Ms. Crawford. About 20 percent of the containers are 
examined here.
    Mr. Shays. I am just wondering, should I be concerned that 
you don't know the answer to that question? In other words, you 
have got so many ships coming in in a month, I would like to 
think that it would be something that you would have a pretty 
good idea because you know how you use your resources. How 
would you know what your needs are if you couldn't tell us? I 
mean, maybe it is an unfair question, but it doesn't strike me 
as an unfair question.
    Tell me if it--why it would be an unfair question not to 
know that, because my mind would say it would be kind of like I 
know how often, how many hearings I have a week or a month. You 
know, I can give you an estimate.
    Mr. Baldwin. Mr. Chairman, it is not that I don't know the 
answer. I don't have the answer available to me. I did not 
bring it with me. I do not have it committed to memory. But I 
can get the information.
    Mr. Johnson. I am Ron Johnson, local Port Director for INS. 
During fiscal year 2001, INS boarded 1,030 vessels. That is how 
many our inspectors boarded. So far this year, which is not 
counting July statistics, just through June, we boarded 841 
vessels. That is projected over the enter fiscal year to be 
about 1,121, which would be up 8 percent over last year.
    Mr. Putnam. How long does it take to inspect a vessel?
    Mr. Johnson. It varies anywhere from half an hour to 2 
hours. I would say the norm would probably be about 45 minutes.
    Mr. Putnam. But you are only doing three a day?
    Mr. Johnson. We are doing three a day that are arriving 
from foreign. OK? In the past 10 months we have also boarded 
numerous vessels coming from coastwise locations where there 
have been crew detained on board.
    Mr. Putnam. Let me get back to Customs. You put an awful 
lot of faith in your manifests. According to the report of the 
Interagency Commission on Crime and Security in the U.S. 
seaports, which did an audit of the manifest compliance, 53 
percent of the manifests reviewed either reported an undercount 
or an overcount of containers on board that ship.
    That is a fairly disturbing discrepancy, considering it 
only takes one weapon of mass destruction in one container in 
one ship, and over half of the ship's manifests were inaccurate 
of those audited. What are we doing to improve our manifest 
technology?
    And, second, what backup does Customs have, if you base all 
of your criteria or a substantial portion of your criteria on 
which ships to board, if that is based on manifests that is not 
accurate, what other criteria do you have that would be a 
little bit more solid footing?
    Mr. Baldwin. Well, it is also based on where the vessel is 
coming from, what cargos are on board. We also do compliance 
exams. We do what we call landed quantity verifications, call 
them LQVs, in which we send teams of people to the vessel, and 
we will do everything on the vessel with our nonintrusive 
technologies, the gamma rays, inspectors with the pagers, based 
on our targeting of these vessels.
    So it is not just relying on the manifest, but also going 
out and relying on the inspector's expertise looking at boxes, 
because if it has been painted, the doors have been tampered 
with, that will not show up on the manifest.
    So we are also out on the piers examining these containers 
as they come off of the vessels.
    Mr. Putnam. For every ship?
    Mr. Baldwin. Not for every ship.
    Mr. Putnam. For what percentage of the ships?
    Mr. Baldwin. I do not have the number. I can provide it to 
the committee.
    Mr. Putnam. Is your point of origin for the ship, is that 
information, does that information derive from the manifest?
    Mr. Baldwin. Yes, it does.
    Mr. Putnam. So if 53 percent of the manifests are 
inaccurate on what is in the ship, why wouldn't you make--why 
couldn't someone reasonably assume that someone attempting to 
conceal the point of origin would not also lie about its point 
of origin?
    Mr. Baldwin. It is not just the shipping documents. We also 
get the information from the shipping agents. These are the 
representatives here who represent the shipping company. They 
provide us with this information. And, again, as a multilayer 
approach, we are also doing examinations in compliance with 
those, and have people out there doing landing quantity 
verifications to ensure what is coming off is coming off.
    We don't do every vessel. There is no--I don't know if we 
have enough resources to do every vessel and still continue to 
maintain a flow of legitimate trade.
    Mr. Putnam. Most studies show it is about 1 to 2 percent is 
what is physically inspected. Is that still the case?
    Mr. Baldwin. I do not have that number. We have increased 
the number of exams based on terrorist threats, but I do not 
know the percentage. Because it is really based on risk. We are 
really trying to focus based on targeting and risk.
    Mr. Putnam. Are you familiar with the situation that 
occurred in Miami earlier this year where a Venezuelan naval 
vessel was being used for commercial purposes and was able to 
come into the channel, be docked at the Port of Miami, and it 
was a foreign nation's naval vessel with deck mounted weapons?
    Mr. Baldwin. No, I am not.
    Mr. Putnam. That was reported in the media and by National 
Guard when they were doing port security.
    There has been a--Mr. Bulger, one of the members of the 
Port Security Committee indicated that earlier this year there 
was a--in reviewing the assets for this port, it was revealed 
that INS had more boats than people to man them, and the Coast 
Guard found themselves in a situation with more people than 
boats, but there was an INS regulation that prevented Coast 
Guard personnel from operating INS equipment. Is that--are you 
familiar with that? Is that something that Congress needs to 
change or is it administrative? Are you familiar with that 
situation at all?
    Mr. Bulger. No, we don't have any boats.
    Mr. Johnson. I think you are confusing INS with Customs. 
INS does not have any boats.
    Mr. Bulger. INS doesn't have any boats here in Tampa.
    Mr. Putnam. Does Customs? Could I have mistaken it for 
Customs?
    Mr. Baldwin. Customs does have boats. But I am not aware of 
any incident.
    Mr. Putnam. Do you have a regulation that would prevent, if 
you had a shortage of personnel but equipment, do you have a 
regulation that would prevent interagency coordination where 
the Coast Guard could use your equipment?
    Mr. Baldwin. I do not know. I am not aware.
    Mr. Putnam. OK.
    Ms. Hecker. We have done some review of the various forms 
of the Department of Homeland Security legislation. In one of 
the versions in an attempt to preserve the nonsecurity 
functions of the Coast Guard, it has specific language that 
they will not be allowed to share anything with anyone. So the 
whole point of putting these agencies together is potentially 
undermined by language that says they can't share assets or 
equipment or people.
    Mr. Putnam. The Coast Guard is who you are referring to?
    Ms. Hecker. That is correct.
    Mr. Shays. But that didn't make it to the floor of the 
House.
    Ms. Hecker. That is in the Senate version.
    Mr. Shays. Well, that is the Senate.
    Mr. Putnam. Special Agent in Charge Jarboe, threats to 
shipping, threats to ports have been around for sometime. In 
1985, Palestinian terrorists hijacked the Achille Lauro after 
smuggling weapons aboard. In 2000 the USS Cole was attacked in 
port. Acting on information obtained from al Qaeda suspects, 
the FBI began a nationwide canvas of U.S. scuba diving shops. 
The search was based on intelligence reports that al Qaeda 
operatives were taking scuba training in order to launch 
bombing against ships, power plants, bridges and other 
shoreline targets.
    Despite that, according to the Interagency Commission on 
Crime and Security in U.S. seaports, the Federal Bureau of 
Investigation's investigation, ``considers the present threat 
of terrorism directed at any U.S. seaport to be low, even 
though their vulnerability to attack is high.''
    Is that still the position of the FBI?
    Mr. Jarboe. I would have to check with our headquarters 
folks who put out those threat assessments on what is high and 
medium and low. We have looked at how we assess, the verbiage 
that we use, low, medium and high, so it is not misconstrued. 
There is a specific unit back at headquarters that puts those 
out. Since leaving there several months ago, I am not privy to 
what their current status is. So I can't answer that. But we 
can get that answer for you.
    Mr. Putnam. Please do. And Mr. Dykstra, you mentioned that 
Tampa is not really, in terms of FDA jurisdiction over foods, 
Tampa is not a major port for those types of imports, but for 
medical devices it is, particularly radiological devices?
    In light of the new threat from radiological weapons, dirty 
bombs, certainly there are a number of medical devices, 
machinery, radiological devices that contain radiological 
components that could be used for making a dirty bomb. Are 
those devices tracked and monitored as first world medical 
practices upgrade and their old equipment, old MRI machines and 
old x-ray machines are sent somewhere else? Is that tracked by 
some agency of government, is it the FDA?
    Mr. Dykstra. Generally it is not the FDA. It is the atomic 
energy people, NRC, that tracks a lot of that stuff. We simply 
monitor the import of these kinds of devices. They have to 
comply with our laws as well as the NRC requirements if they 
have radioactive materials in them.
    Mr. Putnam. Presumably you are the agent for the NRC at the 
ports, or do they use someone else?
    Mr. Dykstra. We are not their agent at the ports, and how 
they track that material, particularly if it is surplused in 
some way, I have no idea how they do it.
    Mr. Putnam. Thank you. Any followup questions?
    Mr. Shays. Thank you. What I am--in listening to the 
questions that the chairman asked you, I have a little 
uneasiness, and the uneasiness is that the system doesn't quite 
work the way it is being described to us, though you want it to 
work that way. Because I don't see logically how this works if 
there is not a criteria.
    So I would like to know from each of you, one, if there is 
a criteria for deciding what ships, and if I asked you what it 
was, if you would be able to tell me. And so if we can just go 
down the list. Is there a criteria? If I asked you what it is 
to decide what ships, would you be able to tell me what the 
criteria is?
    Mr. Bulger. Yes, Congressman. Every ship arriving from a 
foreign port of entry is inspected, is boarded by INS officers.
    Mr. Shays. So every ship is boarded by INS?
    Mr. Bulger. Yes. That is correct. In addition to that, 
every ship that is coming coastwise where there has been an 
alien crewman detained on board or alien stowaway detained on 
board, we board that vessel as well.
    Mr. Shays. Mr. Baldwin.
    Mr. Baldwin. Yes, sir. It is based on risk, the likelihood 
that vessel could be carrying contraband, terrorism or weapons 
of mass destruction.
    Mr. Shays. How would you define risk? That is the criteria. 
Is there a criteria that describes risk?
    Mr. Baldwin. There is no specific criteria. There is just a 
number of different factors that we use to determine it.
    Mr. Shays. And are those in writing? If I asked you later 
on to supply that, would that be in writing?
    Mr. Baldwin. Some is and some are not, because of the law 
enforcement sensitivity of the issue.
    Mr. Shays. OK. Captain.
    Captain Thompson. Yes, sir. First and foremost, there are 
port safety controls which is targeted by country. There is 
compliance inspection boardings as well as safety boardings and 
port security boardings. And one of the main criterias of a 
vessel, particular of a first port of call, depending on what 
the cargo on the vessel is carrying, as well as the various 
international and documents, is there compliance with the 
timeframe of those certificates of issuance. So there are about 
four or five criterias that we go through and we make a 
determination to board.
    Also, depending on which particular port the vessel arrives 
at. Through our marine information system, did the vessel 
arrive at Charleston or some other port and that boarding has 
been conducted, we will see that information and then we still 
have to make a determination whether to board or not, sir.
    Mr. Shays. Mr. Jarboe, do you board ships? Not as a general 
rule?
    Mr. Jarboe. We do, but not as a general rule. If we had 
specific investigative or intelligence information that there 
was something on a ship, then we would board. And usually, 
well, almost----
    Mr. Shays. You are not looking. It is when you have a lead 
or a suspicion?
    Mr. Jarboe. No. When we board ships there is specific 
information that we are looking for. It is in conjunction with 
either Coast Guard, Customs, or INS, one of the other agencies 
here.
    Mr. Butler. We do. What I would really like to do is have 
our local representative answer the detailed question on that. 
I personally do not know.
    Mr. Shays. Fair enough. Would you answer that question, 
ma'am? Thank you.
    Ms. Neal.. Mary Neal, Department of Agriculture. It is our 
policy to board foreign arrival vessels upon arrival.
    Back to the question on teams, each agency does receive 
individual time of arrival information, and it does happen that 
we arrive at the vessel at the same time and generally there is 
a general boarding party.
    But the concept of team is not one that is exercised.
    Mr. Shays. What does that mean?
    Ms. Neal. I mean that there is--in other words, that one 
group doesn't always go on board a ship together. That is what 
I mean by team.
    Mr. Shays. Thank you.
    Mr. Putnam. Ms. Neal, you are the head of the Tampa port?
    Ms. Neal. No. I am the Assistant Deputy Administrator for 
Agricultural Quarantine Inspection at the national level.
    Mr. Putnam. Based out of Washington?
    Ms. Neal. Yes.
    Mr. Putnam. OK. I will save my question for the local 
person.
    Mr. Shays. Mr. Dykstra.
    Mr. Dykstra. Generally, FDA does not board ships. However, 
if a ship, such as a large fishing trawler is doing some sort 
of manufacturing on that ship, canning of tuna or salmon, we 
generally go aboard those ships using the Coast Guard 
authorities.
    We do a lot of this up in the Alaskan waters.
    Mr. Shays. OK. Now, tell me then, you all have your 
criteria. You have all said that you follow the criteria. You 
all have said basically you board every ship, which is 
confusing to me. Maybe I misunderstood.
    Captain Thompson. No, sir. I do not board every ship.
    Mr. Shays. The Coast Guard does not?
    Mr. Baldwin. No.
    Mr. Shays. Just every ship----
    Mr. Bulger. Every ship arriving from foreign.
    Mr. Shays. OK. Mr. Bulger, are you confident that every 
ship that arrives from overseas is inspected by INS?
    Mr. Bulger. Yes, I am.
    Mr. Shays. OK. Now, just help me sort out. What is unique 
then about--tell me what the criteria is, and it should be the 
same for all of you. If I asked you to write it down on a piece 
of paper, I should be able to have everyone say the same 
answer. What is the criteria when it is a team effort?
    Mr. Baldwin. Mr. Chairman, are you asking what would be the 
criteria?
    Mr. Shays. What is the basis for deciding which vessels to 
board with the team?
    Captain Thompson. Mr. Chairman, from the Coast Guard 
perspective, I need a clearer definition of a team because, in 
essence, when I look at a boarding; i.e., a team boarding, if I 
have a compliance issue that requires Customs or someone else 
to come out, that my inspector and one of Customs' inspectors 
are going out as a team, depending on that particular issue was 
compliance, safety, port security, port safety control.
    So that would be the guidelines. I am not sure that we do 
get together--we do not get together as a team of agencies and 
say we will set this criteria to go out and board these 
particular vessels from a port security standpoint. I think we 
use your guidelines and our regulations based on the various 
requirements and then if by chance it crosses two 
jurisdictions, then that----
    Mr. Shays. Let me just tell you what I am hearing you say. 
What I thought--that there were certain ships that all--that 
collectively all of you made sure you all boarded and you 
boarded as a team. And, what I asked Ms. Crawford--when Ms. 
Crawford made a comment to boarding a cruise ship, she 
described one or two do it together, therefore it is a team.
    When I was just asking to understand that, she wasn't 
claiming that was then, as I heard her, this so-called team 
effort. So I am beginning to wonder if there is this team of 
more than three or four or five, and I am beginning to think 
that there isn't, and that is--you know, maybe I am just 
talking about something that is totally insignificant, maybe I 
am, you know, going nowhere, headed in no direction and don't 
realize it.
    But in my own mind it struck me that sometimes you would 
want to collectively work as a team to have it be intense and 
in the process of doing that you all would be cross-trained so 
that you can share different parts of the ship and be sensitive 
as to what to look for, and then you would have a pretty 
comprehensive look at the ship, and those would be a few, but 
ones that would be triggered by something. But now I realize 
that there is no team in that sense. So I just invented 
something that doesn't exist.
    Captain Thompson. I am not sure you invented something that 
doesn't exist, Mr. Chairman. I think when it comes to a 
particular issue on a particular vessel, if we receive some 
information that would require the various agencies to go out, 
we would go out as a team. But I think we still fall on our own 
jurisdiction. There is not a coordinating effort, you might 
say, where we will look at so many vessels per month and all of 
the various agencies will descend on that particular vessel, 
sir.
    Mr. Putnam. Will the gentleman yield?
    Let me see if I can understand what you are saying. If more 
than one agency boards the same vessel for each of their own 
individual reasons, it would only be by coincidence, not 
because the local agency heads got together and decided that 
they needed to coordinate an inspection effort; is that 
accurate?
    There is a lot of nodding heads in the back, but nothing up 
front.
    Captain Thompson. Unless there was some driving issue or 
circumstances that says we need to have, i.e., Coast Guard, 
Customs to focus on this particular vessel.
    Mr. Baldwin. Or through some of the committees that we have 
there was a special operation that was put in place.
    Mr. Putnam. Absent a special unique circumstance that no 
one can remember the last time that occurred, the only time 
that more than one agency would board the same vessel would be 
by pure coincidence; is that accurate?
    Mr. Baldwin. Yes.
    Mr. Putnam. Thank you.
    Ms. Crawford.
    Ms. Crawford. Well, I just want to make sure that I did not 
leave any confusing statements from what I had said earlier.
    Mr. Shays. Let me just say, we are not in a rush just 
because you are standing up, take your time. And I am going to 
say something else. I know we are all, you know, coming from 
the same basis. You all are professionals. You all work hard to 
do a good job. So these questions aren't intended to suggest 
something other than our trying to understand how a system 
works. Some of it can be that we haven't given the right 
training, some of it can be that we haven't given the right 
resources. There are a whole host of things. We are not lobbing 
rocks across this table to that table. Just want that 
understood. Thank you.
    Ms. Crawford. Well, while I can't, unfortunately, provide 
you with how many ships and the number of times that Customs 
has boarded those ships, I can tell you that the cooperation we 
have here on the local level is a great one. As Captain 
Thompson said and others, if we were to have specific targeted 
information, and we wanted to make sure that we have every 
agency covered or we needed force multipliers, we certainly 
pick up the phone, we coordinate and say, hey, this is one that 
we need to address.
    On a normal occurrence, Customs has its requirements that 
it would meet, Immigration its own, Agriculture, and any other 
Federal agency that has an interest in a particular ship. Yes, 
in fact, and I think I said earlier and I will clarify now, we 
may not ever have a boarding team that consists of the same 
individuals at the same time who have met, got in cars together 
and shown up.
    But boardings occur on a cooperative basis based on the 
needs of the agencies. And it is--yes, maybe ``by 
happenstance'' was the best word that I heard from Congressman 
Putnam.
    Mr. Putnam. How is that, therefore--if it is by 
happenstance, how is that therefore cooperative?
    Ms. Crawford. We know when we have an issue. We are looking 
out for Customs issues. If when we are looking at that we see 
something that maybe Agriculture is interested in, we want to 
make sure that they are aware of some item that they want to 
clarify, Immigration the same thing, we would reach out and 
make sure the others were aware of that. They do the same for 
us.
    But on a normal day, taking care of your own organization's 
responsibilities, we do board the vessels we board, as Mr. 
Baldwin says, for Customs. While every foreign vessel is 
subject to boardings, inspections, etc., we choose based on a 
variety of factors which ones meet a high risk or happen to be 
a random type of boarding to do those cross-checks.
    Mr. Putnam. You are the Port of Tampa for Customs. How 
often do you meet with your equivalent at INS, USDA, Coast 
Guard, and FDA?
    Ms. Crawford. We have monthly FIS meetings. They have been 
in existence--I have been here 2 years. They started shortly 
after that. We meet, Agriculture, Immigration, Customs, Border 
Patrol on occasion, when we have a special interest, and we had 
a meeting with Coast Guard when they were assisting Immigration 
in enacting their new policy to help--when we were going to 
have detained crew on board and they were working with INS a 
little closer, we called Coast Guard into those meetings. But 
we have monthly FIS meetings.
    Mr. Putnam. What does that mean, FIS?
    Ms. Crawford. Federal Inspection Service.
    Mr. Putnam. Mr. Davis.
    Mr. Davis of Florida. I just want to make a point. I 
haven't heard anything that causes me any problems here. I 
know, I want to say to Chris and to you, I know from talking to 
a lot of these folks, people who work with them, there is a 
very good working relationship here.
    I just wanted to say I think this has been a very 
productive hearing. What I am hearing reminds me of the analogy 
of police, fire and rescue showing up at the scene of an 
accident. These are professionals. They are sometimes working 
side by side and sometimes they are not. They are just doing 
it, and it is not terribly formal. But it doesn't need to be, 
and that is consistent with my understanding of how these 
agencies work together.
    It is only as good as the tone that is set by the leaders 
here. And so that is what I am hearing, Mr. Chairman. I am not 
hearing a problem. I am hearing a system that may not work in 
every community but I think has served this community well. And 
another example of that you heard earlier was that Tampa Bay 
Harbor Safety Committee, which I really think, Mr. Chairman, is 
a model, that got together with the plan that was adopted. So 
that is just my 2 cents.
    Mr. Putnam. Thank you, Mr Davis.
    Mr. Shays. I know that we have some folks from the 
audience, I think four of them want to testify. I think what I 
am hearing is that we don't have a model to deal with 
terrorism, that we have a model that we have worked to deal 
with maybe drug inspection, and that we have a model that says 
two can communicate, and we have a model that says we 
periodically get together, a monthly get-together. And all of 
those things are encouraging. But it strikes me that we don't 
have a model for a comprehensive look at a ship at the same 
time with every one involved, focused primarily on the concern 
of terrorism.
    That is kind of what I am hearing, and while I wouldn't 
debate whether it is--I would suggest that it is a 
vulnerability.
    Mr. Putnam. Thank you, Mr. Shays. Any member of the public 
wishing to speak, please line up at this microphone here. I 
want to thank our third panel. I would ask you to stay, because 
there is a pretty good chance that you may be needed to answer 
any questions or deal with any issues raised. So any member of 
the public who wishes to speak, please line up at the podium 
and we will give each person 2 minutes.
    Please open by introducing yourself, and if you are 
representing an organization or an association or business, 
please state that for the record as well.
    Mr. Rubin. Thank you, Mr. Chairman. My name is Mike Rubin. 
I am the Vice President of the Florida Ports Council. I just 
wanted to followup on two questions that you both asked Steve 
Lauer, one of them being the credentialing issue and the other 
on funding.
    With respect to the credentialing issue, we have reached a 
standardizaqtion in the State. Our next step issue is really on 
a technology level. As you may know, TSA right now is currently 
trying to develop some can kind of nationwide credentialing 
from a transportation standpoint, and they are looking at the 
type of cards to use, a smart card, whether it be prox readers, 
whether it be mag stripe, that kind of thing. That is really 
our next step from a statewide level.
    The gentleman showed you a plastic card, which as you may 
know is not very good because you can't use it for access 
control type gates, you can't use it for information storage, 
you can't use it for a whole host of things.
    From a State of Florida standpoint, our State legislature 2 
years ago passed a requirement for individuals working in 
restricted access areas on seaports, that they receive a 
background check, and if they pass that background check they 
can receive an ID card. We have done that. It has been a 
difficult process, because we do have a number of truckers that 
go from one port to another port. We are trying to accommodate 
those. We are using a Memorandum of Understanding between the 
seaports. So if you receive an ID card at Port of Tampa, you 
then go to the Port of Manatee and say I have been background 
checked, I need to get an ID card.
    Now, you will still have to get a printed ID card at that 
port, because we haven't reached the stage where we have one ID 
card yet. We certainly want to work cooperatively with TSA, 
because we don't want to have a system that you are going to 
adopt federally that doesn't work on a statewide system.
    With respect to funding, we had two issues. We had a 
statewide mandatory type issue. It was a mandate issue which 
certain of the legislature didn't put into place, but we also 
had issues after September 11th for augmentation of Federal 
type forces. As you may know, the security industry is huge in 
this State. Coast Guard had to take a number of their 
resources, move it up to New York or other areas. And as 
augmentation from our local seaports, we would have difficulty 
bringing in the cruise ships here.
    Looking at the numbers, we had a whole host of questions. 
But looking at the cost factors, including referring law 
enforcement type costs on the water, which is something local 
government seaports have never done, on the water type law 
enforcement, we ran about a $100 million stage, with $20 of 
that being a recurring cost. That number continues to grow as 
the consultants and everybody starts to look at it and 
everybody starts dealing with it.
    And I would be happy to answer any questions.
    Mr. Putnam. Thank you very much.
    Ms. Sansom. I would like to just mainly say thank you. 
Dixie Sansom, Canaveral Port Authority over on the East Coast 
at Port Canaveral. And I would like to say mainly from our 
standpoint of seaports throughout Florida, that we appreciate 
you all taking the time to be here. As Mike pointed out, the 
Florida seaports did not sit on our hands after the legislature 
passed it, and say aw, a song we have all heard, it is an 
unfunded mandate. We took the legislation, we went forward with 
it and did the best that we could with the resources that we 
had. We are very proud of that effort.
    Speaking of being proud, we are very proud, we are proud 
that we have five members of the Florida delegation on the 
House Government Reform Committee. I think that is a tribute to 
Florida and also the fact that our delegation, regardless of 
where they live or what party they are in, they work together, 
they listen, they are very accessible, and you all have super 
staff as well that worked with us.
    One thing that I would just like to point out, Port 
Canaveral has over 1.5 million passengers going through our 
port alone. We are a very compact port. Our main cargo is 
people, and we move--70 percent of our revenue is passengers. 
30 percent is cargo. And most of that cargo, a great deal of 
that cargo are agriculture, citrus-related products.
    I would just like to say that we have at Canaveral an 
outstanding team that includes Agriculture, Customs, INS, as 
well as the U.S. Air Force and Navy, because we have the 45th 
Space Wing right next to us and a naval Trident base, not to 
mention the Kennedy Space Center. We look forward to helping 
you all from the standpoint of any of our Florida seaports, or 
any of the other seaports in whatever we can do to help you in 
the efforts that you are making to help us.
    Thank you again for coming down.
    Mr. Putnam. Thank you very much.
    Ms. Kovack, welcome back.
    Mr. Kovack. Thank you. I really appreciate this permission 
to speak freely. I really think that to be diplomatic and 
politically correct sometimes you just need to say what the 
issues are. And I just wanted to specify some of my comments.
    One of the things that I think is a problem is the security 
personnel on dock unloading. When we talk about, you know, 
terrorism, if you were going to, say, take an 83-year-old 
woman, you take her aside, you are missing the terrorist. I 
think the same is true with the seaside as well. We are doing a 
good job on the landside, but for instance it is now up to the 
private individuals to hire security guards.
    Now, how trained they are is--you know, you get them from a 
security company. They come on. There are multiple personnel on 
the dock. So say if you have two ships unloading an anhydrous 
ammonia and a petroleum ship, you just tell the security guard 
I am with the petroleum ship, or I am with the anhydrous ship.
    From my understanding, it is a U.S. Coast Guard regulation, 
and so the Port Authority says that it is, you know, the 
responsibility of the private industries. We are all trying to 
work through this together. But at one time you can have as 
many as four security guards out there, and the reality is that 
you need some coordination there.
    Also, as far as the boom side, in Miami the Coast Guard has 
provided booms that go behind these vessels. Well, I think that 
is important because if a cigarette boat or something is trying 
to attack from the sea, you have to have a point where they 
cross that and then it becomes an issue. I don't know if that 
is going to happen here in Tampa as well.
    But if it were a Coast Guard unloading requirement for 
private industries, literally we would only have to provide 
security guards while offloading. So the reality is that ship 
would have no security guard in the interim. But, again, 
private companies are trying to work together. But it seems 
like it would be better to have highly trained, concentrated 
security personnel.
    And finally, I guess my other comment is what is 
reasonable? And there was a bill by EPA, 1602, that was just in 
front of Congress, or is coming in front of Congress. It 
actually talked about corporate liability. The reality is if 
anybody wants to get in an airplane and fly into any structure, 
they can do that. And the reality is everyone is doing the best 
that they can, government and industry together.
    Thank you.
    Mr. Putnam. Thank you very much. Our last speaker to bring 
us in for a landing. Sorry, two more.
    Mr. Davis. My name is Carl Davis. I am the local USDA 
Director of Operations here. I just wanted to say that we have 
had a dog detector team here in Tampa since last August. So we 
are going on a year now. This team consists of one trainer, one 
handler and one beagle. And we attempt to make that team 
available for every single foreign arriving aircraft at the 
Tampa International and St. Petersburg International.
    In addition to that, the team works cruise ship passengers 
as well. So we have one team here--to try to answer your 
questions about the rest of the teams in the State, as I 
understand, there are 16 allotted positions in Miami, beagle 
teams in Miami. I don't think they are all filled right now. I 
think there is approximately 10. Right now I don't know exactly 
how many are in Orlando because that is not my area of 
responsibility, but I think there is at least one there.
    Mr. Putnam. To clarify, the beagle team in Tampa inspects 
every international flight that lands at Tampa International 
and every foreign flag ship that comes into the Port of Tampa 
Seaport?
    Mr. Davis. No. It is available for every single foreign-
arriving aircraft at Tampa International Airport.
    Mr. Putnam. Is present?
    Mr. Davis. The dog also works passengers on foreign 
arriving cruise ships. The dog is not trained to work cargo. It 
is a passenger dog that detects agriculture contraband in 
passenger luggage. This is what this dog is trained for, 
primarily for work in an airport environment, in a maritime 
cruise ship environment, and it is very effective, very 
effective.
    Mr. Davis of Florida. Is one dog enough to handle the 
workload you just described?
    Mr. Davis. For here in Tampa, yes; that is, one dog is 
sufficient for what we see here in Tampa.
    Mr. Putnam. Measured against what?
    Mr. Davis. Measured against the passenger loads that you 
see in Orlando or Miami or LAX or JFK.
    Mr. Putnam. But what percentage of--it doesn't inspect 
every plane. I think--so if 100 percent is too much----
    Mr. Davis. Let me try to explain our situation here in 
Tampa. Normally we have approximately--we never have more than 
two or three foreign arriving flights a day, and normally they 
are not in the clearance room at the same time. So the dog has 
the opportunity as the passengers are picking up the luggage to 
sniff almost every bag, 100 percent of the bags. That may not 
be the case in other airports, but we have that luxury here in 
Tampa.
    Mr. Putnam. Thank you very much.
    Mr. Lemon. My name is Nolan Lemon. I am Public Affairs 
Specialist with the U.S. Department of Agriculture, and I will 
try to attempt to answer a couple of questions from earlier.
    From an agency standpoint, we approach it from a degree of 
risk, and our resources are managed in those regards in terms 
of high degree of risk. So say, for example, when the different 
agencies arrive at a vessel, we may not have the same risk 
factors on an arriving vessel. Agriculture may--from our 
standpoint, we may have a vessel arriving from an area that we 
consider high risk to agriculture, based on the incidence of 
pests and diseases, agriculture pests and diseases that occur 
in that country. However, it may not be a country of high risk 
to Immigration or Customs and vice versa. So you are not--you 
may not necessarily have a high degree of presence for every 
single vessel arriving, every single foreign arrival.
    And to match the concerns of the different agencies, we do 
work cooperatively. If the U.S. Customs Service finds something 
that is agriculturally related they will contact us. And we 
have had situations in the past, particularly in Miami, which 
is a high-risk area for us because of its proximity to high 
risk areas, as well as the amount of traffic that is coming 
into Mimai, so we have had situations where we have been 
alerted by U.S. Customs Service about mismanifested cargo that 
was being smuggled in. And just as here in Tampa, they do meet 
on a monthly basis to voice their concerns.
    For us in particular, one of the things that is very 
difficult for us is managing the resources, because as you 
said, sir, having a--if you have 100 percent degree of risk, 
how can we take the biggest chunk out of that 100 percent? We 
can never approach zero. But we want to manage our resources in 
such a way that we can get the biggest bite out of that 100 
percent as possible.
    For us, we have passenger clearance at the international 
airports. And when we weigh this in conjunction, in 
relationship rather, to passengers on international cruise 
vessels, most of the ship stores are U.S. stores. So in terms 
of risk, it is a lower risk for us, because those ship stores 
are originated from the U.S. and not from a foreign country.
    Mr. Putnam. Thank you very much. Parting thoughts, Mr. 
Chairman.
    Mr. Shays. I would like to thank some people. I would like 
to thank the Tampa Port Authority, and I would like to ask 
forgiveness when I read your names. John, I won't read titles 
since there are a number, but John Thorington, Bruce Hoffman, 
Luis Viamonte, Denise Mackey, Ken Washington, Barbara 
Heisserer, Richard Dixon, George Gorsuch, Linda Lutes, Steve 
Fidler, Captain Jimmy Griffin. From the Coast Guard, Dennis 
Tea, Robert Wyatt, Scott Ferguson, James Rarley and Brenda 
Trumbull.
    This has been a fascinating hearing, and I know my 
committee has had a tremendous amount of cooperation. I am a 
little suspect that they did choose to come a few days early to 
this hearing, but then, again, Florida is a nice place to live 
and work. I admit that.
    Mr. Putnam. I am very sorry. We had one more person. Please 
come back.
    Ms. Newcombe. I am Roberta Newcombe with a commercial 
company that is selling software to some of the Florida ports, 
looking to solve landside and waterside surveillance. And one 
of the concepts that I just want to leave the committee with is 
the Department of Defense has a wonderful saying, situational 
awareness, and that the security being controlled around the 
ports also has to be mitigated up toward first and local 
responders.
    And if you look to the Department of Defense, in their 
command and control centers they have a proven philosophy about 
how to make the agencies work to solve the event. And the 
software that--I don't want to talk much about our software, 
but the concept is very important that you look to the 
Department of Defense for situational awareness and how an 
enterprise-wide solution is a better concept.
    For example, Port of Tampa has private tenants. They have 
local law enforcement, and they have all of those agencies. And 
you need to make sure that infrastructure filters up; so as the 
event occurs and becomes more and more of a challenge, that it 
goes right up the chain of command. I will use that situation 
with the Port of Miami.
    The response from someone very high up in Florida was they 
were on a cell phone trying to figure out what was going on. 
And I really don't think that long term is the type of 
infrastructure for a long-term solution for security to really 
address things.
    Mr. Putnam. Thank you very much.
    Mr. Davis.
    Mr. Davis. Mr. Chairman, we always say here in Florida, 
Damn Yankees, anybody that came to Florida after you do. That 
is one of the reasons why so many of your constituents are 
here. So we are ready for you to move down here, but you need 
to help make our port a little more secure first.
    Mr. Putnam. We certainly want to recognize our official 
reporter, Mark Stuart, who has been working very hard for us. 
We appreciate the Port of Tampa's hospitality, and the 
hospitality for the morning boat tour. I want to thank the 
committee staff and my staff and particularly our chairman, who 
made this subcommittee hearing possible.
    It is always refreshing to get out of Washington and have 
some hearings. It is even more refreshing when you can breath 
the purified air of Florida sunshine and the wonderful 
environment that we have down here. I want to thank all of our 
witnesses, particularly Panel III.
    We want to thank Christian Spinosa and Courtney Putnam for 
joining us up here, and with that, the subcommittee stands 
adjourned.
    [Whereupon, at 5:40 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
